<html>
<title> - OVERSIGHT OF THE PRESIDENT'S FISCAL YEAR 2014 BUDGET REQUESTS FOR COAST GUARD AND NOAA</title>
<body><pre>[Senate Hearing 113-105]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-105
 
                      OVERSIGHT OF THE PRESIDENT'S

                    FISCAL YEAR 2014 BUDGET REQUESTS

                        FOR COAST GUARD AND NOAA
=======================================================================



                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 23, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
85-473                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
FRANK R. LAUTENBERG, New Jersey      MARCO RUBIO, Florida
MARK PRYOR, Arkansas                 KELLY AYOTTE, New Hampshire
CLAIRE McCASKILL, Missouri           DEAN HELLER, Nevada
AMY KLOBUCHAR, Minnesota             DAN COATS, Indiana
MARK WARNER, Virginia                TIM SCOTT, South Carolina
MARK BEGICH, Alaska                  TED CRUZ, Texas
RICHARD BLUMENTHAL, Connecticut      DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii                 RON JOHNSON, Wisconsin
WILLIAM COWAN, Massachusetts
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

MARK BEGICH, Alaska, Chairman        MARCO RUBIO, Florida, Ranking 
BILL NELSON, Florida                     Member
MARIA CANTWELL, Washington           ROGER F. WICKER, Mississippi
FRANK R. LAUTENBERG, New Jersey      KELLY AYOTTE, New Hampshire
RICHARD BLUMENTHAL, Connecticut      DAN COATS, Indiana
BRIAN SCHATZ, Hawaii                 TIM SCOTT, South Carolina
WILLIAM COWAN, Massachusetts         TED CRUZ, Texas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 23, 2013...................................     1
Statement of Senator Begich......................................     1
Statement of Senator Rubio.......................................     3
Statement of Senator Wicker......................................    24
Statement of Senator Klobuchar...................................    26
Statement of Senator Cowan.......................................    37
Statement of Senator Nelson......................................    39

                               Witnesses

Admiral Robert J. Papp Jr., Commandant, U.S. Coast Guard.........     4
    Prepared statement...........................................     6
Kathryn Sullivan, Ph.D., Acting Under Secretary of Commerce for 
  Oceans and Atmosphere and Acting Administrator, National 
  Oceanic and Atmospheric Administration, U.S. Department of 
  Commerce.......................................................    11
    Prepared statement...........................................    13

                                Appendix

Hon. John D. Rockefeller IV, Chairman, U.S. Senate Committee on 
  Commerce, Science, and Transportation, and U.S. Senator from 
  West Virginia, prepared statement..............................    47
Hon. Frank R. Lautenberg, U.S. Senator from New Jersey, prepared 
  statement......................................................    48
Response to written questions submitted to Admiral Robert J. 
  Papp, Jr. by:
    Hon. John D. Rockefeller IV..................................    48
    Hon. Mark Begich.............................................    51
    Hon. Frank R. Lautenberg.....................................    52
    Hon. Mark Warner.............................................    53
    Hon. Amy Klobuchar...........................................    53
    Hon. Richard Blumenthal......................................    53
    Hon. Brian Schatz............................................    54
Response to written questions submitted to Kathryn Sullivan, 
  Ph.D. by:
    Hon. John D. Rockefeller IV..................................    55
    Hon. Mark Begich.............................................    58
    Hon. Barbara Boxer...........................................    63
    Hon. Frank R. Lautenberg.....................................    64
    Hon. Richard Blumenthal......................................    67
    Hon. Brian Schatz............................................    70
Response to written questions submitted to Admiral Robert J. 
  Papp, Jr. by:
    Hon. John Thune..............................................    72
    Hon. Marco Rubio.............................................    74
    Hon. Kelly Ayotte............................................    75
Response to written questions submitted to Kathryn Sullivan, 
  Ph.D. by:
    Hon. Marco Rubio.............................................    75
    Hon. Roger F. Wicker.........................................    78
    Hon. Kelly Ayotte............................................    81

                      OVERSIGHT OF THE PRESIDENT'S

                    FISCAL YEAR 2014 BUDGET REQUESTS

                        FOR COAST GUARD AND NOAA

                              ----------                              


                        TUESDAY, APRIL 23, 2013

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:08 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. I will call the Senate Committee on 
Commerce, Science, and Transportation Subcommittee on Oceans, 
Fisheries, and Coast Guard to order today.
    Thank you very much, both of you, for attending.
    We will be covering the Coast Guard and NOAA's operating 
budget and oversight hearing today. So thank you all, again, 
for being here.
    Again, welcome, Admiral Papp, Commandant of the United 
States Coast Guard; and Dr. Kathryn Sullivan, Acting 
Administrator of the National Oceanic and Atmospheric 
Administration. Thank you for both being here.
    Both the Coast Guard and NOAA perform vital services for 
our nation. The 41,000 men and women in the U.S. Coast Guard 
carry out a wide array of civil and military responsibilities, 
which touch every aspect of the U.S. maritime sector. They 
protect the Nation's maritime economy and environment, defend 
our maritime borders, safeguard our ports, and save those in 
peril on the sea.
    Last year, the Coast Guard responded to some 20,000 search 
and rescue cases nationwide, and saved more than 3,500 lives. 
They saved millions of dollars in property, stopped thousands 
of undocumented migrants from illegally entering the country, 
and seized hundreds of tons of drugs.
    The Coast Guard also deploys forces in support of our 
troops overseas, conducts humanitarian missions, and leads the 
response to pollution incidents.
    Perhaps nowhere is their importance better known than in my 
own home state of Alaska--where we will say, also, we have a 
great TV show about the Coast Guard, too--where our economy is 
based on the fishing industry, the safe transportation of oil 
and other maritime commerce, and recreational boating.
    We're proud to be the home of the Nation's largest Coast 
Guard base in Kodiak, Alaska, and with cutters and air 
stations, small boat stations, and many dedicated and talented 
guards--men and women--throughout the state.
    Last year, the Coast Guard's Operation Arctic Shield was an 
unprecedented deployment of personnel, cutters, and aircraft 
above the Arctic Circle to respond to the increased shipping 
and energy activity in that fast-changing environment.
    To honor the service and sacrifice of its men and women, 
Congress should ensure that the Coast Guard has the tools they 
need to do all we ask them to do. While our nation struggles 
with finding a responsible balance of fiscal restraint with a 
budget that meets our needs and responsibilities, I'm quite 
concerned about the nearly $1 billion reduction proposed in the 
Coast Guard Fiscal Year 2014 budget.
    Last year, we passed an authorization bill for the Coast 
Guard that authorized over $700 million more in discretionary 
funding than the President's request would provide. The Act's 
funding level represented a strong consensus of support in both 
houses of Congress for the Coast Guard and the need to fund the 
essential missions and perform.
    I'm worried what lowered funding would mean not only for 
our readiness today, but for the significant cuts slated for 
the acquisitions, what that means for our preparedness for 
future activities, including the need to replace our polar 
class icebreakers.
    I look forward to discussing this with the Admiral Papp 
today.
    NOAA also plays a vital role for our nation, and I welcome 
Dr. Sullivan in today's hearing.
    NOAA's accurate observations and forecasts are essential to 
the Nation's weather-dependent industries, like agriculture, 
aviation, and shipping, and, of course, in my state, fishing.
    For these sectors, weather forecast means more than just 
planning a picnic. Economic vitality, critical business 
decisions, and, indeed, lives depend on their accuracy.
    I commend NOAA for its response to the increasing 
incidences of severe weather our nation has experienced. The 
accurate forecast of the severity of the course of Hurricane 
Sandy last year gave advance warning, which saved lives and 
property from the devastating superstorm. And in the wake of 
the storm, NOAA's hydrographic survey vessels immediately went 
to work to ensure that the shipping channels impacted by the 
storm remained clear and open to bring in needed supplies and 
restore commerce along the Atlantic seaboard.
    Our nation's fishermen also depend on NOAA's assessment of 
fish stock status to ensure their harvest, which drives the 
economy of so many coastal communities nationwide, and making 
sure it is sustainable. And I'd also like to brag, as producer 
of over half the Nation's seafood, this is critical for Alaska.
    Also critical is the work on timely review and permitting 
of oil and gas activities to ensure its compatibility with 
marine mammal population, upon which Alaska native people 
depend on as a traditional source of nutrition.
    I'm pleased the administration has proposed a modest 
increase to the NOAA Fiscal Year 2014 budget. Most is to 
maintain vital satellite tracking capabilities, but also others 
for ocean observation, fish stock assessments, and basic 
research into climate and marine debris, among other programs.
    But I share concerns about the programs which are being cut 
to afford these, and the impact of furloughs on NOAA personnel 
and maintaining essential services.
    I look forward to today's discussion, again, with Dr. 
Sullivan.
    Before we turn to the witness, let me ask my Ranking 
Member, Senator Rubio, to make his opening statement.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Chairman.
    And I want to thank our witnesses here at the Subcommittee 
today. And particularly, I want to thank you, Admiral Papp, for 
being here.
    Last year, the Coast Guard responded to close to 20,000 
search and rescue cases and saved more than 3,500 lives, and it 
played such an important role in so many areas. And coming from 
a state like Florida, I just want to say that we very much 
appreciate your service to our country.
    And I also want to thank the Chairman for holding this 
hearing today. As I think is well-known, we live in a time of 
record deficits, and maintaining the right policy priorities is 
more important than ever.
    And I appreciate the opportunity to hear today what the 
administration's priorities are for the upcoming fiscal year 
for both the Coast Guard and for NOAA.
    And specifically, I'm interested in hearing from the Coast 
Guard about the status of their recapitalization efforts. This 
program is vital to our national security, so I was 
disappointed to see in the latest budget proposal that the 
effort is being scaled back, and I will have a few questions on 
that topic.
    Additionally, I understand the President's budget proposal 
shifts our Navy assets in the Western Hemisphere to the 
Pacific. Now, as the Ranking Member on the East Asian and 
Pacific Affairs Subcommittee, I recognize the importance of and 
support a strong U.S. presence in that region. However, I'm 
going to have several questions about the reduction of our 
presence in the Western Hemisphere and the implications of this 
reduction on the counter-illicit trafficking mission of our 
Joint Interagency Task Force South.
    As for the NOAA budget, I've long called for increased and 
improved data collection to support the proper management of 
our nation's fisheries, and I'm encouraged by the increased 
emphasis on expanding stock assessments in the President's 
budget. However, I'm equally disappointed to see the continued 
diversion of money from the Saltonstall-Kennedy Grant Program, 
and I'll have a few questions for Dr. Sullivan on this topic.
    Additionally, NOAA has recently proposed to list 66 species 
of coral under the Endangered Species Act, several of which are 
found off the coast of Florida. And I'm concerned about the 
implication of this listing and how it will impact many of the 
vital industries in the state of Florida, such as commercial 
and recreational fishing industries. I'll be interested to hear 
how the agency intends to move forward with this listing.
    And finally, the President recently released his 
implementation plan for the National Ocean Policy, and I'm 
concerned about the unintended consequences that may result 
from the President's implementation plan. Too often, this 
administration puts forth ``voluntary,'' quote-unquote, 
documents like the National Ocean Policy that, when all is said 
and done, we're faced with a new regulatory regime with 
questionable value and severe economic consequences.
    Last Congress, I requested an oversight hearing on this 
policy, and I'm hopeful that the Committee will renew its focus 
on this initiative in the coming year.
    With that, I want to again thank you, Mr. Chairman, and the 
witnesses for being here with us today, and I look forward to 
your testimony.
    Senator Begich. Thank you very much, Senator Rubio.
    Let me go ahead and we'll start with Commandant Papp.
    We thank you very much for being here, and it's always a 
pleasure to see you. And I know the folks in Alaska, when you 
come visit the stations there, always appreciate the visit from 
the folks in D.C., so thank you for doing that on a regular 
basis.

  STATEMENT OF ADMIRAL ROBERT J. PAPP, JR., COMMANDANT, U.S. 
                          COAST GUARD

    Admiral Papp. Thank you, Chairman Begich, and we will be 
back.
    Thank you, sir. It's great to be here before you.
    And, Senator Rubio, it's great to appear before you the 
first time and this subcommittee, because it's my honor to be 
here to talk about our Coast Guard, and in particular, the FY14 
budget.
    I'd like to begin by thanking all of you for the tremendous 
support we received over the last year for the FY13 budget and 
also the emergency supplemental for Hurricane Sandy. It enables 
us to continue to recapitalize our aging fleet, to sustain our 
frontline operations, and to care for our people. These were 
hard-earned gains that I hope to sustain in spite of the 
uncertain and stormy seas caused by the current fiscal 
environment.
    Yesterday in Boston, the Nation began to pay tribute and 
final respects to those killed in last week's senseless 
violence. The collective hearts of our Coast Guard family go 
out to the people of Boston and all the families that have been 
harmed by this tragedy.
    But they also go out because the Coast Guard is a part of 
that community in Boston, and we were able to respond 
immediately with boats and crews, an armed helicopter, vessel 
boarding teams, and overall enhancement of the maritime 
transportation security posture.
    Our ability to respond like this, not only in Boston but in 
all our ports, is a direct result of the support that we've 
received from the Congress and the administration over the last 
12 years.
    The results of that support were also demonstrated during 
Hurricane Sandy, when we rescued 14 crewmembers from the 
sailing ship HMS Bounty in 30-foot seas and 60-knot winds 80 
miles offshore.
    We're also a part of the community in New York and New 
Jersey, so we were pleased to be able to get the port running 
again after the storm, and we worked across government and 
industry to reopen the port to the vital commerce that it 
provides.
    Last year, to meet the growing demands in the Arctic, we 
completed Operation Arctic Shield, a 9 month interagency effort 
including deployment of a national security cutter, two ice-
capable buoy tenders, and two helicopters 300 miles above the 
Arctic Circle. Given the lack of shore infrastructure and the 
extreme conditions, the capabilities provided by our national 
security cutter were very critical.
    In executing the Department of Homeland Security layered 
security strategy, the Coast Guard detected and interdicted 
threats as far from our shores as possible. Targeting Central 
America coastal trafficking routes, our cutters and aircraft 
teamed with interagency aircraft to detect and interdict drug-
smuggling vessels carrying 107 metric tons of cocaine, a street 
value of nearly $15 billion, and we also disrupted 
transnational criminal organizations. Closer to shore, we 
responded to the growing threat of the small go-fast vessels 
that smugglers are using to avoid increased security along the 
southwest border.
    Drug smuggling, human trafficking, and other illicit 
maritime activity continues to threaten our nation. Those 
engaged in this trade are growing smarter, bolder, and they're 
taking greater risks and increasing danger to our homeland. 
Transnational criminal organizations in Central America and 
Mexico are financed by narcotics that arrive by way of the sea, 
leaving behind a wave of crime and instability in their wake.
    In December, we were reminded of the dangers of our duties 
as I presided at the memorial service for Senior Chief 
Boatswain's Mate Terrell Horne III of the Coast Guard Cutter 
Halibut. He was killed by smugglers when they rammed his Coast 
Guard pursuit boat near San Diego. Our commitment to the Nation 
and our duty to honor the memory of Senior Chief Horne 
strengthens our resolve to defeat these threats.
    Unfortunately, much like the weather and the seas that we 
encounter on a daily basis, the Coast Guard cannot control the 
fiscal environment in which we operate. We will make the best 
use of the resources you provide to safely and effectively 
conduct operations in the areas of greatest risk to the Nation 
while recapitalizing our cutters, boats, and aircraft to 
address current and emerging threats, particularly in the 
offshore environment.
    This past year, we made great strides in recapitalizing the 
Coast Guard's aging fleet. In October we'll christen the fourth 
national security cutter, the Hamilton. Number five is under 
construction. We're about ready to award the contract on number 
six. And we've taken delivery of five new fast-response cutter 
patrol boats, 14 HC-144 aircraft, and we've also contracted for 
the ninth HC-130J, and completed the midlife availability of 
our other patrol boats and are nearly complete with the midlife 
availability on our medium-endurance cutters at the Coast Guard 
Yard.
    Despite these successes, we have a long way to go to 
recapitalize the Coast Guard with the ships, boats, and 
aircraft the Nation needs. The capital investment plan, which 
has been delivered recently to Congress, should help to inform 
the discussion on the years ahead.
    As the Department of Defense rebalances to the Pacific, 
maritime activity increases in the Arctic, and our nation 
focuses on the Southwest border, offshore demand for Coast 
Guard capabilities and authorities is increasing.
    Our 378-foot high endurance cutters have ably served the 
offshore environment for 50 years, but as I've testified in the 
past, they are at the end of their service lives. So I'm very 
happy to report that I received strong support from the 
Secretary and the President on my absolute highest acquisition 
priorities, including the funding for the seventh national 
security cutter in the 2014 budget.
    The FY14 budget sustains the most critical frontline 
operations while funding the most critical acquisition 
projects. In the current fiscal environment, this required 
tough decisions to be informed by my highest priorities. These 
were difficult decisions for me and the service, but they were 
the best decisions to ensure we provide the next generation of 
Coast Guardsmen the tools required to protect our nation.
    While realistic and mindful of the current fiscal 
environment, I remain optimistic about the future of the Coast 
Guard. It's my duty to look beyond the annual budget cycle and 
to prepare and adapt the service and keep it moving forward to 
address the greatest maritime safety and security risk to the 
Nation now and in the future.
    The men and women of the Coast Guard give their all and 
make sacrifices every day putting their country first. We owe 
them our very best efforts to provide them the support that 
they need.
    This subcommittee has long supported the men and women of 
the Coast Guard, recognizing their sacrifice. And on behalf of 
all my Coast Guard shipmates, I want to thank you, and I look 
forward to answering your questions.
    [The prepared statement of Admiral Papp follows:]

    Prepared Statement of Admiral Robert J. Papp, Jr., Commandant, 
                            U.S. Coast Guard
Introduction
    Good morning Mr. Chairman and distinguished members of the 
Committee. Thank you for the continuing support you have shown to the 
men and women of the United States Coast Guard, including the funding 
provided in the Consolidated and Further Continuing Appropriations Act, 
2013 to recapitalize the aging fleet and sustain front-line operations.
    This year marks our 223rd year of protecting those on the sea, 
protecting the Nation from threats delivered by the sea, and protecting 
the sea itself. The Coast Guard is the Nation's maritime first 
responder. We are vested with unique authorities, equipped with capable 
cutters, boats, aircraft and infrastructure, and are composed of the 
best people the Nation has to offer. We are Semper Paratus--``Always 
Ready'' to meet the Nation's evolving maritime safety, security and 
stewardship needs. We are locally based, nationally deployed and 
globally connected.
    I am here today to discuss the Coast Guard's FY 2014 Budget 
Request. Before discussing the details of the request, I would like to 
take this opportunity to highlight some of the Coast Guard's recent 
operational successes, and our value and role in the Department of 
Homeland Security (DHS) and in service to the Nation.
    Over the past year, Coast Guard men and women (Active Duty, 
Reserve, Civilian and Auxiliarists), with strong support from our 
families, continued to deliver premier service to the public. When 
Hurricane Sandy threatened the eastern seaboard, the Coast Guard acted 
with the speed, agility and courage that America expects during natural 
disasters. In advance of the storm's landfall, we worked with the 
interagency, industry and state and local partners to ensure our ports 
and maritime transportation system were prepared. As the storm raged, 
our aircrews and cutters responded to the foundering HMS BOUNTY, 
rescuing 14 crewmembers from the 30-foot seas and 60-knot winds. In the 
Port Authority of New York and New Jersey, Coast Guard personnel 
restored the aids to navigation system within days; worked with U.S. 
Customs and Border Protection, the Army Corps of Engineers, local 
government and industry to reopen the port to commerce; helped de-water 
flooded tunnels leading to Manhattan, and contained 378,000 gallons of 
diesel fuel that had spilled into the Arthur Kill waterway when the 
storm surge caused the failure of shoreside fuel storage tanks.
    To prepare to meet the emerging challenges in the Arctic, we 
successfully completed Operation Arctic Shield, a nine-month 
interagency effort to assess our capabilities, including the deployment 
of a National Security Cutter and two of our ocean going, light ice 
capable buoy tenders, as well as the temporary assignment of two H-60 
helicopters 300 miles north of the Arctic Circle.
    Last year, the Coast Guard responded to 19,790 search-and-rescue 
cases and saved more than 3,500 lives; seized over 107 metric tons of 
cocaine and 56 metric tons of marijuana destined for the United States; 
seized 70 vessels, and detained 352 suspected smugglers; conducted more 
than 11,600 annual inspections of U.S.-flagged vessels; conducted 4,600 
marine casualty investigations; conducted more than 9,000 Port State 
Control and Security examinations on foreign-flagged vessels; and 
responded to 3,300 pollution incidents.
    This past year we made great strides in recapitalizing the Coast 
Guard's aging fleet. In October we will christen the fourth National 
Security Cutter, Coast Guard Cutter HAMILTON. In addition to providing 
us off-shore presence in the Arctic during heightened summer activity, 
these remarkable ships have excelled in interdicting drug and migrant 
smuggling in the eastern Pacific and have enabled the Coast Guard to 
provide command and control, helicopter, and boat capabilities from the 
farthest reaches of the Pacific to the Bering Sea. I am also very 
pleased with our new Fast Response Cutters (FRC's). To date, we have 
taken delivery of five of these new highly capable patrol boats. We 
have also taken delivery of 14 new HC-144 medium range surveillance 
aircraft, contracted for the ninth HC-130J and have nearly completed 
the H-60 conversion project. At the Coast Guard Yard, we completed work 
on the Patrol Boat Mission Effectiveness Project, extending the service 
lives of our 110-foot patrol boats, and continued work on the 
sustainment projects for our fleet of Medium Endurance Cutters. We also 
recently completed an overhaul of the Cutter POLAR STAR, returning the 
Nation's only heavy icebreaker to active service. None of these 
critical recapitalization milestones would have been reached without 
the strong support of the Administration and the Committees.
    As a military service, we provide unique, specialized capabilities 
as part of the Joint Force. But the Coast Guard is much more. We are 
the maritime arm of the DHS. We seek to prevent dangerous or illicit 
maritime activities, and if undesirable or unlawful events do occur, 
(whether deliberate or accidental), to rapidly respond in order to 
protect the Nation, minimize the impact, and recover.
    Every day the Coast Guard acts to prevent and respond to an array 
of threats that, if left unchecked, could disrupt regional and global 
security, the economies of partner nations, access to resources and 
international trade. All of these are vital elements to our national 
prosperity. And it is this prosperity that spurs investment and global 
development, provides jobs, and provides the resources to pay for both 
our national security and our national defense. It is Coast Guard men 
and women, working every day in the maritime domain, who enhance our 
security, reinforce the rule of law, support stability at home and 
abroad, and increase our prosperity.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

FY 2014 Request
    The Coast Guard's FY 2014 Budget continues the critical balance 
between investment in current operations and recapitalization. The FY 
2014 Budget strategically allocates resources to best mitigate current 
and long-term operational risks, while investing in new cutters, boats, 
aircraft, systems and infrastructure necessary to ensure the viability 
of the Coast Guard in the future.
    The Coast Guard's FY 2014 strategic and budget priorities are to:

  1.  Build Essential Coast Guard Capability for the Nation;

  2.  Strengthen Resource and Operational Stewardship; and

  3.  Sustain the Most Critical Front-Line Operations

    Highlights from our request are included in Appendix I.
Build Essential Coast Guard Capability for the Nation
    Recapitalization is essential for the long term viability of the 
Coast Guard. The condition and serviceability of the Coast Guard's in-
service surface fleet, the aging of fixed and rotary wing air assets, 
and the projected timelines to replace these assets require continued 
investment in surface and air recapitalization programs to maintain the 
capability to operate. To strengthen DHS' layered security approach 
offshore, the FY 2014 budget provides for the acquisition of a seventh 
National Security Cutter and two more Fast Response Cutters, and 
continues pre-acquisition activities for the Offshore Patrol Cutter and 
Polar Icebreaker. The budget also continues sustainment and conversion 
work on fixed wing and rotary wing aircraft, procurement of cutter 
boats, and investment in Command, Control, Communications, Computers, 
Intelligence, Surveillance, and Reconnaissance (C4ISR) systems.
Strengthen Resource and Operational Stewardship
    In FY 2014, Coast Guard will decommission two High Endurance 
Cutters (WHECs) that are being replaced by more capable National 
Security Cutters. The Coast Guard will also consolidate regional assets 
where overlapping capabilities exist by closing Air Facilities in 
Newport, OR and Charleston, SC. The 2014 budget ensures that our 
resources are aligned to our nation's highest priorities in a manner 
that balances key investments for the future with sustaining essential 
investment in today's missions and capabilities that provide the 
highest return on investment.
Sustain the Most Critical Front-Line Operations
    The FY 2014 budget sustains the most critical front-line 
operations, including maintaining search and rescue coverage, 
protecting critical infrastructure and key resources, supporting safe 
navigation, safeguarding natural resources, protecting the environment, 
detecting and interdicting drugs and individuals attempting to enter 
the United States illegally, and supporting the Nation's foreign policy 
objectives.
Conclusion
    The United States is a maritime nation. Foreign trade relies upon 
the safety and security of our Nation's ports and waterways. Coast 
Guard missions, authorities and capabilities are crucial to providing 
for that safety and security and preserving our national interests. We 
ensure the safe and secure flow of commerce, patrol our vast exclusive 
economic zone, fight maritime drug smuggling and human trafficking, 
provide the Nation's maritime first response force to both natural and 
manmade disasters, and protect our shores against transnational 
criminals, extremists, and others who seek to do us harm. We remain 
focused on protecting the United States as the strong maritime arm of 
the DHS. The Coast Guard's FY 2014 budget request allocates resources 
to the highest priority initiatives to counter the most emergent 
threats, mitigate risks, and keep the maritime domain safe and secure. 
I request your full support for the funding requested for the Coast 
Guard in the President's FY 2014 Budget. Again, thank you for the 
opportunity to testify before you today. I am pleased to answer your 
questions.
                                 ______
                                 
              Appendix I--Fiscal Year 2014 Budget Request
Build Essential Coast Guard Capability for the Nation
  <bullet> Surface Assets    $743.0M (0 FTE)
    The budget provides $743.0 million for surface assets, including 
        the following surface asset recapitalization and sustainment 
        initiatives:

    <ctr-circle> National Security Cutter (NSC)--Provides funding for 
            the seventh NSC; NSCs will replace the aging fleet of High 
            Endurance Cutters, first commissioned in 1967. The 
            acquisition of NSC-7 is vital for performing DHS missions 
            in the far off-shore regions, including the harsh operating 
            environment of the Pacific Ocean, Bering Sea, and Arctic as 
            well as providing for robust homeland security contingency 
            response.

    <ctr-circle> Fast Response Cutter (FRC)--Provides production 
            funding to procure two FRCs. These assets replace the aging 
            fleet of 110-foot patrol boats, and provide the coastal 
            capability to conduct Search and Rescue operations, enforce 
            border security, interdict drugs, uphold immigration laws, 
            prevent terrorism, and enhance resiliency to disasters.

    <ctr-circle> Offshore Patrol Cutter (OPC)--Supports continued 
            initial acquisition work and design of the OPC. The OPC 
            will replace the Medium Endurance Cutter class to conduct 
            missions on the high seas and coastal approaches.

    <ctr-circle> Polar Ice Breaker (WAGB)--Continues funding for pre-
            acquisition activities for a new Coast Guard polar 
            icebreaker. This cutter will provide continued heavy 
            icebreaking capability to the Nation for missions in the 
            Arctic and Antarctic following the projected end of service 
            life of the POLAR STAR on or about 2022.

    <ctr-circle> Cutter Boats--Provides continued funding for 
            production of multi-mission cutter small boats that will be 
            fielded on the Coast Guard's major cutter fleet beginning 
            with the NSC.

    <ctr-circle> In-Service Vessel Sustainment--Continues to fund 
            sustainment projects on 140-foot ice breaking tugs (WTGB), 
            225-foot seagoing buoy tenders, and the training Barque 
            EAGLE (WIX).

    <ctr-circle> Survey and Design--Builds upon previous years to 
            continue multi-year engineering and design work for 
            multiple cutter classes in support of future sustainment 
            and acquisition projects.

  <bullet> Air Assets    $28.0M (0 FTE)
    The budget provides $28.0 million for the following air asset 
        recapitalization or enhancement initiatives:

    <ctr-circle> HH-65--Continues modernization and sustainment of the 
            Coast Guard's fleet of HH-65 helicopters, converting them 
            to MH-65 Short Range Recovery (SRR) helicopters. The 
            modernization effort includes reliability & sustainability 
            improvements, where obsolete components are replaced with 
            modernized sub-systems, including an integrated cockpit and 
            sensor suite.

    <ctr-circle> C-130H/J--Funds sustainment of avionics systems on 
            existing C-130H aircraft. The Avionics 1 Upgrade (A1U) 
            installations on C-130H aircraft enhances the capability of 
            the C-130H fleet by replacing aging/obsolete equipment, and 
            updating avionics to comply with Communications Navigation 
            Surveillance/Air Traffic Management (CNS/ATM) requirements.

  <bullet> Other (Asset Recapitalization)    $59.9M (0 FTE)
    The budget provides $59.9 million for asset recapitalization, 
        including the following equipment and services:

    <ctr-circle> Command, Control, Communications, Computers, 
            Intelligence, Surveillance, and Reconnaissance (C4ISR)--
            Provides design, development, upgrades and assistance on 
            C4ISR hardware and software of new and in service assets.

    <ctr-circle> CG-Logistics Information Management System--Continues 
            development and deployment to Coast Guard operational 
            assets and support facilities.

    <ctr-circle> Nationwide Automatic Identification System (NAIS)--
            Completes deployment of the permanent transceive system to 
            recapitalize the existing interim NAIS capability in 58 
            ports and 11 coastal areas.

  <bullet> Shore Units and Aids to Navigation (ATON) $5.0M (0 FTE)
    The budget provides $5.0 million to recapitalize shore 
        infrastructure for safe, functional, and modern facilities that 
        support Coast Guard assets and personnel:

    <ctr-circle> Specific Project--Completes Phase One of Base Miami 
            Beach waterfront facilities.

    <ctr-circle> ATON Infrastructure--Maintains transportation safety 
            on Federal waterways through construction and improvements 
            to short-range aids and infrastructure to improve the 
            safety of maritime transportation.

  <bullet> Personnel and Management    $115.8M (818 FTE)
    The budget provides $115.8 million to provide pay and benefits for 
        the Coast Guard's acquisition workforce.
Strengthen Resource and Operational Stewardship
FY 2014 Major Decreases:
  <bullet> Asset Decommissionings
    In FY 2014 the Coast Guard will make targeted operational 
        reductions to prioritize front-line operational capacity and 
        invest in critical recapitalization initiatives.

    <ctr-circle> High Endurance Cutter (WHEC) Decommissionings    -
            $14.2M (-184 FTE)
      The FY 2014 budget decommissions the fifth and sixth High 
            Endurance Cutters (WHECs). National Security Cutters, 
            including the seventh NSC which is fully funded in this 
            budget request, replace the aging HEC fleet.

    <ctr-circle> Cutter Shoreside Support Personnel Reduction    -$0.8 
            M (-10 FTE)
      Reduces WHEC Maintenance Augmentation Team (MAT) and Surface 
            Forces Logistics Center (SFLC) billets associated with the 
            decommissioning of two WHECs.

    <ctr-circle> HU-25 Aircraft Retirements    -$9.4M (-36 FTE)
      Retires the eight remaining HU-25 aircraft assigned to Coast 
            Guard Air Station Corpus Christi, TX; Aviation Logistics 
            Center, Elizabeth City, NC; and, Aviation Training Center, 
            Mobile, AL. This will allow for the transition to HC-144A 
            aircraft.

    <ctr-circle> HC-130 Aircraft Retirements    -$7.7M (-29 FTE)
      This initiative eliminates funding and personnel associated with 
            two HC-130H aircraft. The newly acquired HC-130J aircraft 
            will provide increased operational reliability.

    <ctr-circle> Close Air Facilities    -$5.1M (-28 FTE)
      The Coast Guard will close AIRFACs at Charleston, SC and Newport, 
            OR. The Search and Rescue response times within the AIRFAC 
            areas of responsibility will remain within national 
            standards.

  <bullet> Programmatic Reductions
    The budget proposes targeted reductions in several base program 
        areas. These base adjustments recognize changes in requirements 
        need for selected activities and prioritizes sustainable 
        investment in recapitalization programs.

    <ctr-circle> CG Headquarters Staffing    -$6.7M (-53 FTE)
      Reflects the anticipated reduction in Coast Guard Headquarters 
            personnel as a result of the existing hiring freeze and 
            normal workforce attrition.

    <ctr-circle> Targeted Intelligence Program    -$1.5M (-14 FTE)
      Scales intelligence activities across the Service by 
            consolidating analysts at centers, Areas, and Districts; 
            consolidating IT support positions at headquarters; and, 
            eliminating the 24/7 call-in maritime watch at the El Paso 
            Intelligence Center (EPIC) that provides services that will 
            remain available through a different watch floor.

    <ctr-circle> Port State Control Examinations    -$1.7M (-20 FTE)
      Reduces Port State Control personnel by limiting examination 
            activities aboard some foreign flagged vessels assessed as 
            lower risk.

    <ctr-circle> Coast Guard Training    -$43.2M (-153 FTE)
      Leverages web-based distance learning and reduces schoolhouse 
            throughput. Specialty and technical training schools will 
            group into centers of expertise to leverage available 
            resources. Educational benefits will be focused on enlisted 
            personnel who are pursuing an initial undergraduate degree. 
            Reduces accessions and support staffs as well as 
            operational and maintenance funds at the Coast Guard 
            Academy, Leadership Development Center, and Officer 
            Candidate School commensurate with anticipated reduction in 
            out-year accession projections based on reduced workforce 
            levels.

    <ctr-circle> Other Targeted Program Reductions    -$1.2M (-26 FTE)
      The Coast Guard will make targeted reductions to Auxiliary 
            Program Management, the International Port Security 
            Program, and District Drug and Alcohol Program Inspectors 
            (DAPI). Routine DAPI functions will shift to Coast Guard 
            Marine Inspectors and Investigators.
Sustain the Most Critical Front Line Operations
  <bullet> Pay & Allowances $43.9M (0 FTE)
    The budget provides $43.9 million to fund the civilian pay raise 
        and maintain parity of with DOD for military pay, allowances, 
        and health care. As a branch of the Armed Forces of the United 
        States, the Coast Guard is subject to the provisions of the 
        National Defense Authorization Act, which include pay and 
        personnel benefits for the military workforce.

  <bullet> Operating and Maintenance Funds for New Assets    $64.7M 
        (213 FTE)
    The budget provides a total of $64.7 million to fund operations and 
        maintenance of shore facilities and cutters, boats, aircraft, 
        and associated C4ISR subsystems delivered through acquisition 
        efforts. Funding is requested for the following assets and 
        systems:

    <ctr-circle> Shore Facilities--Funding for the operation and 
            maintenance of shore facility projects scheduled for 
            completion prior to FY 2014.

    <ctr-circle> Response Boat-Medium--Funding for operation, 
            maintenance and support of 30 RB-Ms as well as personnel 
            for maintenance support requirements and instructors to 
            support fleet training requirements.

    <ctr-circle> Rescue 21 (R21)--Funding for the support of the R21 
            System as well as maintenance of Coast Guard leased and 
            owned towers, Western Rivers communications sites, and 
            encrypted communications for over-the-air-re-key (OTAR).

    <ctr-circle> FRC--Operating and maintenance funding for FRCs #10-12 
            and funding for personnel to operate and maintain hulls 
            #11-12, homeported in Key West, FL as well as the first two 
            San Juan, PR hulls.

    <ctr-circle> NSC--Operating and maintenance funding for NSC #4 to 
            be homeported in Charleston, SC. The initiative also 
            provides personnel to operate NSCs #4-5.

    <ctr-circle> HC-144A MPA--Operating and maintenance and personnel 
            funding to operate and support aircraft #16-17 that will be 
            assigned to Air Station Corpus Christi, TX. Also funds 
            maintenance of the first 17 Mission System Pallets (MSPs)--
            the sensor package for each operational HC-144A.

    <ctr-circle> Manned Covert Surveillance Aircraft (MCSA)--Operating, 
            maintenance and personnel funding to operate and support 
            the first aircraft which is planned to operate out of 
            Miami, FL and provide an additional 1,000 hours of maritime 
            surveillance capacity.

    <ctr-circle> Air Station Corpus Christi Transition--Provides 
            funding for the transition from operating HU-25 aircraft to 
            operation of HC-144A aircraft.

  <bullet> Financial Systems Modernization    $29.5M (0 FTE)
    Provides funding to support the Financial Management Service 
        Improvement Initiative (FMSII) for Coast Guard and 
        Transportation Security Administration (TSA). This initiative 
        will plan, prepare, configure, test, and migrate the Coast 
        Guard's and TSA's financial management system (FMS) including 
        the financial, contract, and asset accountability management 
        systems to a shared service provider (SSP).

    Senator Begich. Thank you very much, Commandant.
    Let me move now to Dr. Sullivan, again, Acting Director for 
NOAA.
    Thank you very much for being here.

       STATEMENT OF KATHRYN SULLIVAN, PH.D., ACTING UNDER

        SECRETARY OF COMMERCE FOR OCEANS AND ATMOSPHERE

           AND ACTING ADMINISTRATOR, NATIONAL OCEANIC

                AND ATMOSPHERIC ADMINISTRATION,

                  U.S. DEPARTMENT OF COMMERCE

    Dr. Sullivan. Thank you, Mr. Chairman, Ranking Member 
Rubio, and members of the Committee.
    I am very pleased, also, to be here today to be talking to 
you about the President's----
    Senator Begich. Is your microphone on?
    Dr. Sullivan. Now it's on. My apologies.
    Senator Begich. Thank you.
    Dr. Sullivan. I'm pleased to be here to present the 
President's FY14 budget request for NOAA to you today.
    This budget builds on a year of considerable achievement 
for NOAA, made possible by the dedicated work of our superb 
employees and the many partners who help us achieve our 
mission.
    This past year provided, again, evidence of the tremendous 
value that NOAA delivers to the American public. Thanks to the 
agency's unique mix of oceanic and atmospheric science, 
service, and stewardship, and the strong ability we have 
developed through our 40 year long history to mobilize and fuse 
these diverse elements effectively in response to both the 
issue of the moment and the challenges of our times.
    The value of this integrated One NOAA approach was 
demonstrated vividly this past October, as Hurricane Sandy bore 
down on the Caribbean and the United States East Coast. NOAA 
mobilized programs and efforts from across the agency to help 
Americans prepare for, respond to, and recover from this 
devastating storm.
    Our people, products, and services made absolutely vital 
contributions to emergency managers and communities throughout 
the affected regions, from forecasting the storm's track and 
impacts, which varied from upland snows to record storm surges 
days in advance; to surveying ports just hours after storm 
passage to enable delivery of critical supplies and the timely 
resumption of maritime commerce; to remapping devastated 
shorelines and coastal communities so that recovery assistance 
could be sped to the scene.
    Our FY14 budget proposal advances NOAA's ability to help 
communities across the country safeguard the lives of their 
citizens, prepare for extreme weather events, adapt to a 
changing world, ensure their environment is sustainable, and 
enhance the economic prosperity of their communities.
    My written testimony provides more detailed information 
about our request. For now, I wish to emphasize three important 
precepts that underlie our proposed budget.
    First, focus on core missions and fiscal discipline within 
our programs. Second, make targeted investments in key areas 
that improve the balance among our diverse and vital programs. 
And third, continue to promote efficiencies in program 
operations.
    Our focus on these precepts was reinforced by concerns 
expressed by the Congress and many of our partners over the 
past year. We listened, and we believe this budget lays out a 
path forward that addresses those concerns.
    The most notable example of our commitment to core missions 
and to fiscal discipline lies in the suite of changes we 
proposed to the Joint Polar Satellite System. NOAA, working 
closely with our partners at NASA, has sharpened the program's 
focus on our weather missions while ensuring the continuity of 
the space-based climate record through 2021.
    We have identified more than $1 billion in lifecycle cost 
savings, we have strengthened program management, and we have 
decreased the possibility of a gap in data by moving the launch 
date of the second satellite forward to 2021.
    Fisheries management, as you point out, Mr. Chairman, is 
another core NOAA mission. We propose to increase our 
investments in fishery science in the stock assessments, 
surveys, and monitoring needed to underpin successful 
management of these programs to ensure that we have the 
information needed both to end overfishing and to realize the 
economic opportunities that restored stocks represent.
    With respect to achieving a better mission balance, this 
budget proposes a carefully chosen set of targeted investments 
that improve the balance between our oceanic and our 
atmospheric programs, our extramural and our intramural 
funding, our research and operational activities, and the 
resulting long-term and immediate benefits the Nation receives.
    In the interest of time, I will highlight just two of the 
many points that are salient here.
    First is the great importance of our extramural 
partnerships in research, in data acquisition, and conservation 
action. NOAA could simply not accomplish its mission without 
the talents and capacities of our external partners.
    Second, as the President has stated on numerous occasions, 
we must not let immediate fiscal pressures kill all of our 
investments in the future. This budget proposes targeted 
investments in habitat restoration, basic research, and other 
activities that set the stage for long-term environmental 
sustainability, economic vitality, and future NOAA service 
enhancements.
    In sum, this budget proposal makes important strides toward 
a healthier balance of investment among and across our diverse 
mission domains and between the urgent needs of today and the 
important demands of tomorrow.
    Finally, we remain committed to good government--to using 
the taxpayer dollars that we are appropriated both effectively 
and efficiently. We have made significant progress on this 
front in recent years by consolidating activities, streamlining 
programs, adopting more efficient acquisition vehicles, and 
carefully controlling discretionary expenditures. This budget 
continues those efforts and proposes additional efficiencies in 
corporate services, in IT savings, consolidations, and 
termination by tough decision of some lower priority programs.
    In closing, NOAA is a science-based, interdisciplinary, 
integrated agency that provides essential environmental 
intelligence to citizens, communities, and businesses. The work 
of NOAA's people and partners touches the life of every 
American every single day, and this budget enables us to 
continue and improve this important work in service to our 
nation.
    I thank you again for the privilege of appearing before you 
today and look forward to your questions.
    [The prepared statement of Dr. Sullivan follows:]

 Prepared Statement of Kathryn Sullivan, Ph.D., Acting Under Secretary 
    of Commerce for Oceans and Atmosphere and Acting Administrator, 
  National Oceanic and Atmospheric Administration, U.S. Department of 
                                Commerce
    Chairman Begich, Ranking Member Rubio, and members of the 
Committee, thank you for your leadership and the continued support you 
have shown the Department of Commerce's National Oceanic and 
Atmospheric Administration (NOAA). As the Acting Under Secretary of 
Commerce for Oceans and Atmosphere and the Acting Administrator for 
NOAA, I am honored to be here to discuss the FY 2014 President's 
Budget. The FY 2014 budget proposal represents a focused and balanced 
commitment to our core mission of science, service, and stewardship. 
The proposal better positions NOAA to help communities across the 
country safeguard lives, prepare for extreme weather events, adapt to a 
changing world, ensure environmental sustainability, and enhance 
economic prosperity.
    Let me begin with the bottom line: NOAA was very effective last 
year providing environmental intelligence to help American citizens, 
businesses, and governments make smart decisions on a range of issues 
on local to global scales. The real testament to NOAA's value is not 
found in a spreadsheet; it is seen in the services rendered to the 
American people.
    For example, this past October, NOAA mobilized programs and efforts 
from across the agency to help the public prepare for, respond to, and 
recover from Hurricane/Post-Tropical Cyclone Sandy (Sandy). In the 
weeks prior to Sandy, NOAA used models informed by satellite, aircraft, 
and other weather observations to predict the path of the storm. NOAA 
gave emergency personnel and the public an accurate track forecast a 
full four days before the October 29 U.S. landfall. We also provided 
forecasts of total rainfall, storm surge, wave height, and other 
phenomena that would impact the mid-Atlantic and northeastern states. 
Our accurate predictions enabled emergency managers to more precisely 
evacuate coastal areas in the path of this unprecedented storm, saving 
countless resources and lives.
    Once the storm passed through the Northeast, NOAA coordinated with 
Federal, State, and local agencies to aid on-the-ground responders to 
help communities get back on their feet. For example, NOAA vessels were 
instrumental in identifying and clearing marine hazards blocking New 
York and New Jersey ports, enabling ships to provide critical fuel 
resupply just days after the storm. Maritime traffic resumed more 
quickly thanks in good part to NOAA regional navigation managers 
embedded within command centers and survey assets we mobilized rapidly 
after the storm passed. In addition, NOAA planes and scientists 
conducted aerial surveys of the affected coastlines and immediately 
published the photos online, allowing emergency managers and residents 
to examine the damage even before ground inspections were permitted. 
More than 3,000 miles of coastline were surveyed, and more than 10,000 
images processed to document coastal damage and impacts to navigation.
    NOAA is now working to help affected communities recover. The 
President recently signed into law the Sandy Supplemental bill, 
appropriating $326 million to NOAA that will enhance our ability to 
help coastal States recover from the impacts of Sandy. The technical 
tools and information coastal programs provide--such as coastal 
inundation products, maps, and storm surge modeling capabilities--are 
helping communities rebuild in a manner that is smarter and safer, and 
improvements in our forecasting capabilities will ensure that we are 
better prepared for similar events in the future. NOAA's integrated 
response to Sandy demonstrates how our agency leverages its diverse 
capabilities to support the Nation from preparedness to response to 
recovery: data collected from a spectrum of platforms enables the 
development of environmental intelligence from science-based models to 
support a suite of products to provide decision support to individuals, 
communities, and governments. I thank you for recognizing NOAA as a key 
agency supporting the preparedness, response, and recovery efforts 
surrounding this extreme weather event.
    As mentioned previously, a primary focus in the President's FY 2014 
budget request is to move towards a balanced approach to our core 
missions on several fronts: balancing ocean and atmospheric 
investments, internal and external funding, research and operational 
advancements, and short-term and long-term goals. The President's 
budget rejects the notion of ``wet side'' programs being pitted against 
``dry side'' programs. We instead embrace both because in reality the 
success of either is advanced by the achievements throughout the 
organization. We have evidence from NOAA's 40+ years in operation that 
our effectiveness and value to the American public stems from rich 
cross-pollination and effective fusion of capacities and information 
across all agency programs.
    This budget requests support for both work done within NOAA and the 
work performed by a variety of external partners. This balanced 
approach allows us to draw from the best expertise no matter where it 
is found. Similarly, the request better balances our investments in 
``research and development'' and ``operations'' and supports action to 
transition R&D to operations, ensuring that long-term scientific 
inquiry is applied to improve our service to the Nation.
    These investments also reflect a commitment to the final facet of 
balance: short-term and long-term. Today's priorities may require 
surges in resource for immediate action, but we cannot ignore the 
investments in habitat restoration, basic research, and other programs 
that set the stage for long-term environmental sustainability and 
future service advancements. The President's budget proposal moves 
toward equilibrium between the push-pull of responding today and 
preparing for tomorrow by putting a down payment toward balance in 
NOAA's activities.
FY 2012 Accomplishments
    NOAA accomplished many noteworthy milestones and outcomes in FY 
2012 in each of our mission areas. Natural disasters--Hurricane Isaac, 
tornadoes, blizzards, droughts, and wildfires--affected communities 
across the United States, exacting a tremendous toll on life and 
property. In advance of these events, the National Weather Service 
(NWS) provided timely and accurate forecasts and extensive decision 
support services. In the coming years, we expect to provide even better 
advance warnings due to implementing major improvements to our Global 
Forecast System that will produce more accurate forecasts out to 16 
days.
    NOAA's Office of Oceanic and Atmospheric Research (OAR) developed a 
new-generation weather research model, the High Resolution Rapid 
Refresh model (HRRR) to improve the reliability and accuracy of NOAA 
forecasts for high-impact weather events. The potential public safety 
benefits of this advancement were apparent in the June 29, 2012 Derecho 
event. Running on research supercomputers in our Earth Systems Research 
Laboratory, the HRRR model predicted the storm's development and path 
in excellent detail.
    NOAA also further advanced its drought forecasts and services--
helping the communities and people most affected by the record drought 
conditions. 2012 ended as one of the driest years on record with over 
60 percent of the contiguous United States in moderate to extreme 
drought. The National Integrated Drought Information System (NIDIS), an 
interagency partnership led by NOAA, provided drought information and 
early warning throughout this crisis. NIDIS was actively engaged 
throughout the drought to provide the right information to the people 
who needed it most via its drought portal (Drought.gov) and regular 
interactions with people in affected counties. NIDIS products gained 
attention in national media, including the Wall Street Journal on 
January 2, 2012, which carried one of the outlooks created by NIDIS.
    On October 28, 2011, NOAA and NASA successfully launched and 
commissioned the Suomi National Polar-orbiting Partnership (Suomi NPP) 
environmental satellite. This satellite carries five new instruments, 
including the Advanced Technology Microwave Sounder (ATMS) that 
captures atmospheric temperature and water vapor information used to 
predict weather. Just seven months after Suomi NPP launched, the NWS 
began using ATMS data in its operational numerical weather prediction 
models; this is more than three times faster than operational use of 
similar data in previous missions.
    NOAA's National Ocean Service (NOS) continued mapping missions of 
the Arctic extended continental shelf, mapping more than 600,000 square 
nautical miles of the ocean bottom that could enable the United States 
to lay claim to natural resources estimated to be worth $1.2 trillion. 
NOAA's Physical Oceanographic Real-Time System (PORTS) improves the 
safety and efficiency of maritime commerce by integrating real-time 
environmental observations, forecasts, and other information for 
mariners transiting the Nation's major ports. In FY 2012, two new 
PORTS were brought online--one in Humboldt Bay, CA and the other in 
New London, CT--benefiting commercial, military, and recreational ship 
traffic. NOAA is planning to bring two additional PORTS online in FY 
2013-2014.
    Our Nation's fisheries are a valuable component of the U.S. 
economy; commercial and recreational saltwater fishing generated more 
than $199 billion in sales and supported nearly 1.7 million jobs in 
2011.\1\ In FY 2012, NOAA declared six fish stocks rebuilt--the most in 
a single year. Overall data show a decrease in the number of both 
overfished stocks and stocks experiencing overfishing.\2\ These results 
underscore the strength of NOAA's science-based management process and 
clearly demonstrate that we are actively turning the corner on ending 
overfishing and rebuilding our Nation's fisheries.
---------------------------------------------------------------------------
    \1\ Fisheries Economics of the United States 2011, available at: 
http://www.st.nmfs.noaa.gov/economics/publications/feus/
fisheries_economics_2011
    \2\ An ``overfished'' stock refers to a stock with a population 
that is too low, below a prescribed threshold. A stock experiencing 
``overfishing'' refers to a stock experiencing a rate of removal that 
is too high. Status of Stocks: Report on the Status of U.S. Fisheries 
for 2011, available at: http://www.nmfs.noaa.gov/stories/2012/05/docs/
status_of_stocks_2011_report.pdf.
---------------------------------------------------------------------------
    All of these accomplishments set the stage for our FY 2014 request.
FY 2014 Budget Request
    The NOAA FY 2014 budget request totals $5.4 billion. The topline 
number is an increase of $541 million over the FY 2012 Spend Plan. This 
increase during difficult budget times demonstrates the 
Administration's response to Congressional and stakeholder feedback on 
the need to achieve a balanced portfolio within NOAA's budget. It also 
shows confidence that NOAA has strategically focused on its core, 
essential missions--and that these public funds will be spent to 
benefit the Nation.
    We are proposing changes to specific programs within this top line 
number that demonstrate our commitment to NOAA's multiple missions and 
needs. We are making targeted investments in ocean and coastal programs 
while continuing to invest in weather and satellites. We are investing 
in initiatives to expand and accelerate the transition of weather 
research to operations ($15 million). We are also continuing to 
leverage external expertise to support cutting edge research ($184 
million), while maintaining our internal abilities to maintain our 
research portfolio to meet our mission requirements. We are investing 
in our immediate needs, such as continuing development activities 
within the GOES-R program, and providing adequate funding for NWS 
labor, while supporting longer-term goals like funding marine debris 
research ($6 million) and habitat conservation and restoration ($47 
million) to ensure the health of NOAA trust resources.
    The FY 2014 budget request also reflects thrift and savings, with a 
targeted $4.2 million in agency-wide administrative savings. Most 
notably, we have reconfigured the JPSS satellite program resulting in a 
reduction of approximately $1.6 billion when compared to the FY 2013 
President's Budget life-cycle cost estimate of $12.9 billion. An 
additional $3.2 million reduction is requested for NOAA's Corporate 
Services. Trimming costs and working smarter makes appropriated dollars 
go farther and fulfills our obligation to taxpayers.
    This proposed budget reflects NOAA's priority investment in three 
focus areas within our larger mission: Weather-Ready Nation, 
satellites, and vibrant coastal communities and economies.
Weather-Ready Nation: Ready, Responsive, and Resilient Communities
    When it comes to severe weather preparedness, near-term investments 
to improve forecasts' accuracy and lead-times can produce dramatic 
future savings of life, property, and habitat. The great need for such 
investments was demonstrated over the past two years when 1,500 
Americans perished as a direct result of weather-related events. Last 
year alone, the U.S. experienced 11 disasters, each of which reached 
the $1 billion threshold in losses, including Sandy, Hurricane Isaac, 
tornado outbreaks across the Great Plains, Texas, and Southeast/Ohio 
Valley, the most extensive drought since the 1930s, and wildfires that 
burned more than 9.2 million acres.\3\ Countless other weather events 
not in the ``billion dollar'' category caused widespread damage 
throughout the country. More and more leaders in various sectors of the 
U.S. economy are looking for ways to increase their resilience to 
severe weather and reduce the potential for significant societal and 
economic impacts. NOAA's ``Weather-Ready Nation'' initiative supports 
actions that help society prepare for, and respond to, extreme weather-
related events.
---------------------------------------------------------------------------
    \3\ http://www.ncdc.noaa.gov/billions/events.pdf
---------------------------------------------------------------------------
    One of NOAA's paramount obligations to the Nation is the ability to 
issue accurate, timely, impact-focused weather forecasts and life-
saving warnings for communities across the country. Increasing societal 
and economic impacts of extreme weather demand that NOAA continue to 
improve forecasting capabilities. The FY 2014 budget requests $1,050.1 
million for the NWS and supports the highest priority activities 
necessary to produce and deliver cost-effective and trustworthy 
forecasts and warnings that promote preparedness and resilience to 
weather-related impacts. Specifically, a total of $658.2 million is 
requested that will fully fund existing field staffing and ongoing 
operations.
    NOAA also continues to assess options for improving efficiencies 
within our operations. The 2012 National Academy of Sciences report, 
Weather Services to the Nation: Becoming Second to None, found that the 
current structure of the NWS primarily reflects the functions of the 
weather, water, and climate enterprise in the 1990s. The current, 
outdated service delivery model has redundancies and inconsistencies, 
and significant benefits can be realized through modernization of 
functions and operational models. Becoming more agile and efficient and 
promoting wise use of taxpayer dollars is the essence of good 
government.
    As a first step, the NWS has identified improvements and 
efficiencies to be realized in the delivery of IT support services to 
field. NOAA proposes to reorganize the current 122 office-specific ITOs 
to a regional team approach consisting of 24 positions, enabled through 
commonplace IT industry hardware and software practices that foster 
innovation and collaboration. NOAA recognizes that any changes to staff 
structure will affect our employees and their families. Working with 
our employees' union, we will make every effort to modify the current 
ITO staffing structure through repurposing into other positions, 
reducing through attrition, or reassigning to other vacancies to 
minimize the impact to our affected employees.
    The Japan earthquake and Pacific tsunami highlighted the need for 
advancing tsunami preparedness and forecasting. A total request of 
$26.9 million expands NOAA's partner funding for tsunami education and 
awareness programs and, additionally, ensures funding for sustaining 
the Deep-ocean Assessment and Reporting of Tsunamis (DART) buoy 
network.
    Our forecasters must have robust, 24/7 environmental data to 
fulfill our mission. To provide this and also accommodate increases in 
future weather data from new satellites and other observations, NOAA 
proposes to invest $16.2 million in the NWS Telecommunications Gateway, 
the communications hub that collects and distributes weather data and 
products. An investment of $15.4 million in the Ground Readiness 
Project will expand the capacity of the organization's current IT 
infrastructure to ensure critical data is available to forecasters. 
NOAA also proposes in this budget to formally establish the National 
Mesonet Program, with a request of $5.5 million to promote the use of 
mesonet data. This request enables NWS to procure and use surface and 
near-surface, localized weather data in forecasts and warnings of 
small-scale, high impact weather events that can quickly threaten lives 
and property.
    The FY 2014 NWS request also recognizes the importance of discovery 
and innovation, and strengthens our ability to transition advances into 
operational forecasts. A total request for $94.7 million will help to 
expand and accelerate R&D on improving global weather prediction 
models, accelerating data assimilation techniques, and developing new 
computing platforms. In addition, a request for $44.2 million for 
weather supercomputing will increase the accuracy and timeliness of 
operational weather predictions and, along with proposed investments in 
data assimilation and modeling, will help ensure that the United States 
keeps pace with the major international weather centers, such as the 
European Center for Medium Range Weather Forecasts and the United 
Kingdom Office of Meteorology.
    Additional R&D funds that support the NWS mission are requested for 
the Office of Oceanic and Atmospheric Research (OAR). OAR's atmospheric 
programs oversee the scientific investments needed to ensure NOAA's 
weather and climate information is state-of-the-art.
    OAR research continually improves our weather warning systems and 
predictive capacity with the next generation of observing platforms, 
such as multifunction phased array radar and unmanned aircraft systems. 
The FY 2014 budget requests $18 million to support the development and 
use of these observing platforms, and for system assessment 
methodologies to ensure that NOAA has the most cost effective mix of 
observing assets for weather forecasting and related missions. The FY 
2014 request also includes $13.6 million to develop Regional Drought 
Early Warning Information Systems by supporting drought impacts 
research and developing applications for underserved regions in the 
United States. And finally, an investment of $2.9 million is requested 
to improve weather forecasts through wind layer boundary research. 
Better forecasts can provide certainty, and therefore opportunities, to 
the clean energy industry.
    The FY 2014 budget also recognizes a need to continue improving our 
understanding of climate change and its impacts on society. NOAA 
requests $65 million for our climate research laboratories and 
Cooperative Institutes to implement climate research and activities 
that align with the U.S. Global Change Research Program priorities, 
such as monitoring the deep ocean, better understanding carbon sources 
and sinks, and developing hydroclimate models for drought prediction. 
Research in these areas will improve our ability to assess current and 
future states of climate systems that in turn helps people across the 
country consider and develop mitigation and adaptation choices. The 
increased demand for projections of climate change at regional scales 
requires greater resolution, realism, and reliability in models. OAR 
requests $9.6 million to improve modeling and predictions, including 
developing state-of-the-art earth system models to better address 
urgent climate issues, such as Arctic climate change and sea level 
rise.
Satellites: Global Environmental Observations that Help Protect Lives 
        and Property
    NOAA's satellites provide critical and unique data. Americans rely 
on satellite observations every day: from providing warnings for severe 
weather, to enabling safe transportation, to understanding ecological 
systems, and even contributing directly to life-saving rescue missions. 
NOAA appreciates the Congressional support we have received for the 
Nation's operational weather satellite programs, and we are committed 
to maintaining and managing them well to ensure life-and property-
saving forecasts to the Nation.
    NOAA's operational weather satellite programs are composed of 
satellites in geostationary and polar orbits, supporting the wide array 
of services alluded to above, but with a primary purpose of weather 
forecasting. Data from the geostationary satellites are vital to short-
term weather surveillance and warnings. Instruments aboard the polar-
orbiters provide the data--chiefly global atmospheric profiles of 
temperature and moisture--that are critical to numerical weather 
prediction and longer-range forecasting. Data from both are needed to 
deliver complete global weather monitoring. These systems support the 
NWS, the U.S. military, Federal and State agencies, local emergency 
management and the commercial weather industry, enabling advance 
warnings and tracking of developing severe weather, such as hurricanes, 
flash floods, tsunamis, winter storms, and wildfires. Along with the 
skill of NOAA meteorologists, NOAA's satellites are vital to the 
success of our weather enterprise--both the public and private sector 
elements. But, in addition to their key role in weather prediction, 
they also provide a myriad of other benefits. Satellite observations 
assist the NOS in monitoring coastal ecosystem health, such as coral 
bleaching, harmful algal blooms, and identifying and monitoring 
potential maritime hazards from sea ice. The National Marine Fisheries 
Service (NMFS) designates critical habitat for endangered species by 
using satellites to track migratory movements and identify critical 
feeding and breeding areas. Partner agencies such as the U.S. 
Geological Survey use NOAA satellites to relay vital information from 
thousands of river flood gauges and seismic monitoring stations in 
remote, inaccessible areas.
    The FY 2014 President's Budget Request of approximately $2.2 
billion for the National Environmental Satellite Data and Information 
Service (NESDIS) supports the highest priority and most essential 
satellite missions that generate the environmental intelligence our 
Nation needs to make sound decisions. The request reflects the result 
of an integrated, requirements-based strategic planning process with 
the goal to deliver disciplined focus on top-priority requirements and 
to optimize resources. The FY 2014 request continues development of 
NOAA's two most critical satellite programs, the Joint Polar Satellite 
System (JPSS) and the Geostationary Operational Environmental 
Satellite-R Series (GOES-R). The overall FY 2014 request also provides 
$9.6 million to support data processing and distribution for the Suomi 
NPP satellite; $37 million for NOAA's satellite altimetry mission, 
Jason-3; and $23.7 million for NOAA's operational space weather 
mission, the Deep Space Climate Observatory (DSCOVR).
    NOAA is proposing $954.8 million for GOES-R. The FY 2014 
President's Budget request is necessary to continue satellite and 
instruments engineering development and continue the ramp-up of the 
ground system integration and test activities. The GOES-R Series 
satellites will include upgraded technology, such as an Advanced 
Baseline Imager (ABI), which will provide faster and higher-resolution 
image scans, covering a larger geographic area. Enhanced ABI 
capabilities will help decrease weather forecast errors and expand the 
list of products NOAA offers. For example, the new ABI technology is 
expected to enhance volcanic ash plume tracking, so pilots can receive 
advance warning and safely re-route around the damaging and deadly 
plumes.\4\ Other economic sectors will also benefit, including the 
agricultural industry that can use the improved forecasts to develop 
more efficient crop irrigation plans, potentially gaining water and 
energy savings.\5\ Overall, the combined annual economic benefit from 
GOES-R is projected to exceed $1.2 billion.\6\ NOAA recognizes these 
potentially significant benefits to society of the GOES satellites and 
has prioritized accordingly.
---------------------------------------------------------------------------
    \4\<SUP>-6</SUP> Centrec Consulting Group, LLC. An Investigation of 
the Economic and Social Value of Selected NOAA Data and Products for 
Geostationary Operational Environmental Satellites (GOES). Report to 
NOAA's National Climatic Data Center. Savoy, IL. (February 27, 2007; 
http://www.centrec.com/resources/reports/
GOES%20Economic%20Value%20Report.pdf).
---------------------------------------------------------------------------
    The FY 2014 JPSS request totals $824 million and will enable NOAA 
to meet a launch readiness date in the second quarter of FY 2017. This 
request reflects feedback received over the past year, including from 
Congress and the July 2012 Independent Review Team (IRT) report, 
concluding that NOAA should refocus the program on the weather mission. 
NOAA continuously re-examines its satellite programs to improve 
performance and control costs, but the IRT, Congressional, and 
Administration concerns galvanized even more urgent action over the 
past year. As a result of these findings, and these concerns, we have 
taken steps to improve the JPSS program:

  <bullet> Sharpened our focus on the weather mission. The FY 2014 
        President's Budget proposes reducing the scope of JPSS-2, and 
        transfers select climate sensors formerly planned for JPSS-2 
        and Free Flyer-2 to NASA . The budget request also proposes 
        transferring the Free Flyer-1 mission out of the JPSS program 
        to stand as a separate program within the NESDIS line office, 
        so that the JPSS program can focus on its primary weather 
        mission.

  <bullet> Reduced the cost of JPSS. The Administration, the Department 
        of Commerce, and NOAA have assessed the JPSS mission scope to 
        propose a more economical polar satellite program. The results 
        from the assessment identified $1.6 billion in reductions from 
        the FY 2013 President's Budget life cycle cost estimate of 
        $12.9 billion through year 2028. The new life cycle cost is 
        $11.3 billion or less through year 2025.

  <bullet> Improved program management. NOAA has increased emphasis on 
        systems engineering and common ground services and has improved 
        risk management integration.

    NOAA has also taken steps to mitigate the effects of a possible gap 
in polar orbiter data by adopting more aggressive strategies:

  <bullet> Accelerating the launch of JPSS-2 to calendar year 2021 to 
        reduce the likelihood of a data gap between the JPSS-1 and 
        JPSS-2 satellites.

  <bullet> Investing in other activities to mitigate potentially 
        degraded forecasts if a polar satellite data gap occurs. NOAA 
        commissioned an independent analysis of gap mitigation 
        options.\7\ The Sandy supplemental appropriation provided $111 
        million to fund the actions highlighted in this study 
        including: using existing data from the Defense Meteorological 
        Satellite Program and observed wind information and expanding 
        the use of data from aircraft observations, unmanned aerial 
        systems, and other satellites including COSMIC-2 and satellites 
        operated by our international partners. NOAA will also invest 
        in data assimilation, observing system simulation experiments 
        to measure the contribution of new observation data, and new 
        processes to incorporate data on model performance.
---------------------------------------------------------------------------
    \7\ Riverside Technology, Inc., JPSS Gap Mitigation Analysis of 
Alternatives Report, February 15, 2013.

  <bullet> Accelerating High Performance Computing upgrades to enable 
        top-priority mitigation measures within the weather forecast 
        enterprise. The NWS and OAR plan for complementary investments 
        in research and operational high performance computing will 
        enable next-generation weather modeling with improved 
---------------------------------------------------------------------------
        transition of proven models from research to operations.

    We believe this new program addresses the main concerns of 
Congress, the IRT, and the Administration, and we welcome the 
opportunity for further dialogue to ensure the continued viability of 
this critical satellite program. NESDIS will continue to efficiently 
achieve its goals by pursuing collaborative opportunities with other 
national and international agencies and organizations, and partnering 
with industry, academia, and other research and development agencies. 
These partnerships will bring robust information and service delivery 
to our customers and invest in effective relationships with 
stakeholders. One particularly noteworthy example is our partnership 
with the European Organization for the Exploitation of Meteorological 
Satellites for polar-orbiting satellites. This partnership gives each 
party responsibility for maintaining a fixed orbit and ensures sharing 
of 100 percent of each orbit's data, essentially allowing each party to 
receive all the data while only paying for half. These types of 
efficiencies are a win-win situation.
Vibrant Coastal Communities and Economies
    NOAA's third core mission area, Vibrant Coastal Communities and 
Economies, encompasses vital work that advances the economic and 
environmental health of America's coastal zones; areas where the 
majority of Americans live and work. Coastal watershed counties were 
home to 163.8 million people (52 percent of the U.S. population) in 
2010, and this number is expected to increase by more than 15 million 
by 2020.\8\ NOAA plays a critical role in supporting healthy ocean and 
coastal habitats that benefit coastal industries and jobs through 
economic engines, such as tourism and fisheries. By investing in the 
management of vital coastal activities now, NOAA works to ensure these 
resources will contribute to thriving communities and their economies 
long into the future.
---------------------------------------------------------------------------
    \8\ National Coastal Population Report, available at: http://
stateofthecoast.noaa.gov
---------------------------------------------------------------------------
    Commercial and recreational fishing industries depend on healthy 
and abundant fish stocks, and NOAA's science and management work has 
been vital to turning the corner on overfishing and getting fisheries 
onto a sustainable and profitable path. In FY 2014 NOAA requests $929.3 
million for NMFS for targeted investments in fisheries science, 
fisheries observers, and habitat restoration and conservation programs. 
This includes investments of $69.3 million to expand stock assessments 
and $24.8 million for survey and monitoring projects. Funding will 
focus on high-priority commercially and recreationally valuable stocks 
and those that were previously experiencing overfishing (to verify that 
overfishing has, indeed, ended). Funds will be used to improve fishery-
independent surveys through advanced sampling technologies such as 
optical and acoustical methods. The FY 2014 President's Budget includes 
a request for $43.6 million for the National Observer Program. The 
requested increase will support observing and monitoring for fisheries 
currently under catch share management and those expected to transition 
to catch shares in FY 2014. This funding will allow NOAA to provide 
coverage in approximately 48 fisheries nationwide that benefit from the 
knowledge gained by observers.
    However, short-term management is for naught unless accompanied by 
habitat conservation measures that assure long-term viability of the 
fish populations and marine ecosystems. Overall, this budget proposes 
$47 million to continue long-term investments in habitat restoration 
that support species recovery and sustainable fisheries. Through NOAA's 
Habitat Blueprint, and ongoing coordination with interagency landscape-
scale conservation initiatives, we are prioritizing our work to 
maximize benefits to trust resources and responsibilities.
    NOAA does not undertake these actions alone and relies on the 
considerable expertise and observations of local external partners. For 
example, NOAA is requesting $17.8 million in FY 2014 to support the 
Species Recovery Grant program, which draws on local expertise and 
provides support to States, tribes, and other partners for cost-
effective projects to benefit endangered species and their habitats. 
The Species Recovery Grant program, and other habitat conservation and 
restoration efforts will be administered in close coordination with the 
Pacific Coastal Salmon Recovery Fund ($50 million) to achieve 
conservation benefits on a national scale. By targeting our work in 
priority areas and leveraging actions of local partners, NOAA can 
achieve greater results.
    Additionally, if we are to achieve long-term sustainability, we 
must understand fishery trends within the context of long-term changes 
in our climate. Record-high sea surface temperatures were recorded in 
2012 in the Northeast, as well as above-average temperatures from the 
ocean bottom to the surface across the region. The annual spring 
plankton bloom was intense, starting earlier and lasting longer than 
normal, and Atlantic cod continued to shift northeastward in 
distribution. These changes have economic consequences for the 
fisheries and communities that depend on them. To better understand 
these connections, OAR requests $10 million in support of extramural 
research on climate impacts on fish stocks, with a focus on the 
Northeast groundfish region.
    With a FY 2014 Request of $529.2 million for the National Ocean 
Service, NOAA will increase its investment in observing, measuring, 
assessing, and managing the Nation's coastal, ocean and Great Lakes 
areas, providing critical navigation products and services, and 
conducting response and restoration activities to protect vital coastal 
resources. NOAA will support the Integrated Ocean Observing System 
Regional Observations with a total investment of $34.5 million. This 
investment will provide additional funding for high-priority ocean and 
coastal observing efforts, including a competitive grant program for 
the development, demonstration, testing, and evaluation of marine 
sensor technologies that will provide real-time ecosystem data to 
inform a range of management decisions that can affect fisheries, 
tourism, public health, and much more. NOS is also requesting $175.7 
million to invest in NOAA's Coastal Services Center, Coastal Zone 
Management Program, the National Estuarine Research Reserves and the 
National Marine Sanctuary Program, all of which work with their local 
partners to provide the information and tools needed to help coastal 
communities make smart decisions as they plan for their future. The FY 
2014 request will support NOAA Procurement, Acquisition, and 
Construction (PAC) programs for the NOS. These funds will support 
construction and land acquisition in the National Estuarine Research 
Reserves, capital maintenance on infrastructure and vessels that 
support our National Marine Sanctuaries, and grants to state and local 
governments to protect and restore important coastal and estuarine 
areas through the Coastal and Estuarine Land Conservation Program 
(CELCP).
    NOAA's Navigation Response Teams (NRT) program is sustained at $2 
million. Ports and harbors around our coastline rely on NOAA's NRTs to 
collect data that ensure nautical charts are up-to-date and that 
navigational waterways are clear and safe. In addition to providing 
routine support, our 6 NRT's also provide 24/7 emergency hydrographic 
survey support to the U.S. Coast Guard, port officials, and other first 
responders in the wake of accidents and natural events that create 
navigation hazards, which impede safe and efficient marine 
transportation and commerce. For example, the underwater obstruction 
surveys completed by the NRT's in the Port of New York and New Jersey 
after Sandy were instrumental in helping the port quickly reopen, 
restoring the flow of fuel, relief supplies, and over half a billion 
dollars' worth of trade that moves through the port daily. As another 
example, over $1.3 billion worth of foreign trade moves through the 
four major Gulf Coast ports on a daily basis, emphasizing the 
importance of NRT's in maintaining safe and efficient maritime 
commerce.
    The FY 2014 budget request of $472.4 million for the Office of 
Oceanic and Atmospheric Research provides critical environmental 
information and tools through climate, weather, ocean, coastal, and 
Great Lakes research, technology development, and related services. 
NOAA science is focused on an integrated earth-systems approach that 
examines the connectivity among our oceans, atmosphere, natural 
resources, and economy, all within the context of climate variability. 
This enhanced understanding will allows us to evolve management 
approaches and services into the future.
    NOAA requests $10 million for an ocean ``Grand Challenge'', as part 
of President Obama's Strategy for American Innovation. NOAA is 
launching this challenge as a way to focus innovative thinkers on 
exploration, mapping, and observing needs that would further NOAA's 
missions. The challenge model allows us to leverage our funds to spur 
even greater investments from the academic community and industry. New 
technologies in these fields that modernize our at sea research, 
monitoring, and application methods will save us money in the future.
    We are requesting $72.7 million to fund high priority ocean, 
coastal, and climate research and development through OAR's National 
Sea Grant College program and $8.4 million for ocean acidification 
research and development to improve our understanding of its ecological 
drivers, its impacts on fisheries and other marine organisms, and the 
best means of adapting to and mitigating this emerging ocean hazard. 
$9.3 million is also requested for the Great Lakes Environmental 
Research laboratory, which supports internal and external research to 
advance understanding of the physical, chemical, and biological 
processes in the Great Lakes and how these ecosystem dynamics affect 
Great Lakes communities. NOAA's FY 2014 budget request includes $29.1 
for OAR's Ocean Exploration Program to support ocean exploration and 
mapping of our U.S. extended continental shelf.
    NOAA missions--from mapping the seafloor to measuring snow pack--
depend upon ship and aircraft fleets as essential observational 
platforms. We are investing significantly in these important assets to 
increase use and mission readiness. NOAA is requesting a total of 
$176.6 million for Marine Operation and Maintenance. This will fund 
3,517 Days at Sea to carry out critical missions to support fisheries 
and marine mammal surveys, nautical charting, and studies related to 
climate and ocean health. This is an increase of 1,386 Days at Sea 
above FY 2012 levels increasing the fleet utilization rate to about 94 
percent. To maintain fleet readiness efficiency, we are investing $11.7 
million to establish a Progressive Lifecycle Maintenance Fund for the 
Fleet. The stabilization of capital investments is critical to 
extending fleet life. Without timely periodic refurbishments, ship 
operations can be suspended and costs increased. Finally, we expect to 
complete FSV 6, our newest fisheries survey vessel, and to begin 
deploying it for fisheries research off the coast of California.
    In addition to NOAA's marine fleet, we are requesting $31.5 million 
in Aircraft Services for an estimated 2,760 flight hours to support 
scientific endeavors studying global climate change and air quality, 
assessing marine mammal populations, surveying coastal erosion, 
investigating oil spills, conducting coastal mapping, surveying 
snowpack levels, and improving hurricane prediction models. The re-
winging of the Hurricane Hunters will be staggered, beginning in FY 
2015, and we expect them to continue operations until FY 2033 and FY 
2034. We are also investing $1 million for a third-party study to 
investigate the next-generation of aerial observations; we seek to be 
ready to transition this vital research to new platforms when these 
aircraft are no longer airworthy.
    This budget also reflects the importance this agency places STEM 
education. In FY 2014, NOAA will increase its investment in the Office 
of Education for a total of $16.3 million. The increased funding will 
support the Environmental Partnership Program, a program that 
specifically targets minority-serving institutions of higher education. 
NOAA supports the Administration's efforts to strengthen STEM education 
and will stay engaged to work toward the success of the proposed FY 
2014 STEM consolidation initiative. The Budget terminates NOAA funding 
for specific STEM components of NOAA's Sea Grant, Ocean Exploration, 
and Office of Education programs, as well as the Teacher at Sea program 
and the Nancy Foster Scholarship Program, as part of this initiative.
Conclusion
    Overall, NOAA's FY 2014 Budget Request reflects the commitment 
Deputy Secretary of Commerce Blank and I have made to the President to 
growing a strong economy that is built to last, while being fiscally 
responsible and focusing on priority initiatives. NOAA is a vital 
component of the U.S. Government, helping to maximize U.S. 
competitiveness, enable economic growth, foster science and 
technological leadership, and promote environmental stewardship. 
Americans--civilians, the military, and businesses--rely upon the 
services NOAA provides on a daily basis. The resources that are 
requested in this budget are critical to the ongoing success of NOAA's 
mission in creating a Weather-Ready Nation, sustaining high-tech 
satellite observations, and achieving vibrant coastal communities. 
Essential to each of these focus areas is ongoing research and 
development, as well as restoring investments across NOAA's programs. I 
look forward to working with the members of this Committee and our 
partners and constituents to achieve the goals I articulated through 
the implementation of the FY 2014 budget. Thank you for the opportunity 
to present NOAA's FY 2014 Budget Request. I am happy to respond to any 
questions from the Committee.

    Senator Begich. Thank you very much, Dr. Sullivan.
    What I'd like to do is I'll start with the Ranking Member, 
Senator Rubio, and then we'll go through the list from that 
point.
    Senator Rubio. Thank you, Mr. Chairman.
    Admiral Papp, my question, I alluded to it in my opening 
statement, it's about the shift of focus to the Eastern 
Pacific, which I think is important to do, but I'm worried 
about the impact it has on the place we're shifting from. So in 
particular, how will the mission be impacted by the loss of the 
gray hull, such as the U.S. Navy frigates, which have been 
heavily utilized in the SOUTHCOM area of responsibility and are 
now being retired?
    The LCS, the littoral combat ship, will be the replacement 
for the frigates, but we don't expect to see them home-ported 
in Florida and fully operational in the Western Hemisphere 
until 2018.
    So if you could comment on the impact that will have on 
operations in the Western Hemisphere, and the Caribbean in 
particular?
    Admiral Papp. Senator, the Western Hemisphere has been a 
particular focus of mine since becoming Commandant.
    The country is absolutely right in terms of this focus 
towards the Pacific and toward Asia, and the Coast Guard, I 
think, could provide contributions, and we have, in fact, 
provided contributions there in the past. There are many 
nations, including China, that are looking to the U.S. Coast 
Guard as a role model for the type of maritime force that they 
should be building that controls the rule of law at sea, and I 
think we could serve a great purpose out there.
    Unfortunately, with the reduction of resources, my highest 
focus is for the Western Hemisphere, the Arctic, closer to our 
shores, and most notably, in the Caribbean and the Eastern 
Pacific, where we have the drug trafficking routes.
    In years past, the Navy has been a force multiplier for us. 
They work primarily for Joint Interagency Task Force South in 
the detection and monitoring mission, and they carry Coast 
Guard law enforcement attachments. So in fact, we can change 
operational control to a Coast Guard commander when we detect a 
drug smuggler and use that just the same as a Coast Guard 
cutter because we have our Coast Guard people embarked on that 
Navy ship.
    So the loss of the Navy ships in the Caribbean ultimately 
is just going to result in more drugs that are making it 
through.
    I know, talking to Joint Interagency Task Force South, 
because we have a good Coast Guard representation--in fact, its 
director is a Coast Guard admiral--that right now we're only 
intercepting about one-third of the tracks that we are aware of 
and people smuggling drugs toward Central America.
    Last year, we interdicted 107 metric tons. That's 107 
metric tons of pure cocaine that didn't make it into Central 
America to make its way across our borders. By comparison, all 
the law enforcement agencies in the 48 states only interdicted 
40 metric tons of cocaine, and that's after it's broken down, 
as well.
    So more drugs, and we'll have fewer assets that we can 
redivert to other missions, like migrant interdiction and other 
Coast Guard activities in those areas.
    Senator Rubio. So, I mean, the gist of it is, it's not that 
the pivot is a bad idea. It's the fact that it's not being 
replaced by anything that creates these problems. And they 
sound, at least until 2018, to be pretty significant.
    Admiral Papp. Yes, sir. And even though the Navy has held 
out that the littoral combat ships will be out there, it's 
going to take a while for them to get there. We don't know what 
the budget is going to portend for the Navy in the out-years.
    So right now, we're only capable of--I'm glad to give you a 
classified briefing on the numbers of ships that we provide 
down there on a regular basis, but because of sequestration and 
then future effects on the fleet with the Navy, we are well 
below the numbers of ships that we need down there to 
interdict.
    Senator Rubio. And, Dr. Sullivan, I wanted to ask you about 
the Saltonstall-Kennedy Grant Program. I guess the budget 
includes $8.2 million, so I guess the question I have is what's 
the percent of this amount compared to the total amount of 
receipts your agency received from the U.S. Department of 
Agriculture under this program?
    My notes tell me that $123 million of the amount--was 
diverted elsewhere, so the percentage that's being kept in this 
program is about 6.25 percent. Is that accurate?
    Dr. Sullivan. Senator, those figures correspond to the 
numbers that I have. We received some $132 million in transfer 
from the Department of Agriculture, of which some $8.2 million 
will be applied specifically to the Saltonstall-Kennedy Grant 
activities, and the remainder transferred to the NOAA 
activities, which, I would point out, are very much the same 
activities that fishermen across the country are clamoring for 
more of--cooperative research, stock assessment, monitoring, 
and surveying.
    Senator Rubio. OK. The second thing, because my time's 
going to run out, I wanted to ask about that 66 coral species 
endangered that are being put into this protective status. My 
understanding is that the budget asks for, if I'm not mistaken, 
it's about $1 million to implement it in the first year. Is 
that correct, roughly?
    Dr. Sullivan. I don't have a budget figure for first year 
implementation at my fingertips.
    Senator Rubio. We'll confer on that. I guess my bigger 
question is, how much do we think this is going to cost over 
time? Is this a program that we think is going to increase in 
cost as the years go on, as the workload and as the industries 
get impacted by this listing?
    I'm not saying the listing is a good or bad idea, but I'm 
just focusing on the cost of it. The first year costs, from my 
notes--and if I'm mistaken we'll correct that later in the 
record--is that it's about $1 million in the first year. Do you 
have any estimates of what that's going to look like moving 
forward in the future years and how that workload will grow?
    Dr. Sullivan. The out-year profile on this I do not have an 
estimate for. It will depend on which of the stocks really come 
through in a final listing decision.
    We're working very hard to get things right. This is a very 
significant decision. So as you know, we've extended the 
analysis period. We've extended the public comment period. 
We're, in anticipation of a final ruling a year from now, 
already reaching out to potentially affected communities and 
industries to work with them and be sure we get a good 
assessment of what sorts of impacts might be.
    Senator Begich. Thank you very much.
    And we'll do a second round. I know we'll have time.
    Senator Wicker is next on the list.
    Senator Wicker?

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Well, thank you, Mr. Chairman. I appreciate 
it.
    Let me start with Admiral Papp, and thank you both for your 
testimony and for your service.
    Over the last several years, there has been a lot of 
discussion about the new national security cutters. Now that 
the first three cutters are operational, first of all, tell us 
how they're performing. Particularly, how do they compare with 
the vintage high endurance cutters, which are being replaced?
    And then let me just go ahead and ask why the President's 
budget only included funding for long lead-time materials for 
the seventh national security cutter with no mention of funding 
for the eighth when the Coast Guard has, in fact, said that 
eight are the minimum required to replace the 12 aging high 
endurance cutters?
    Admiral Papp. Thank you, Senator Wicker, and it's good to 
see you again, sir.
    The national security cutter is absolutely the best-
performing Coast Guard cutter we've ever had in our history. It 
is heads above the ship that it's replacing. And I say that 
fully acknowledging that the 378-foot high endurance cutter was 
a superb ship. It's just old, structurally unsound, and 
environmentally unfriendly, and just not up to taking on the 
missions that we do today.
    So the national security cutter has been a vast 
improvement, really performing, I think, above and beyond what 
we asked of it.
    Greatest example I have is that one of the national 
security cutters was operating up in the Bering Sea, where we 
will primarily employ these ships, and in 20-foot seas and 60-
knot winds, it was able to launch its helicopter and recover 
its helicopter and conduct boat drills.
    That's the major capability we need. We need to be able to 
put boats in the water to do boardings, and we need to get 
helicopters out to do rescues and surveillance.
    It has an engineering plant that will drive it at higher 
speeds at greater fuel efficiency and give us a range of 
combinations of engines and propulsion that allow us to either 
loiter or sprint, depending upon what the mission calls for. It 
has greater sensors capability. It has a skiff that we can do 
intelligence work.
    And then probably one of the things that's nearest and 
dearest to my heart, we finally have a ship that appropriately 
recognizes the young patriots that step forward to serve our 
country and gives them the habitability that they deserve. 
Rather than being in dank, dark berthing areas stacked three 
high like cordwood, they now have appropriate living spaces 
because the internal capacity of the ship allows us to expand 
out and a smaller crew gives us more room and better ability to 
take care of them. So I'm a big fan of the national security 
cutter.
    And you're right, sir. It has been my number one priority 
since I've become Commandant. The capital investment plan 
should be up here. If it's not, I really can't talk about the 
next year's budget. But what I would say is, last year, I was 
answering questions to you why national security cutter number 
seven was not in the FY14 budget, as exhibited in the 5 year 
plan.
    Senator Wicker. The program of record has not changed, 
then, has it?
    Admiral Papp. It has not changed, no, sir.
    Senator Wicker. And so are you telling this subcommittee 
that we should feel optimistic and comfortable about the eighth 
cutter?
    Admiral Papp. Yes, sir.
    I need to make a correction: It's the construction--long 
lead money for number seven--you said long lead? That was put 
in the FY13 budget, so we had that already. We got the 
construction money for number seven in the 2014 budget that's 
before the Congress right now.
    Senator Wicker. So it was actually the long lead for the 
eighth that caused me concern, because I don't see it there.
    Admiral Papp. Yes, sir. And you're exactly right. It's not 
there.
    No one is more disappointed than I am, but with the current 
fiscal constraints, I was confronted with a lot of very tough 
decisions to make, and we have other acquisition projects that 
are ongoing that needed to be sustained at least at minimum 
levels as well. And that's why the long lead money is not in 
there.
    Senator Wicker. Well, you made a very strong and clear 
statement about the value of this program, and I appreciate it. 
I also appreciate your assurance that we can feel relatively 
comfortable about getting the eighth.
    Let me just pivot real quickly, then, Ms. Sullivan, to the 
weather satellite issue. Would you like to comment about that, 
particularly the significant overrun in original cost estimates 
resulting in shrinking of other program budgets within NOAA, 
including many that are important to my state of Mississippi 
and Senator Rubio's state of Florida?
    How would NOAA's FY 2014 budget request rein in excessive 
costs in this satellite acquisition? And will NOAA strive to 
ensure that acquisition of a weather satellite does not 
negatively impact other core missions?
    Dr. Sullivan. Good morning, Senator Wicker. It's good to 
appear before you.
    The short answer to your question, sir, is we have been 
working terribly hard over the last 2 years to be sure that we 
get the JPSS program, which is the successor to the fatally 
flawed NPOESS program. That program, as you'll recall, was 
unwound, dismantled in 2009. It exists no more.
    The JPSS program we have today is a far cry from that 
fatally flawed program. It has been hitting its schedule and 
its budget targets on the J-1 satellite mission quite regularly 
for the last 12 months. We see increasing confirmatory evidence 
in that, as does the GAO, that we now have a well-managed 
program that is gaining its stride and is on track.
    Senator Wicker. Why was it fatally flawed?
    Dr. Sullivan. There was a very convoluted management 
construct, and, by most reckoning, fatally flawed early 
estimates, overly optimistic estimates of scope and budget that 
then failed to get sufficient attention and response early 
enough in the program, early enough in its lifetime.
    But the JPSS program, as now constituted, is in sound 
management hands. Our GAO investigators and auditors confirm 
that.
    This budget proposes to substantially restructure and 
refocus the program in response to concerns by this committee 
and others on the Hill as well as seven different independent 
reviews conducted over the past year that urged a sharp focus 
on clear requirements focused on this core weather mission. 
We're doing that with this budget. We've reduced the lifecycle 
cost by over $1 billion.
    We very much appreciate the concern you raise, Senator, 
about the necessary healthy balance among and across the 
different mission areas of NOAA.
    Our ocean and coastal missions are just as vital to the 
country as our satellite and weather missions. We've worked 
very hard over the last year and in this budget proposal to 
move that balance to a healthier point and are committed to 
ensuring that stays true in the future.
    Senator Wicker. Thank you very much. And other Senators are 
here. Let me just say, I look forward to working with you on 
the Gulf Coast Ecosystem Restoration Council, which is part of 
the RESTORE Act, to make sure that it aligns with state 
priorities.
    And I look forward to visiting with you again, perhaps in 
my office or your office, about that.
    Thank you.
    Dr. Sullivan. I look forward to that.
    Senator Wicker. And thank you, Mr. Chairman.
    Senator Begich. Thank you very much.
    And again, we'll probably have a second round for those 
that would like to ask additional questions.
    Next on the list is Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Chairman, and thank 
you, Senator Rubio, for holding this hearing. Very important.
    You might not think of Coast Guard when you think of 
Minnesota, but as Admiral Papp--thank you. He just said, ``I 
do.'' He mouthed the words, like we were getting married.
    [Laughter.]
    Senator Klobuchar. Thank you.
    But, Admiral Papp and Acting Administrator Sullivan, thank 
you for being here.
    And I think, Admiral, you know the importance of Duluth as 
a port and the work that's done there, especially some of the 
icebreaking issues that we have and other things. So I 
appreciate the help that you've given us there, as well as the 
issue that we had on some of the guide service issues, which 
I'm not getting into today.
    But today, I really wanted to focus on the floods that 
we're seeing in the Red River Valley. The National Weather 
Service's North Central River Forecast Center is very important 
for us to predict the height and time of the river crest.
    And just to give you a sense of this, 2 weekends ago, I 
went home, and it was 70-some degrees in Washington and we had 
a foot of snow. Governor Dayton and I and Senator Franken had 
to head down to southwestern Minnesota, where we literally have 
a disaster area from so many icicles taking down hundreds of 
thousands of trees and putting out power for days.
    Then last weekend, I went home and we had another foot of 
snow, and today we got another half-foot of snow in the middle 
of April. It's something that is unheard of, and so we're very 
concerned.
    For quite a while, we thought the Fargo-Moorhead area was 
going to be fine. The chance of a flood was low. And there is 
now a 40 percent chance that this flood will set a new record, 
and a 75 percent chance it will be at least the second highest 
on record.
    And if anyone remembered, this was the point where we were 
so close to losing Moorhead--it's Minnesota--and Fargo, which 
is in North Dakota.
    I was just up there and met with the mayor, Mayor Mark 
Voxland, the mayor of Moorhead, to discuss flood preparations.
    As you know, cities and local officials base their flood 
prediction, planning, and preparation on the predictions that 
come from the National Weather Service. I know literally in 
Fargo and Moorhead, they are literally adjusting resources 
according to how high they anticipate the water to crest with 
this unforeseen problem of all this snow.
    They're well prepared, but again, they need this 
information.
    My question is, in addition to the modeling and predictions 
the Weather Service provides, Dr. Sullivan, how is NOAA working 
with local officials to ensure that they have appropriate 
resources in place?
    Dr. Sullivan. Senator, I think you've just quashed any 
Washingtonians' complaints about it trying to be spring in 
Washington.
    Senator Klobuchar. OK, thank you.
    Dr. Sullivan. We are working very closely with the state-
level and local-level officials in your state.
    We began biweekly coordination with Federal, State, and 
also tribal and local officials, including cross-border into 
Canada, back in February. We've been holding at least weekly 
briefings, more often if they request, since last month.
    We just briefed both the North Dakota and Minnesota 
congressional delegations, including your office, last week.
    We monitor the snowpack and river conditions very 
carefully, in concert with our U.S. Geological Survey partners, 
to make sure that we're bringing the best and most current data 
possible into those forecasts and prediction models.
    And we're planning--I think we may even have moved out 
now--on embedding emergency response specialists in the 
appropriate locations, to be sure that mayors, Governors have 
right at hand timely, and focused on their questions, 
information that they need.
    Senator Klobuchar. And we know, with sequestration, there 
may be furloughs, or are furloughs with some of your personnel. 
Will this affect the emergency efforts that you may have to 
make coming up in the next few weeks?
    Dr. Sullivan. Senator, the National Weather Service and the 
services we provide to the country through that unit are among 
the most important obligations that NOAA has.
    The Weather Service, our satellite control operators, some 
of our law enforcement personnel, our oil spill response 
personnel, these are all pockets of critical response 
capability that we know we have to provide a tailored approach 
and some flexibility for as we deal with the realities of 
sequestration.
    The plan with which we are now in consultation with our 
employee units, and which we will bring forward in due course 
to our appropriators for discussion and approval, is one that 
we have moved to, in fact, because the impacts per the 
sequestration law per se would have been more severe on the 
Weather Service without the adjustments that we are making.
    We're unhappy about sequester and the sort of harsh and 
blunt realities that it imposes on us, but we're pleased that 
we've been able to soften the blow on the order of up to--I 
emphasize ``up to''--4 days of furlough agency-wide. That's 
part of what has let us take the impact off of the Weather 
Service.
    That's still a tough thing to do, but it brings the 
furlough impact down to a level that managers throughout the 
agency commonly deal with in dealing with employee illness or 
vacation levels.
    And in those critical areas that I cited, we will make sure 
that we provide our managers with the flexibility needed to 
adapt to emerging situations, urgent situations.
    Senator Klobuchar. So you have that flexibility to put 
extra people on the ground if necessary in the Fargo-Moorhead 
area?
    Dr. Sullivan. We will make sure that we have a tailored 
approach to our core critical services so that those go 
uninterrupted to the American people.
    Senator Klobuchar. Very good.
    I know that the folks at the North Central River Forecast 
Center in Chanhassen, Minnesota, provide important data that 
the National Weather Service uses in forecasting river levels, 
river basin modeling, hydrologic forecast and guidance. Their 
work is especially crucial.
    Can you tell me about how this process works and how the 
data is gathered through hydrologic remote sensing? How is that 
helpful in flooding? Because, obviously, we're not just worried 
about this one area, which is incredibly difficult right now, 
Fargo-Moorhead, but also all the way down the rivers into 
Minnesota.
    Dr. Sullivan. Senator, let me give you a brief answer here, 
and we'll be happy to follow up with a longer discussion, if 
you would find that helpful, in your office.
    There are a combination of input data sources to these 
forecasts, from snowpack surveys, some of which are done by in 
situ instrumentation, some of which are done by measurements 
made from NOAA aircraft.
    The United States Geological Survey, our sister agency, has 
the primary responsibility for operating the stream gauge 
networks that provide critical information for the models. 
Those data are relayed to the data ingest sites, actually, most 
commonly through NOAA geostationary overhead satellites.
    So we scavenge data via satellite relay link. We make 
direct measurements on the ground. And we make airborne 
measurements in field campaigns. All of which go into informing 
both the physics in the models for the hydrological prediction 
and then the actual status of the environment at a moment that 
let us add some precision and accuracy to an immediate 
forecast, such as the ones we're giving to your constituents 
now.
    Senator Klobuchar. And is it true that this warm-up rate 
matters, how quickly the ice and snow melt? I mean, we're 
afraid we have feet of snow in northern Minnesota, and we're 
suddenly going to have an 80-degree day, and we're never going 
to see anything like this, because it usually doesn't happen 
that way, especially with the temperatures at night.
    Dr. Sullivan. The timing of snowmelt and the speed of melt 
through the spring season matter critically to the severity of 
flooding in the downstream basins, yes, ma'am.
    Senator Klobuchar. OK. Well, thank you. I appreciate your 
work. I appreciate that you're willing to devote the personnel 
with some hard budget times that I hope will change if we can 
get a deal here going. But I want to thank you for what you've 
done.
    Admiral Papp, you're off the hook now. I know I'm usually 
asking you about various issues. I'll put some questions in the 
record about dredging. And if we need your help up there, the 
Coast Guard comes to the rivers, then we're really in trouble. 
That's what I think.
    So thank you very much.
    Senator Begich. Thank you very much, Senator Klobuchar.
    Let me go through my questions, and then, again, if folks 
have additional ones, we'll allow that after this.
    For Admiral Papp, let me ask you, I know in the capital 
investment plan, I did look at it, and you have, for the 
icebreakers, you have about $2 million, I think, to continue 
planning.
    I'm a little nervous, to be very frank with you. I know you 
have had to battle to get dollars into the system just to start 
the process. Can you tell me, in your words, where do you see 
that program going?
    As you know, I mean, you just heard, even in the Minnesota 
region, icebreaker needs, but really, in Alaska, what will be 
necessary to manage and alleviate potential risk.
    As we know, 2 years ago, a little less than 2 years ago, 
the work you all did to help us with Nome, Alaska, receiving 
incredible fuel, which was critical for their survival through 
the winter.
    Tell me how you see that plan. I'm concerned, as you can 
imagine, but give me some thoughts there on what you're 
thinking in the long term on it.
    Admiral Papp. I feel really good where we're at, Senator.
    Three years ago, when I first testified before this 
subcommittee, I laid out four things that I needed to do to 
provide icebreaking capability for the country.
    The first was to get the operating funds for the 
icebreakers back in the Coast Guard budget. That has been 
accomplished. We have the operating funds now.
    Second was to get a heavy icebreaker back in service. We 
selected the POLAR STAR because POLAR STAR had probably the 
least work that needed to be done.
    And I'm very proud to report that POLAR STAR is ready for 
operations. We expect to send POLAR STAR up to the Arctic this 
summer, so that we can regain their proficiency. It has been a 
long time since these crews have been out there breaking ice, 
so we need to send them up to the Arctic to get some experience 
this summer. And it's my goal to send POLAR STAR to the 
Antarctic to break out McMurdo in February 2013 for the 
National Science Foundation.
    Senator Begich. Can I ask you a quick question on that?
    Admiral Papp. Sure.
    Senator Begich. What was the cost on that POLAR STAR to 
get? I know it was renovations, and so forth. Do you remember 
roughly what that was?
    Admiral Papp. It was in the vicinity of $65 million to get 
it reactivated.
    Senator Begich. How long will you be able to, at this point 
now, see the lifespan of that?
    Admiral Papp. Well, we have the operating funds back in the 
budget now for POLAR STAR, so that will help us.
    Our plan is to keep POLAR STAR sustained for at least 10 
years----
    Senator Begich. OK.
    Admiral Papp.--until we get a new polar icebreaker.
    So keep HEALY running, because she was the only icebreaker 
we had, get the money back in our budget, get POLAR STAR 
reactivated, and then start the process for a new icebreaker, 
which I thought was going to be the most difficult thing to do.
    The President put the money in, to start this process, in 
the 2013 budget.
    Now, I realize it causes some concern when people look at 
$2 million in the 2014 budget. That's simply because the 2013 
budget was enacted halfway through the year. We haven't had a 
chance to spend any of that money, because we didn't have it. 
So as a good steward, we said we can extend some of that money 
into the FY14 spending, along with the $2 million, to keep this 
process going.
    And right now, what we're doing is a very thoughtful, 
deliberate process to make sure we reach out, not only to the 
Department of Defense, but the National Science Foundation, 
NOAA, and other agencies, because this is not just a Coast 
Guard icebreaker, it's a United States icebreaker. And we need 
to make sure that we take into account all the requirements 
that are going to be important to this very significant 
investment.
    Senator Begich. Very good. Let me follow up.
    As you know, about a month and a half ago, we had a 
hearing, about 2 months ago, in Alaska that I conducted 
regarding the Bering Sea and the amount of traffic moving 
through there.
    And District 17 gave a great presentation. They did a great 
job. I give them, you know, a lot of extra credit points. Not 
only do they do it on the ground, but when stuck in front of a 
committee, they do a good job in presenting the risk that is 
growing, and the risk in regards to the amount of traffic 
moving through there and not really knowing a lot about it, in 
the case of foreign vessels, and some of the work that needs to 
be done there.
    Do you share that same level--I mean, obviously, when 
you're on the ground in the district, it's always elevated 
because you're there watching it. Do you share that same 
concern that we've got to really start opening our eyes to 
what's going on there in the Bering Sea and the amount of 
traffic that is unclear, sometimes its cargo or its structure 
of those ships?
    Admiral Papp. Absolutely, Mr. Chairman. Yes, it's almost a 
funny situation.
    When I appear with the Chief of Naval Operations, he 
generally puts up a chart of the world and shows all the 
significant chokepoints in the world that the Navy is 
responsible for.
    Senator Begich. Except the Bering Sea.
    Admiral Papp. Except for the Bering Strait. And he has now 
started putting a symbol on the Bering Strait, because I 
continually remind him.
    While drilling poses some challenges, really, my biggest 
concern right now is the increase of traffic through the Bering 
Strait. And Russia is firmly intent on opening that North Sea 
route as a major route for commerce.
    We've seen a fourfold increase of traffic going through the 
Bering Strait, and the potential for disaster, pollution 
disaster, is really, I think, more likely from ships colliding 
or a ship running aground, being caught in a storm and becoming 
disabled. That's the thing, I think, that I worry about the 
most.
    Good thing is, because of the Coast Guard and our nature 
and the way we're able to operate, we represent the United 
States at the International Maritime Organization. We're 
involved with the Russians in the North Pacific Coast Guard 
Forum. We are working with coming up with traffic schemes for 
the Bering Strait that I think will work to improve security in 
the years to come as that route becomes vital to the entire 
world.
    Senator Begich. Very good.
    Admiral Papp. Sir.
    Senator Begich. Let me end with one more question, and I'll 
see if Senator Rubio has some additional, then I'll come back. 
And I have some questions for NOAA.
    But as you know, I'm a big proponent of making sure at some 
point we have some access--maybe a deepwater port in the Arctic 
region. And I say ``region,'' because it's a very large area in 
comparison to the lower 48 and some of the regions of coastal 
areas.
    And we have had inquiries from, I know, Port Clarence and 
the Bering Straits Corporation there in trying to resolve some 
issues there.
    It seems like District 17 is very interested in 
transferring some land there, but it's held up here somewhere 
in the national level here in D.C.
    I don't know how much you know about this issue, but I want 
to put it on your radar screen. Would you be able to give a 
commitment or at least a willingness to have the Bering Straits 
Native Corporation come in, meet with your folks, and try to 
negotiate a resolution to this issue to the betterment, 
obviously, to the long-term issue of a deepwater port, but also 
to the needs that the Coast Guard will need in projecting out 
10, 15, 20 years from now?
    Admiral Papp. Yes, sir. Two things, if I may.
    First of all, I think we're going to be the first Federal 
agency, first service to have an Arctic strategy. I'm very 
proud of this. It's on Secretary Napolitano's desk right now.
    And I think it's only right that the Coast Guard take point 
on this, in order to start a strategy that can build into a 
national strategy. And a deepwater port is a part of that. We 
recognize it. It's difficult for us to have to go all the way 
to Dutch Harbor to refuel our ships. We would clearly prefer to 
have something closer to where the action is going to be.
    In terms of Port Clarence, that's a new issue for me, the 
specific issue. I'm aware of the broader structure of divesting 
ourselves of all the sea property that we have throughout 
Alaska and other places.
    Senator Begich. This is one of those.
    Admiral Papp. So we will commit to meeting with your 
constituents.
    Senator Begich. Fantastic.
    Admiral Papp. Clearly, there are, I think, mutual things 
that we need to talk about, because we don't know what our 
long-range plans on the terrestrial side are either.
    Senator Begich. Very good. And I'll just end on that one 
issue and just say that I think if there's anything we can do 
to help make sure, we'll be happy to participate. I think they 
clearly understand that there is an obligation to the Coast 
Guard to make sure what your long-term--and--when I say ``long-
term'' I mean your long-term reach, not just 1 or 2 years but, 
you know, many, many years to come, because that's critical to 
have infrastructure there.
    Admiral Papp. Yes, sir.
    Senator Begich. Let me turn to Senator Rubio.
    Senator Rubio. Thank you.
    I just had one question, and it was for Dr. Sullivan.
    I wanted to ask a little bit about the budget proposal that 
funds about 3,500 days at sea to carry out missions to support 
fishery surveys, among other things.
    This proposal represents an increase of almost 1,400 days 
at sea above the Fiscal Year 2012 levels, and that's a good 
thing.
    But what are you doing to ensure that the ship time is 
going to be distributed fairly, in the sense that it's 
distributed according to need among the different regions? What 
are we doing to balance those days to ensure that all the areas 
are getting the attention that they think is appropriate?
    Dr. Sullivan. Senator, in the last year, we've been through 
one unique exercise that will underpin part of that answer, and 
then we have a standing process that we rely on for that.
    The one-time exercise, as it were, was a very thorough and 
rigorous reassessment and revalidation of our at-sea observing 
requirements. This is not our requirement for days at sea, but 
really an exercise to make sure that we broke down to the level 
of what are the parameters that we need to observe specifically 
at sea in order to fulfill our missions so that we, as we go 
forward and look at ship allocations and potentially 
alternative technologies that might augment or replace ship 
assets, we can really trace from a specific observation that 
needs to be made to whatever mixture of ways to make it may be 
available to us and provide the best balanced approach to 
fulfilling those needs.
    We've called that our fleet composition plan. It's just 
been buttoned up in the last few weeks. And we look forward to 
bringing that forward to discuss with you in the months ahead. 
That will be one underpinning.
    And then second, we have a fleet allocation and fleet 
planning process that is operated by Rear Admiral Devany, head 
of the NOAA Corps, and his officers and staff, with complete 
and direct participation of all of our major line office 
mission and science managers. And it is in that forum that we 
trace the available ship capabilities, the equipment, and 
particularities of each vessel to the sort of mission needs, 
region-by-region and priority-by-priority.
    Senator Rubio. And, Admiral, I had a question, and I don't 
mean to inject you in another controversial issue, but----
    Senator Begich. What the heck.
    Senator Rubio. What the heck. We're here anyway.
    No, really, it has to do with--obviously there's been a lot 
of discussion in the context of immigration reform about border 
security, and particularly the southern border.
    But as many of us who live in areas where there's water 
understand in particular, the entire coastal region is 
potentially a border sector. And obviously, it's a little bit 
more difficult, because there are risks associated with 
crossing that over an extended period, but we've seen that.
    In South Florida, for example, we've seen the cottage 
industry that emerged not so long ago of migrant smugglers that 
were going into Cuba and bringing people back on fast boats. 
And even now, from time to time, it's not rare to hear the 
story of a raft washing up or what have you. A very dangerous 
mission, and we should discourage it.
    Any trends in those migration patterns that we've seen? And 
more importantly, I just want to understand what our 
capabilities are if, in fact, there is a--let me back up.
    Those migration patterns have spiked in the past as a 
result of instability in Haiti or the Dominican Republic, or, 
an example, Cuba, and in other places. What are the risks 
realistically of a future migration spike if, for example, the 
southern border is secured and it becomes a less viable entry 
point, or if there is some sort of upheaval in the Caribbean 
sector that could lead to a waypoint for people to come through 
there?
    I mean, what's your view on our capacity to deal with that 
now and moving forward, given some of these budget constraints 
that are being put in place?
    Admiral Papp. I think we have adequate capacity right now, 
Senator.
    And I think what the Coast Guard does is we have a 
deterrent value. One of the reasons you haven't seen--and I was 
out there during the mid-1990s for the Haitian mass migrations 
and for the Cuban mass migration that occurred at the same 
time. It's a terrible business to have to do, and we need to 
persuade people to stay in their lands, so they don't try to 
take that dangerous voyage to try and reach the United States.
    We do direct repatriations of Haitians right now, and our 
numbers have trended fairly stable, and we haven't seen a spike 
in a long time. Part of that is because they're still 
recovering from the earthquake, and they haven't had the 
wherewithal. Part of it is the economy.
    An improving economy in the United States tends to attract 
people as well, and we just haven't seen that. But we monitor 
those numbers very carefully.
    And we have a strong presence in the Windward Passage and 
in the Straits of Florida.
    The thing that troubles me the most is the smugglers who do 
this for profit who are taking creative routes either up 
through the Bahamas. We're seeing Haitians being run over to 
Puerto Rico right now. So it's a constant battle as the 
smugglers get a little bit smarter and more daring.
    But once again, there are smaller numbers than the land 
border, and it's because of the deterrent value.
    Senator Rubio. Is the smuggler industry, for lack of a 
better term, is that on the increase? Is that on the decrease? 
I mean, it's an expensive undertaking. My understanding is they 
charge thousands of dollars per person that they bring.
    But is that something we've seen an increase in, a decrease 
in? And if there has been a decrease, is that due to economic 
factors, enforcement, both?
    And the other question I would have is, how do we spot 
these? I mean, it sounds to me like a fast boat through the 
middle of the Caribbean is not necessarily something we would 
necessarily stop. I mean, what are the indications that we look 
for?
    Admiral Papp. I think flow of migrants is similar to the 
flow of drugs. People are very creative.
    And yes, we've seen an increase in those people that are 
doing it for profit. And it is expensive, but it's expensive 
for those poor, unfortunate people that they lure to transport 
them. And it's also a dangerous business.
    As the Southwest border constricts and gets a little bit 
more secure, there is a tendency for like a balloon. You 
squeeze something, and it's going to find another direction to 
go in.
    So I'm increasingly concerned about the Southwest border on 
the California side. Right now, we're seeing an increase of 
drug smuggling going around the border, trying to get into 
California. We've seen some migrants coming that route.
    We haven't seen a commensurate rise on the Gulf of Mexico 
side between Texas and Mexico, but I think that's another 
natural place to start looking for it.
    Senator Begich. Thank you very much.
    And before I go to Senator Cowan, let me ask a couple 
questions.
    Dr. Sullivan, I really appreciate you being here.
    One of the first is, and I think you answered this a little 
bit in your opening, and that was, and some other the question, 
you received about, I think it was about $100 million in the 
Sandy component, and, if I remember right, in the supplemental 
to mitigate the expected gap in the Polar Satellites.
    Can you just give me a quick again how you're using that? 
And has that become valuable in the sense of keeping things on 
track? Just give me a sense there real quick, and then I've got 
a couple more.
    Dr. Sullivan. Yes, Senator. The $111 million appropriated 
by the Congress in the Sandy supplemental--and let me express 
my thanks to both chambers for that appropriation--was focused 
not on preventing a gap in the satellite constellation, but 
should there be one, on identifying actions that could be taken 
to mitigate the degradation of forecast accuracy and 
reliability.
    We commissioned an external study to reach far and wide 
into the agency, into academia, into the private sector, really 
call for best technically viable ideas, assess those.
    They brought forward a set of recommendations to us that 
boil down to six prongs. One is there are a couple of sources 
of data that are not currently used because of technical 
problems either with the data source or computing capacity 
limitations. Look at using those.
    There are some kinds of data we currently purchase. 
Aircraft-based data is one great example. We buy certain 
segments of those data.
    There are other coverage patterns we could look at, run a 
sensitivity study, be sure you understand which new purchases 
might be of greatest value to sustaining the forecast.
    Improvements in how we take the data in, a process called 
data assimilation, which boils down to being sure that you're 
using the right data, using it well, and getting a handle on 
the errors that are necessarily in any line of data.
    Some future sources of data that we should pay attention to 
and consider using.
    Leveraging models that other entities run, in particular 
the European Centre for Mid-Range Weather Forecasting, their 
techniques to blend outputs of models. We do some of that now, 
but be more ambitious.
    Underpinning all of what we propose to do in response to 
this with the funds provided in the Sandy supplemental are two 
things. Some of what this independent brought forward are ideas 
we're well familiar with but have not been able to take aboard 
and do because of limitations in our operational supercomputer 
capacity.
    The investments we proposed in the Sandy supplemental spend 
plan coupled with investments proposed in this budget put us on 
track to make a fourfold increase in the capacity of our 
operational supercomputers by 2015. This will let us move back 
to par on data assimilation and modeling capability with the 
leading outfits in the world and accelerate the transition of 
these critical research capabilities into operation.
    Senator Begich. Very good. Thank you.
    And I would only pitch--because you said it; it jogged my 
memory--as you deal with supercomputers, we have a beautiful 
one in Fairbanks, Alaska. So I'll just leave that as a thought 
for you.
    Also, this is an issue, as you know, we've talked about 
before with some of your folks within your agency, and this is 
the monitoring of groundfish in Alaska, but really around the 
country, and how to use electronic monitoring.
    I'm going to be banging on your head forever on this, 
because for all the things you just said about satellite, 
technology, computer, supercomputer, all of the technology 
utilized to really help critically determine weather patterns 
and other things, the system we use today is a system for 
counting fish that--it's changed a little bit, but it's people.
    And electronic monitoring--and I know the excuse is, 
``Well, it's not accurate.'' Well, Canada uses it, and it seems 
logical that we should be trying somewhere instead of getting 
more personnel to put onto operations or on ships that may not 
have the capacity to do it, where electronic monitoring just 
seems so logical. I've seen not only in Alaska but actually in 
Senator Cowan's state, meeting with some of the folks there, 
and the technology being developed is impressive.
    And I know the habit of the Federal Government is to study 
things to death, and I get it. The best study is get it out in 
the water sooner than later and in large volume. Because if I 
look at Massachusetts, I can tell you their assessments have 
significant problems, as you know, because the length of time 
between assessments is creating huge gaps in their fishing 
capacity and understanding their fisheries.
    We're fortunate. We do them every year. We have also state 
dollars to pledge to them. We put in a lot of money.
    But it would just seem that we should step this up. It 
seems like every 3 months, I have this conversation with 
someone from NOAA or Fisheries sitting where you are.
    And you're the top dog in this, so I'm looking to you to 
say, let's get on with the show, and let's use the technology.
    And I know what everyone is going to say. I can write the 
script. ``Well, we're not sure how accurate it is.''
    Well, I'll tell you right now, if I go to Massachusetts, 
it's not working out so well the way they're doing their system 
now that for the last 2 decades has been operational and in 
certain fisheries that we have.
    So I'm just asking you to accelerate this. And even if it 
means we're going to pick one or two areas to do a high 
concentration of testing on this technology versus humans doing 
the testing in the sense of assessments.
    We know Canada's been doing it. And there are some 
differences, and I get that. But it seems in this world where 
we can put a thing on Mars and watch us kick up dirt and know 
exactly what's there and find out there was actually water at 
one time, it just seems we can do this.
    And I would challenge you to accelerate this as an 
opportunity for cost savings, but also engaging the technology 
of this country onto something that I think is desperate for a 
food supply that needs to have more accurate assessments.
    Can you quickly respond to that? And I didn't mean to get 
on a rant, but I just get so frustrated. It's just like I'm 
afraid that I'm going to see fishermen today. I'm not sure I 
want to, because I know what they're going to ask me.
    Dr. Sullivan. Senator, we hear your concerns. We share your 
interest in the possibility of electronic monitoring becoming 
both more effective and efficient than the observer system we 
use today.
    We're familiar with the work that's being done in Canada, 
the use that's being made there. My assistant secretary for 
conservation and management and our director of the Fisheries 
Service have been up to see the Archipelago corporation, make 
sure we're familiar with the best gear that's out there.
    As you know, we launched pilot studies in your home-state 
waters this past year. This budget includes $2.5 million to 
keep those on track and keep moving forward.
    So we share your interest. We understand clearly the 
concerns and the interest that this represents for your 
constituents. And I promise you, we will stay on top of it.
    Senator Begich. Good. Accelerate the opportunity.
    Let me turn to Senator Cowan, and then I'll have Senator 
Nelson next.

               STATEMENT OF HON. WILLIAM COWAN, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Cowan. Thank you, Chairman Begich. Thanks for 
referencing the fishing industry in the great Commonwealth of 
Massachusetts in your commentary with Administrator Sullivan, 
and thank you for conducting this hearing.
    For the sake of time, Dr. Sullivan, just a few questions 
for you.
    And you heard Chairman Begich reference the challenges and 
the concerns we have in the Commonwealth, which I trust you 
know well.
    I'll preface my question with this, because I just want to 
be candid with you. Right now, there is not a great deal of 
faith and trust in the Commonwealth about the decisions and the 
actions of NOAA. There are many in the fishing industry who, 
frankly, believe that NOAA just doesn't care about the fishing 
industry in Massachusetts anymore and is content to see that 
fishing industry go away.
    I trust you understand I am not one of those people.
    This fishing industry is 300 years strong in Massachusetts, 
and it needs to be there for the next 300 years.
    As I look at your budget, the fundamental, the primary 
question that comes to mind, how does this budget, how does 
this budget proposal for 2014, support, aid the fishing 
industry in the great Commonwealth of Massachusetts? To that 
end, if you could also address, in light of the fact that just 
last year Acting Secretary Blank issued a declaration of 
emergency for the fishing industry, and we're still waiting for 
that funding, why is there not funding proposed in this budget 
to address that emergency?
    Dr. Sullivan. Thank you, Senator.
    Let me assure you, I'm with you on not wanting to see New 
England fisheries and Massachusetts fisheries disappear from 
the Earth either. And I assure you, no one in the National 
Marine Fisheries Service is aiming in that direction.
    It's a very tough situation in New England, with both 
depleted stocks and apparently changing climate conditions. Our 
regional director, John Bullard, has been in the towns and on 
the docks every day since he came aboard, working with your 
constituents and your fishermen trying to employ every degree 
of flexibility that we have to help them through this very 
difficult time. And we will continue to do that.
    This budget proposes modest increases but significant 
increases that will go a long way to improving our stock 
assessment, survey, and monitoring work. Those will be 
prioritized toward the highest value, most critical economic 
species, of which New England fisheries will certainly be some.
    It includes additional investments. Twenty-one million 
dollars in ship time so that we can be at sea and collect the 
data that are needed to improve the science that underpins the 
management actions that we're charged with taking. And 
importantly, and we're very pleased, it includes a $10 million 
request for research into the interaction and consequences of 
changing climate conditions on both fish stocks and prey 
availability, with a focus on the New England ground fish 
issues.
    Senator Cowan. And as for the question about the emergency 
disaster relief funding, was there a particular reason or 
rationale that that is not proposed in this budget when it has 
been clear, at least certainly from our side of the table, 
meaning in the Commonwealth and New England, that there's a 
need, and NOAA has expressed--at least claimed that they 
appreciate the need.
    I'm just curious why you would not seize this opportunity 
to put it in there, when that need is increasing by the day, 
particularly since the fishing industry in Massachusetts, we're 
facing a 77 percent cut next week. We've got a problem. What is 
NOAA's proposed solution?
    Dr. Sullivan. We did, as you know, Senator, lean forward 
and actively and preemptively issue a disaster declaration for 
the New England fisheries for just that reason. There is not a 
fund or normally a request from an administration attached to a 
fisheries declaration. The declaration is made by the Executive 
Branch and then funds are appropriated by the legislative 
branch as the Congress sees fit.
    Senator Cowan. But these aren't normal times, you agree?
    Dr. Sullivan. They are challenging times.
    Senator Cowan. So let me ask you this, and some of your 
colleagues from NOAA testified before this committee very 
recently, and I sent them a letter posing some of these 
questions, Dr. Sullivan, and asking for a written response by 
April 15, which was 8 days ago. Are you familiar with that 
letter?
    Dr. Sullivan. I am not familiar with that letter, Senator.
    Senator Cowan. All right. Well, I'm still waiting for a 
written response.
    And I'm wondering, since this is your agency, you're in 
charge of this agency, the top dog, as the Chairman referenced, 
is there any particular reason why, if you know at this time, 
why NOAA decided not to respond to this Senator's written 
request for information?
    Dr. Sullivan. I don't know the answer to that, Senator, but 
I will surely look into it at the end of this hearing.
    Senator Cowan. Can I have your word that I'll get a 
response by the close of this week?
    Dr. Sullivan. I have wickets that my responses need to go 
through, too, Senator. I can assure you, we will get on top of 
it.
    Senator Cowan. All right.
    Senator Nelson. I bet you get an answer today.
    Senator Cowan. I was going to give you to the end of the 
week.
    Senator Begich. You're new.
    Senator Cowan. Well, I would appreciate your follow-up on 
that, Dr. Sullivan.
    And frankly, I would appreciate your commitment that NOAA 
will continue to work hard to help find a solution to what ails 
the fishing industry in Massachusetts. There is some trust that 
needs to be rebuilt there, and NOAA needs to attend to that 
posthaste.
    Dr. Sullivan. We recognize that, Senator, and we will work 
on it.
    Senator Cowan. Thank you.
    Senator Begich. Thank you very much.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman.
    Admiral.
    Admiral Papp. Senator.
    Senator Nelson. Madam Secretary.
    Admiral, if we had another BP spill today, who's in charge?
    Admiral Papp. The Coast Guard is in charge for response to 
the spill, sir.
    Senator Nelson. Does that mean you?
    Admiral Papp. Yes, sir.
    Senator Nelson. You would be the authority?
    Admiral Papp. It's certainly my responsibility. I may 
assign people who might be the primary response person, whether 
it's the district commander or an area incident commander.
    Senator Nelson. What happened after the BP spill that it 
was described to me by the Coast Guard that the Coast Guard is 
in charge 51 percent and BP is in charge 49 percent?
    Admiral Papp. Sir, I've heard various quotes like that, and 
I don't know who to attribute them to specifically.
    I think when people are being interviewed, either in 
hearings or in press conferences and other things, one of the 
things that the Coast Guard does traditionally in order to be 
prepared for incident responses is to partner both with the 
Federal, State, and local agencies, and, from time to time, 
industry, because industry will have to pay for and come up 
with the ultimate solution.
    We bear the responsibility to direct industry. So as far as 
I'm concerned, it's 100 percent the responsibility of the Coast 
Guard, shared with other Federal agencies along the way, 
depending upon the regulations or what particular impacts there 
are for the incident.
    But we hold the companies accountable for the cleanup. If 
they don't have the wherewithal, we can authorize expenditures 
from our oil pollution response fund. But the Coast Guard will 
take lead, will take point on this.
    Senator Nelson. In your mind, as the head of the Coast 
Guard, was there a lesson learned from the BP spill with regard 
to who is in charge?
    Admiral Papp. I think that it's more the way we talk about 
it. And once again, in order to be prepared in the way the Oil 
Pollution Act of 1990 was constructed, it puts the Coast Guard 
responsible for the cleanup, it puts us responsible for 
response plans and holding people accountable to get the 
cleanups done.
    And for many years, we worked in partnership with 
countries, whether it's the oil spill response companies, the 
petroleum companies, the shipping companies. In order to move 
forward and come up with safe designs, safe practices, we need 
to work in partnership.
    So I think, unfortunately, that is within our vernacular, 
and that's the way we talk about it from time to time. And I 
know people were put off by the fact that we talked, some of my 
people that were responding at the time, talked about our 
partners in industry.
    We clearly know and we have learned a lesson that we are in 
charge. We hold people accountable for cleanup.
    And that, I think, is one of the many lessons we learned 
from that.
    Senator Nelson. Well, I would respectfully suggest to you 
that, on the basis of your response, that the administration--
and I'm not just speaking of the Coast Guard--has not learned 
the lessons, because on a daily unfolding disaster of the 
magnitude that was the BP disaster, the arrangement that was 
occurring, where there was so much deference to the oil 
company, it led to the oil company basically being in charge, 
and with a delay over and over of getting our arms around the 
problem.
    And I'll just give you an example. You remember that the 
oil company wanted us to think that there were less than 1,000 
barrels a day that were gushing from the well. And it was not 
until this committee and the Environment Committee of the 
Senate insisted otherwise that we get the actual video, the 
live streaming video, of what was occurring 5,000 feet below 
the surface that then scientists could calculate the flow rate 
and see that it wasn't 1,000 barrels a day. And each of those 
were revised upwards by BP trying to keep the minimum. And 
ultimately, it was close to 50,000 barrels a day.
    And a lot of mistakes were made like that, mistakes that 
have been made with comments coming out of the White House that 
there is no oil left after the well was capped, I think beg for 
a changed command structure, one that is a military command 
structure in an unfolding disaster of the proportions that 
occurred there.
    And I simply share this with you, Admiral, the admirable 
Admiral, that, from your comments, it doesn't sound like that 
is being instituted and understood.
    Madam Secretary, let me ask you, as a result of this 
beneficence that we now find recoverable oil on shore, not only 
the natural gas, but the onshore oil that is producing all 
kinds of new reserves, to what degree is that true?
    And number two, does that in any way lessen the pressure to 
drill offshore because of the new oil reserves on shore?
    Dr. Sullivan. Senator, I'm really not conversant with the 
recent estimates for either onshore or offshore oil. That's 
more in the domain of our colleagues over at BOEM [Bureau of 
Ocean Energy Management] and the offshore energy group at the 
Department of Interior. We'd be happy to follow up with your 
staff on those particulars, if you'd like, but I don't have 
figures at hand.
    Senator Nelson. OK.
    Admiral, let me ask you about the budget. The fact that 
last year, on the maritime oil spill program, we had a budget 
of $289 million, and this year it's being proposed at $238 
million.
    Are we prepared for the next Deepwater Horizon spill with 
that kind of funding?
    Admiral Papp. Sir, the specifics of the amounts in the 
budget, I'm not at that level of detail to be able to respond 
what, in fact, that does for us.
    We've had reductions across the board in the Coast Guard, 
so it does not surprise me to see something that's about a 
quarter of a million dollars being reduced to some extent while 
we're reducing expenditures for building ships, aircraft, 
boats, and losing people at the same time.
    So while I can't explain the difference in what's probably 
about $10 million or $20 million in that particular line item, 
what I can say is that we are working very closely with the 
Department of Interior.
    The Department of Interior is the one that permits 
drilling, and we've learned a lot through the Deepwater Horizon 
process. They will evaluate. We'll work with the Department of 
Interior to look at response plans for the companies and the 
safety of the drilling evolutions, and those lessons are the 
things that we're carrying forward.
    Senator Nelson. OK.
    Mr. Chairman, last year's level was $289 million for the 
oil spill response. It's a part of the Coast Guard budget. And 
they are proposing to fund it from $289 million to $238 
million.
    This committee deserves an answer as to whether or not, in 
fact, that's enough, and why was it cut in light of the fact 
that we could face another Deepwater Horizon oil spill?
    Senator Begich. Senator Nelson, let me, if I can--I just 
got some information I'm just looking at very quickly here--but 
correct me if I'm wrong here, but also it begs the question 
Senator Nelson's asking--2012, you had about $213 million, give 
or take. It's now 2013, $289 million; and then 2014, $238 
million.
    And I think it does beg the question, first off, it's more 
than 2012, which is good. Less than 2013, which is bad, I think 
we would say.
    And that gap, the question I think Senator Nelson, and I 
think I would agree with, and that is, what is the operational 
impact of that in a spill of a magnitude equal or greater than 
what occurred in the Gulf, when you have that kind of 
differential occur over one year over the next?
    And I think that's an important question, because if we're 
lowering the funding in anticipation of not a catastrophic, 
which of course we would never want, does that create a problem 
operationally for you as you are moving forward in dealing with 
an oil spill that could happen in the Gulf? That gap is a 
sizable amount; it's almost 15 percent of your budget, of that 
unit.
    Admiral Papp. Mr. Chairman, anything I give you right now 
is pure speculation.
    Senator Begich. OK.
    Admiral Papp. There are so many ups and downs in this 
budget, inconsistencies in the budget as we've faced these 
reductions, making tough decisions based upon the limited funds 
available, and also the fact that the 2013 budget was enacted 6 
months into the fiscal year, many times we made judgments, OK, 
we're going to have to carry over money or there will be money 
that we'll not be able to spend, or we can transfer things 
around. And that affects the levels we asked for in 2014 as 
well.
    So rather than sit here and speculate, what I'd rather do 
is give you an answer for the record, which you deserve.
    Senator Begich. I think that would be appropriate. And then 
maybe you could draw back a year to 2012, kind of starting 
there, so we understand this kind of longer flow, because if 
there was that carryover or whatever occurred, I think the 
detail would be helpful for both Senator Nelson and myself, as 
well as others who may be interested in this.
    [The information requested follows:]

Coast Guard/Admiral Papp response:
    The Maritime Oil Spill Program (MOSP) estimates are made up of 
three components: Emergency Fund expenditures (oil spill removal); 
Claims expenditures; and payments to the Oil Spill Recovery Institute 
which is located at the Prince William Sound Science Center. The table 
below shows the source of the decrease in total projected expenditures 
from $289 million in FY13 to $238 million in FY14. The projection 
anticipates the completion of the majority of the removal operations 
associated with Deepwater Horizon (DWH) and the return to a projection 
in line with historical Emergency Fund expenditures prior to DWH. 
Claims normally lag the response operations. The estimate predicts a 
slight increase in claims expenditures associated with Natural Resource 
Damage claims from DWH.

------------------------------------------------------------------------
                                                    FY13         FY14
                 $ in millions                   Estimates    Estimates
------------------------------------------------------------------------
Emergency Fund Expenditures                        $111.3M       $50.0M
------------------------------------------------------------------------
Claims Expenditures                                $177.4M      $188.0M
------------------------------------------------------------------------
Oil Spill Recovery Institute Expenditure              $0.6        $0.6M
------------------------------------------------------------------------
Total:                                            $289.30M     $238.60M
------------------------------------------------------------------------

    The Coast Guard's ability to respond to the next Deepwater Horizon-
like spill is not related to the projections in the table above. Each 
year the Coast Guard receives an appropriation of $50 million (funding 
is available until expended) for the response to oil spills. To the 
extent that this amount is not adequate, the Oil Pollution Act of 1990 
(as amended) provides that the Coast Guard may obtain an advance from 
the Principal Fund up to $100 million with notification to Congress 
within 30 days (and if this increased amount is not adequate, a 
legislative remedy would be pursued). Finally, there are limits on Oil 
Spill Liability Trust Fund (OSLTF) use per oil pollution incident. The 
maximum amount that may be paid from the OSLTF for any one incident is 
$1 billion.

    Senator Nelson?
    Senator Nelson. Mr. Chairman, may we expect the answer to 
that by the end of the week?
    Senator Begich. He's given you a lot of extra time, because 
I was expecting by the end of the day, based on Senator 
Cowan's. But what do you think your timetable----
    Admiral Papp. A question like that we can have by the end 
of the day.
    Senator Begich. Fantastic. How's that?
    We should ask for a week all the time, and their response 
is the end of day.
    Thank you very much, Admiral, for that.
    And, Senator Nelson, does that satisfy the request? 
Fantastic.
    I have some questions for the record, but if I could just 
do two quick ones, one for you, Admiral, or, actually, two.
    One is, I know you have made a big effort in regards to 
housing for your men and women of the Coast Guard, which I give 
you huge credit for, because I have seen some of that housing, 
and you actually had to live in it at times, and I know that, 
and there is a great need there.
    I noticed there is no or limited funding in 2014 for 
housing. Obviously, that has impact. And that's probably one of 
those things you said you've got to push off, because of budget 
issues.
    Besides more money, is this still in your priority list, 
understanding money, putting money aside, is this a pretty 
important thing that you believe we should be focused on also, 
along with you?
    Admiral Papp. Absolutely. And I think you know, having been 
in Alaska with me and Linda.
    Senator Begich. Yes.
    Admiral Papp. It has been really one of our highest 
priorities for our families, to improve housing.
    We're really grateful that the Congress gave us $10 million 
in the FY13 budget, and I'm really happy to report to you that 
that's going to construct extra homes in Kodiak, where we have 
the highest need. It's going to construct about 10 homes out of 
the 20 that we need to construct. And I'd like to be able to 
construct more, and we've got other places where we need it, as 
well.
    It's a continuing issue for me. In terms of the 2014 
budget, it was a reasoned response, faced with the fiscal 
realities of this year, and also the workload of my people.
    The Congress gave us in excess of $250 million for storm 
repairs for Hurricane Sandy. That work and getting that 
executed is a huge workload for our civil engineers and our 
contracting people, so we'll be fully engaged with trying to 
get ourselves reconstructed. And it was just a reasonable 
decision to make to defer housing this particular year, because 
of that other money that needs to be spent.
    Senator Begich. And I might have mentioned this to you once 
before on housing--honestly, I can't remember our final 
response, or if we just had more of a discussion--and that is I 
know the military has done some very successful on-base housing 
partnerships with the private sector, who went in there with 
their capital dollars and designed long-term--I think in some 
cases maybe 50-year contracts. I may be wrong about the term. 
And then operated them so the quality of the housing 
dramatically--as you know, on some of the military bases in 
Alaska, the quality of housing has dramatically changed.
    They're more winter-prone type of housing, and they're also 
a lot more designed for the family of today versus the family 
of 50 years ago.
    Is that something the Coast Guard would entertain, or are 
you limited by legislation that you can't even really go down 
that path, as they have done with the military bases?
    Admiral Papp. It's actually three issues there. First of 
all, public-private ventures for housing is a good thing. The 
Department of Defense is deeply invested in it but they have 
mass that they----
    Senator Begich. Huge units.
    Admiral Papp. They have huge units. Elmendorf-Richardson 
being one of them.
    Senator Begich. Hundreds.
    Admiral Papp. And the reality is, we get to leverage that. 
We have Coast Guard people that are living at Elmendorf in 
beautiful housing that they enjoy.
    Same thing happens in Hawaii, where the Department of 
Defense is heavily invested in public-private ventures, and 
numerous other locations around the country.
    I have many people on my staff in headquarters that live 
down at Fort Belvoir in public-private housing. I myself live 
in public-private housing on the Air Force base here in town 
over at Bolling. So I'm a big believer in it.
    The challenge, however, for the Coast Guard is, first of 
all, our housing areas are generally very small. It doesn't 
make it economically feasible for a company to come in and make 
an investment for something so small.
    And then just the really practical point is that, because 
of the way the laws are written right now you have to upfront 
score money in advance, huge levels of money that we would not 
be able to absorb within our budget.
    Senator Begich. You just reminded me, as you were saying 
that, this is the CBO classic.
    Admiral Papp. Yes, sir.
    Senator Begich. Yes. Which makes no sense. You don't have 
to say that. I can say that.
    I think sometimes--well, I'll just leave it at that. I 
won't get into my commentary about CBO.
    But you're right. I forgot about that scoring aspect, that 
you have to actually show it on the frontend, when in reality, 
it's a 50-year or longer term project.
    Admiral Papp. Sir.
    Senator Begich. OK. That's something we should work on, on 
this end.
    I'll have a question here, I'll give it for the record, for 
the HC-144s that you don't have right now funding but you had 
some interest, I know, with the Air Force on their C-27Js. I'll 
just submit that for the record. A little more conversation on 
that, if there's something we can help you----
    Admiral Papp. That's very important to us, Senator.
    Senator Begich. I agree, and I know there's some effort 
maybe we could help on a combination of budget units that we're 
reviewing.
    So I'll send that in. If you could respond to that, that'd 
be great.
    Admiral Papp. Yes, sir.
    Senator Begich. Last thing, again, Dr. Sullivan, I'll have 
a couple more for the record, but just one.
    And I first want to thank you. I know the delegation came 
to you from Alaska regarding the issues of the environmental 
impact statement on oil and gas, and I would argue--and I was 
hoping Senator Nelson would stay. I'd say yes, we still need to 
do Arctic development and oil and gas development offshore, if 
done the right way. And I think that's the critical thing that 
we all want to do with potentially 40 billion or more barrels 
of oil up there as well as gas.
    But I notice in the supplemental draft it issued a few 
weeks--that the definition of drilling program seems to be 
limited to the company to be able to drill one well at a time 
in either theater, the Chukchi and Beaufort. There are over 600 
leases in that area.
    My worry is that, between that and the mitigation measures, 
which reduce the timetable they can drill, it really is putting 
a stranglehold on their ability to be successful in striking in 
one of the largest oil fields in the country once hit.
    Can you give me your assurances that the design of the 
program is not intended to restrict their capacity from an 
economic standpoint? Because that's the worry they have. X 
company does one well, they're done, and a lot of the 
exploration is done in multiple--sometimes two or three, 
especially in the Arctic.
    Help me understand that restriction, which I think is a 
pretty tight restriction.
    Dr. Sullivan. Senator, my understanding about the draft EIS 
is it is still a bit incomplete, quite frankly. We will follow 
up with you on this.
    But my understanding about the supplemental is that it, in 
fact, does add some flexibility, in terms of how many wells and 
in which theater or combination of theaters, and could there be 
a floater. But let me get the additional details to you and 
follow up, if I may, for the record.
    Senator Begich. Would you do that? I know the companies 
have put kind of a pause on this season. But, obviously, you 
know how our seasons work, now is the time to kind of resolve a 
lot of these issues, so we can move into the next season.
    So I appreciate that.
    Again, let me end and just say thank you very much. We've 
had a good attendance today of members coming in and out and 
asking, I think, very important questions to both of you, both 
respectfully to your employees that work for you.
    Your employees do incredible work every day. And I know 
sometimes we sit in these hearings, we bang on your head a 
little bit to try to get some answers, and you are very 
responsive. But I know sometimes it's frustrating to sit there 
and have to take it from us at times.
    But I will tell you, your employees do an exceptional job. 
I can speak from Alaska's experience but also around the 
country.
    There may be differences at times, and may we have 
individual incidents at times. I can only say that we have a 
great work force, and you should be proud of both your teams 
that are out there every day literally on the water, on the 
land, and in the air.
    So thank you very much, both of you.
    The record will be open for two weeks. The record will be 
open for two more additional weeks for any additional questions 
for the record that we'll be sending to you.
    And again, thank you both for attending today.
    This hearing is adjourned.
    [Whereupon, at 11:38 a.m., the hearing was adjourned.]
                            A P P E N D I X

   Prepared Statement of Hon. John D. Rockefeller IV, Chairman, U.S. 
  Senate Committee on Commerce, Science, and Transportation and U.S. 
                       Senator from West Virginia
    Today we will be hearing from Admiral Robert J. Papp, Jr., 
Commandant of the United States Coast Guard and Dr. Kathryn D. 
Sullivan, Acting Administrator of the National Oceanic and Atmospheric 
Administration on their budget requests for Fiscal Year 2014.
    NOAA and the Coast Guard provide critical services to the Nation--
protecting lives and property, facilitating maritime commerce, and 
ensuring sound stewardship of coastal and marine resources. Though we 
live in fiscally-constrained times, funding for these agencies should 
be a top priority.
    I appreciate that the President's budget request for NOAA 
represents an earnest effort to address my concerns with last year's 
proposed budget, which proposed to pay for essential investments in 
weather satellites largely out of the hide of the agency's ocean, 
coastal fisheries, and research services and operations.
    This year's request of $5.45 billion for NOAA is largely in line 
with the advice the Committee has provided, and is a good first step in 
attempting to balance funding priorities for the agency.
    That said, the Committee has yet to receive the agency's final 
Fiscal Year 2013 figures, much less all the details for Fiscal Year 
2014. As the tough impacts of the Sequester are felt across the nation, 
the Committee will continue working to keep NOAA's programs on task and 
on budget.
    We also need to take a hard look at the President's budget request 
for the Coast Guard. As one of five military services which make up the 
Armed Forces, the Coast Guard is our Nation's maritime first responder.
    From savings lives at sea, fighting maritime drug smuggling and 
human trafficking on the high seas, and ensuring the safe and secure 
flow of maritime commerce at our ports to protecting our waters from 
the discharge of oil and hazardous substances, enforcing U.S. fisheries 
treaties on the high seas, and safeguarding sensitive marine habitats, 
the Coast Guard provides great value to our Nation.
    This year's Coast Guard budget is shortsighted and risky. It's 
hamstringing one of the most cost-efficient organizations in 
government.
    I am deeply troubled with this budget. The Coast Guard does not 
have adequate funding to do everything we expect them to do.
    An antiquated and obsolete fleet of cutters (some over 43 years 
old), boats, and aircraft need to be replaced.
    The current investment and replacement of these old assets cannot 
keep pace with the rate of ship decommissionings and aircraft 
retirements, forcing the Service to make risky operational tradeoffs.
    Last year alone, to illustrate just a few of the Coast Guard's 
eleven statutory missions, the Service:

  <bullet> saved more than 3,500 lives,

  <bullet> seized more than 107 metric tons of cocaine bound for our 
        streets,

  <bullet> detained 352 suspected smugglers, and

  <bullet> responded to 3,300 pollution incidents.

    These are remarkable accomplishments that underscore Coast Guard's 
responsiveness, adaptability, resourcefulness, and professionalism.
    The Coast Guard missions, capabilities, and authorities, are 
absolutely crucial to our national security, economic security, public 
safety, and environment.
    If we expect the Coast Guard to perform all we ask them to do, we 
need to fund them properly.
                                 ______
                                 
            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman, this hearing is about two agencies that are critical 
to the health and security of my home state of New Jersey. Our 
coastline is a major driver of our economy, and the Coast Guard and 
NOAA ensure it remains strong and vibrant. Both agencies were crucial 
in helping New Jersey respond to and recover from Superstorm Sandy, and 
Congress must support them so that we are better prepared for future 
storms.
    The Coast Guard protects our shores and economy. The Port of New 
York and New Jersey is the largest port on the East Coast, and it 
supports more than 270,000 jobs and $11 billion in earnings for 
families. The port is within an area that includes an airport, chemical 
plants, refineries, and railways and has been called the most at-risk 
area for a terrorist attack in the country. An attack in this area 
would affect more than 12 million people. The Coast Guard protects 
lives and the economy in the high-risk region, and we are safer because 
of their service.
    And just as they serve us unflinchingly, we must serve them with 
the same level of dedication. Unfortunately, year after year, we ask 
the men and women of the Coast Guard to do more with less. This needs 
to change.
    Time and again, the Coast Guard proves its exceptional ability to 
be agile and responsive when disasters strike. In New Jersey, as 
Superstorm Sandy devastated our shores, we experienced the Coast 
Guard's heroism and courage first hand. Yet, while we know that 
disasters like Sandy will only become more frequent, sequestration and 
continued pressure to ``cut at any cost'' is a threat to the Coast 
Guard. It is time that we give them the resources they need to keep us 
safe.
    Now, just as Sandy made it clear how critical the Coast Guard is to 
New Jersey, the storm also showed us how important NOAA is to our 
recovery and ability to avoid future disasters. We know that climate 
change is making hurricanes stronger and more intense. As a result, 
powerful storms like Sandy will no longer be rare, so it is critical 
that we invest in better weather forecasting so we can prevent 
widespread damage to communities and property. We also need to expand 
our research into climate change so we better understand the coming 
impacts, and how to mitigate them.
    Furthermore, the carbon pollution that causes climate change 
threatens our ocean ecosystems and the industries--and jobs--that 
depend on them. When the oceans absorb this carbon pollution, they 
become more acidic, which makes it harder and harder for shellfish and 
other marine life to thrive. If we stay on our current track, ocean 
acidity by the end of the century will reach its highest levels in 20 
million years. I'm proud to have written the only Federal law on ocean 
acidification--``The Federal Ocean Acidification Research and 
Monitoring Act''--which brought Federal agencies together to coordinate 
research on harmful ocean acidification, develop a national plan to 
assess the environmental and economic impacts, and recommend solutions.
    As we move forward, we must fully fund this effort to better 
understand--and deal with--the impact that climate change has on 
shellfish, fisheries, coastal reefs, and aquaculture. The combination 
of growing acidity and more frequent storms means our current path not 
only threatens marine life, but also the 54,000 jobs in New Jersey's 
$8.3 billion fishing industry. We must meet this challenge with our 
full commitment.
    Mr. Chairman, as a coastal state, New Jersey learned from Sandy how 
critical--and difficult--it is to protect our coast. So while we 
consider funding levels for the Coast Guard and NOAA, we must give them 
our full support so we can foster sustainable fisheries, enhance the 
science behind climate change and weather forecasting, and make sure 
our coastal communities are safe and secure. Our top priorities must be 
rebuilding our coast and continuing to protect its communities.
    Thank you, Mr. Chairman, for calling this hearing on issues so 
important to New Jersey, and I thank the witnesses for coming to speak 
today on the needs of the Coast Guard and NOAA.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                     to Admiral Robert J. Papp, Jr.
    Question 1. Admiral Papp, if Congress were to simply fund the Coast 
Guard's AC&I budget requests we've received in recent years, with no 
modifications, the Coast Guard would have only minimal deep water 
capabilities of the type necessary to execute its statutory missions, 
and upon which other Federal agencies and military services are 
counting for their own operational purposes. The woefully inadequate 
AC&I funding levels and misguided surface asset acquisition priorities 
we have seen requested in recent years seem to confirm the widespread 
rumor that a couple of low-to-mid-level career bureaucrats at the 
Office of Management and Budget have their own agenda for the Coast 
Guard, which is vastly different from that of virtually everyone else 
who has done any serious thinking about the Coast Guard's role as a 
military service and the Nation's lead maritime regulatory and law 
enforcement entity. What will it take for OMB to accept the vision that 
Congress, the Department of Homeland Security, the U.S. Navy, and 
everyone else has for the Coast Guard as a service with both deep-water 
and littoral capabilities?
    Answer. The Department of Homeland Security (DHS) has commenced a 
comprehensive portfolio review in 2013 that will help develop revised 
Acquisition Program Baselines (APBs) to reflect acquisition priorities 
and operational requirements achievable within the funding projections 
contained in the 2014 CIP report. A performance analysis will also be 
conducted for the legacy IDS acquisition program that includes the use 
of a campaign-level modeling tool, such as that used for the recent 
cost-constrained DHS Cutter Study, to identify an acquisition portfolio 
that optimizes mission performance within available resources.

    Question 2. Can you please describe what the Coast Guard would 
cease to do in each of its 11 statutory missions if it were to no 
longer have deep water capabilities?
    Answer. If the Coast Guard were to no longer have Deepwater 
capabilities (i.e., all existing major cutters, including NSCs, HECs, 
and MECs, ceased to exist) the activities significantly impacted would 
include those conducted far offshore for the following missions/areas: 
Counter Drug (CD), Alien Migrant Interdiction Operations (AMIO), Living 
Marine Resources (LMR), Search and Rescue (SAR), Other Law Enforcement 
missions (OLE) and Defense Readiness (DR).

    Question 3. What other services and agencies would be impacted if 
Coast Guard had only littoral capabilities, and how would they be 
impacted?
    Answer. Coast Guard deepwater assets support the core missions of 
other agencies with deepwater maritime responsibilities, including the 
Navy, NOAA, and NSF. Some types of Coast Guard deepwater assistance are 
provided on a reimbursable basis, but reimbursement levels are not 
sufficient to sustain the total cost of the asset. Thus, these support 
services could not be rendered by Coast Guard if their deepwater assets 
were eliminated.

    Question 4. Admiral Papp, we've heard for some time now about the 
potential for the Coast Guard to receive as many as 21 C27-J fixed-wing 
aircraft which have been determined by the Air Force to be surplus to 
its needs. Non-armed service entities, most notably the Forest Service, 
have expressed an interest as well, and section 1091 of the most 
recently enacted National Defense Authorization Act (NDAA) is intended 
to give the Forest Service a right of first refusal for the first seven 
of these surplus planes. National Defense Authorization Act for Fiscal 
Year 2013, Pub. L. No. 112-239, 126 Stat. 1632, 1971-1972 (2013). 
Notwithstanding section 1091 of NDAA, 10 U.S.C. 2571 provides that ``If 
either of the Secretaries concerned requests it and the other approves, 
supplies may be transferred, without compensation, from one armed force 
to another.'' 10 U.S.C. 2571(a). The term ``Secretary concerned'' is 
defined to mean, among others, the Secretary of the Air Force and ``the 
Secretary of Homeland Security, with respect to matters concerning the 
Coast Guard when it is not operating as a service in the Department of 
the Navy.'' 10 U.S.C. 101(a)(9). The term ``supplies'' ``includes 
material, equipment, and stores of all kinds.'' 10 U.S.C. 101(a)(14). 
The term ``armed forces'' is defined to mean ``the Army, Navy, Air 
Force, Marine Corps, and Coast Guard.'' 10 U.S.C. 101(a)(4). It is also 
worth noting that another subsection of 10 U.S.C. 2571 provides that 
``No agency or official of the Executive Branch of the Federal 
Government may establish any regulation, program, or policy or take any 
other action which precludes, directly or indirectly, the Secretaries 
concerned from exercising the authority provided in this section.'' 10 
U.S.C. 2571(d). Under the NDAA provision, unless and until the 
Secretary of Defense makes a determination that the aircraft are excess 
to the needs of DOD (and other requisite conditions of the NDAA 
provision are satisfied), the Forest Service does not get the right of 
first refusal to the first 7 aircraft under section 1091 of NDAA FY 
2013. In the meantime, as I read 10 U.S.C. 2571, if either the 
Secretary of Homeland Security or the Secretary concerned requests it 
and the other approves, any of the 21 aircraft can be transferred 
without compensation from the Air Force to the Coast Guard, and that 
agreement cannot be undone or overridden by any other Executive Branch 
agency or official. Will you ask the Secretary of Homeland Security to 
exercise her authority under 10 U.S.C. 2571 in order to provide the 
Coast Guard with the fixed-wing air craft it needs? If not, please 
explain why.
    Answer. Pursuant to Section 1091 of the National Defense 
Authorization Act for Fiscal Year 2013, the Secretary of Homeland 
Security sent a memorandum to the Secretary of Defense requesting a 
direct military-to-military transfer of up to twenty-one C-27J 
aircraft, along with associated spare parts and support equipment, in 
accordance with 10 U.S.C. 2571, 14 U.S.C. 1, 48 CFR Chapter 1, Subpart 
2.101 ``Supplies'', and 41 CFR 102-36.145(d). The request also 
specified that while a transfer of twenty-one C-27J aircraft is 
preferable to fully meet USCG operational requirements, fourteen C-27J 
aircraft are the minimum number of aircraft necessary in order to 
justify the costs associated with accepting and operating C-27J 
aircraft.

    Question 5. The Rescue21 system is a Coast Guard success story. The 
system improves outcomes and increases efficiency by directly, and 
immediately, guiding SAR assets to those who need help most. It is my 
understanding that persistent UMVs have been used as communications 
relay platforms. Has the Coast Guard considered the use of UMVs to 
augment Rescue21 capabilities in high-traffic offshore regions or those 
areas with poor reception?
    Answer. Rescue 21 is meeting its requirements as the primary 
command, control, and communications system for all Coast Guard 
missions in the coastal zone. Therefore, other capabilities, including 
Unmanned Maritime Vehicles (UMVs) have not been considered.

    Question 6. While the Coast Guard commands the Joint Interagency 
Task Force, budgetary and operational considerations may impact its 
ability to maintain current levels of maritime domain awareness. Has 
the Coast Guard considered use of persistent UMVs to watch over remote 
areas of the sea?
    Answer. The Coast Guard is continuing to investigate the use of 
unmanned vehicles as a sensor platform for improving operational 
effectiveness. In FY 2012, the Coast Guard established an Underwater 
Strategic Investment Team to investigate the requirements for a range 
of underwater safety, security, and stewardship roles. The team's 
follow-on work includes identifying potential applications to the Coast 
Guard's missions and producing preliminary functional requirements.
    The Coast Guard is developing plans to participate in an Arctic oil 
spill exercise scheduled for September 2013. As part of this exercise, 
the Coast Guard intends to deploy (1) an unmanned underwater vehicle 
(UUV) to search, detect, and map the ice flow from below; and (2) a ROV 
to monitor simulated oil recovery progress and completeness.

    Question 7. There appear to be significant efficiencies in the use 
of UMVs for offshore environmental response activities, and various 
scientific and industrial organizations are using them for pollution 
monitoring. Has the Coast Guard considered the opportunity to leverage 
available assets from industry to obtain immediate efficiencies?
    Answer. The Coast Guard is continuing to investigate the use of 
unmanned vehicles as sensor platforms for improving operational 
effectiveness. In Fiscal Year 2012 the Coast Guard established an 
Underwater Strategic Investment Team to investigate the requirements 
for a range of underwater safety, security, and stewardship roles. The 
team's follow-on work includes identifying potential applications to 
the Coast Guard's missions and producing preliminary functional 
requirements. In Fiscal Year 2013, as part of an oil-in-ice 
demonstration in the Great Lakes, the Coast Guard tested a remotely 
operated vehicle (ROV) equipped with a sonar and camera and an 
autonomous unmanned vehicle (AUV) equipped with an ice detection 
sensor.
    The Coast Guard is developing plans to participate in an Arctic oil 
spill exercise scheduled for September 2013. For this exercise, the 
Coast Guard intends to deploy an unmanned underwater vehicle (UUV) to 
search, detect, and map the ice flow from below and a ROV to monitor 
simulated oil recovery progress and completeness. Additionally, the 
Coast Guard has been conducting market research with universities and 
has technical interchange discussions planned to take place by then end 
of Fiscal Year 2013 with the Office of Naval Research to explore the 
use of underwater wave gliders.
    Through sensor exploitation and analyses, the Program's ongoing UAS 
projects are also increasing the Coast Guard's understanding of the 
benefits of deploying unmanned vehicles. The Coast Guard continues to 
test and observe electro-optical/infrared sensors, radars, and 
communication technologies on these platforms, the results of which may 
be used to formulate UMV strategy and decision-making, particularly 
related to how and what sensors to exploit.

    Question 8. The Coast Guard's capability for Airborne Use of Force 
comes in three forms--Ports, Waterways & Coastal Security (PWCS), 
Counter-Drug (CD), and Counter-Terror (CT). What are the Coast Guard's 
plans with the Airborne Use of Force (AUF) capability? How many units 
does the Coast Guard intend to maintain on each coast with the PWCS, 
CD, and CT capability? Does the Coast Guard intend to keep the AUF 
capability regional or deployable? Do units that maintain both the AUF 
and Search and Rescue capability have the resources it needs to 
maintain proficiency? What is the Coast Guard doing to mitigate the 
risk for these highly training intensive capabilities?
    Answer. The Coast Guard will maintain deployable AUF--CD from a 
single unit in Jacksonville, FL. The Coast Guard will maintain regional 
AUF-PWCS from Air Station San Francisco, CA on the west coast and from 
Air Station Cape Cod, MA on the east coast. All H-65 and H-60 aircraft 
stationed throughout the country can be configured for both AUF mission 
sets and piloted by crews qualified to perform the mission thereby 
providing a capability that can be planned and executed anywhere.
    All H-60 units provide basic fast roping capability to support AUF-
CT training to deployable forces. Tactics, techniques, & procedures 
(TTP) along with policy continue to support an AUF-CT capability, but 
the Coast Guard does not maintain aviation related training for the 
capability.
    All Coast Guard units are provided the appropriate resources to 
support all assigned missions including training required for 
proficiency. AUF typically requires additional aircraft maintenance 
when compared to traditional missions and units assigned this 
capability have additional maintenance support personnel to maintain 
these capabilities. Special mission units have been consolidated, where 
able, to ensure resources and proficiency can be maintained in the most 
efficient manner. For example, AUF-CD aircrew assigned to Jacksonville, 
FL, focus on one skill set (i.e., maintaining a basic hoist 
qualification) to increase proficiency and do not perform traditional 
Search and Rescue. AUF-PWCS is restricted to pilots that have more 
experience in the airframe and have upgraded beyond the basic Co-Pilot 
designation. AUF-PWCS pilots continue to maintain Search and Rescue 
capability because these mission sets have complementary components.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                      Admiral Robert J. Papp, Jr.
    Question 1. The Administration proposes to cut the Coast Guard's 
acquisition budget 41 percent below FY13 levels even while the current 
fleet of ships, aircraft, small boats is antiquated and obsolete and 
need of immediate replacement. Admiral Papp, what I see here is either 
one of two things--an effort by the Administration to change the nature 
of what the Coast Guard does for this Nation, or an extremely short-
sighted and risky reaction to the current fiscal environment--neither 
of these reasons are acceptable to this Subcommittee. I can assure you 
that this Subcommittee does not support these disproportionate cuts to 
the Coast Guard. What will be the greatest impacts as a result of this 
reduced funding, particularly with regard to missions in the Arctic, 
fisheries enforcement, and drug & migrant interdiction? Are there any 
operational tradeoffs that are unacceptable to you?
    Answer. The Department and the Coast Guard made decisions by 
looking at past investments and the relative condition of each 
acquisition program along with assessing current operational 
priorities. The FY 2014 Budget fully funds the Coast Guard's highest 
priority needs.

    Question 2. Challenges in recapitalizing the service's aging assets 
are exacerbated by the Coast Guard's unrealistic budget planning for 
out years. Admiral Papp, there are massive differences between the FY14 
acquisition line item in the FY13-17 Capital Investment Plan and this 
year's budget. It appears that the Administration made lopsided and 
undeserved cuts to Coast Guard acquisitions. These cuts appear to be 
ill-advised and risky. How will these very substantial budget cuts 
impact the future of the Service?
    Answer. The Department and the Coast Guard made decisions by 
looking at past investments and the relative condition of each 
acquisition program along with assessing current operational 
priorities. The FY 2014 Budget fully funds the Coast Guard's highest 
priority needs.

    Question 3. As a way to maximize the NSC's time at sea without 
burdening personnel, the Coast Guard originally intended to implement 
the Crew Rotational Concept (CRC)--a model that assigns ships to crews 
instead of crews to ships--for the NSC. This concept was a way to 
increase cutter utilization and justification for the replacement of 12 
HECs with eight NSCs. How realistic is the Crew Rotational Concept for 
the NSC? Is this the only way to achieve 225 days away from home port 
for the NSC?
    Answer. The Coast Guard is committed to increasing cutter 
utilization through maximum use of our assets. The first two NSCs 
achieved 200 DAFHP in FY 2012, and they are on track to achieve 210 
DAFHP in FY 2013. An average of 210 DAFHP represents the first step 
towards achieving the long-term goal.
    The Coast Guard continues to look at all options to increase cutter 
utilization and effectiveness and is committed to achieving 230 DAFHP.

    Question 4. The President's Budget proposed a sizable reduction to 
the Reserve workforce--given the disasters to which they have helped 
the Coast Guard respond to over the past decade (e.g., Hurricane Sandy, 
Deepwater Horizon, Haiti Earthquake, and Hurricane). Admiral Papp, 
given the fact this budget proposes a sizable reduction to the Coast 
Guard's Reserve workforce (decrease of 1050 positions), what will this 
do to the Reserve force's ability to respond to future events? How will 
this impact the Coast Guard if another major natural or manmade 
disaster strikes?
    Answer. The Coast Guard Reserve workforce will remain ready to 
respond to both natural disasters and terrorist threats.

    Question 5. The Fast Response Cutter (FRC) is a new Coast Guard 
patrol boat that replaces the aging fleet of 110-foot patrol boats. The 
FRC acquisition is critical to the Coast Guard's ability to conduct 
missions in the coastal environment. The current patrol boat gap 
hinders the Coast Guard's ability to successfully and efficiently 
complete all potential missions, and this key FRC acquisition will help 
address these identified needs. The FY 2014 budget provides funding to 
procure only two FRCs. However, under the current contract, the minimum 
production order remains four FRCs resulting in a higher acquisition 
cost. What are the fiscal and operational impacts associated with 
acquiring two FRCs per year as proposed in this year's budget versus 
six FRCs as proposed in last year's projections for FY14? How much more 
will it cost to purchase the FRC as a result of not procuring the 
minimum number of ships stipulated in the contract?
    Answer. The FY 2014 Request supports the Coast Guard's highest 
priority recapitalization needs and maintains funding for critical 
frontline personnel. Notwithstanding sequestration, the Coast Guard 
received sufficient funding in the FY 2013 appropriation to award a 
contract for 4 FRCs in FY 2013 and, when combined with the FY 2014 
Request, award a contract for another 4 in FY 2014. The base order 
under the current contract is 4 FRCs per year.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                      Admiral Robert J. Papp, Jr.
    Question 1. In recent years, the Coast Guard has proven its 
exceptional ability to be responsive during critical missions, most 
recently during Superstorm Sandy. Even as the Coast Guard is taking on 
more missions, its fleet of ships, aircraft, and small boats is aging. 
The FY 2014 budget proposes a reduction of $619 million for the Coast 
Guard's discretionary funding. Will this limit the Coast Guard's 
ability to respond to emergency situations or homeland security 
threats, especially in the New York-New Jersey region, which includes a 
two-mile stretch that the FBI considers the most at-risk area for 
terrorism?
    Answer. The Coast Guard is part of the New York/New Jersey 
community, and in the Port of New York/New Jersey, the Coast Guard 
works across government and industry to counter the most emergent 
threats, mitigate risks, and keep the maritime domain safe and secure.
    The FY 2014 budget sustains the most critical front-line operations 
while funding our most critical acquisition projects. The Coast Guard 
will make best use of its resources to safely and effectively conduct 
operations in the areas of greatest risk to the nation, while 
recapitalizing our cutters, boats and aircraft to address current and 
emerging threats, particularly in the offshore environment. The Coast 
Guard will continue to quickly respond to emergency situations and 
homeland security threats that include the New York-New Jersey region.

    Question 2. According to the Navy and Coast Guard, the U.S. 
intercepts just one-third of the drug shipments and other illegal 
traffic that it knows about because they lack the assets to intercept 
most of the boats and aircraft that intelligence identifies. At an 
April 16, 2013 House Homeland Security Committee hearing, you said the 
Coast Guard will need to reduce its drug interdiction role as a result 
of budget cuts. If the Coast Guard's funding in FY 2014 is reduced, 
what will be the impact on the U.S.'s ability to prevent drugs from 
entering the country?
    Answer. Coast Guard operational commanders allocate resources to 
address the highest threats and operational priorities. The FY 2014 
budget submission will provide the Coast Guard with funding for the 7th 
National Security Cutter and two more Fast Response Cutters. These new 
assets, coupled with robust interagency and international coordination 
will enable the United States and partner nations to best mitigate 
threats throughout the maritime domain.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Warner to 
                      Admiral Robert J. Papp, Jr.
    Question. Admiral Papp, I understand that the Coast Guard has 
called into question a 2008 Outer Continental Shelf Lands Act (OCSLA) 
activity determination regarding maintenance service to the ``BP-GOM'' 
undersea cable system in the Gulf of Mexico. This has created 
uncertainty with regard to servicing the system as well as other 
commercial problems for U.S.-based servicers of undersea cable 
communications systems. Will the Coast Guard re-affirm the 2008 OCSLA 
policy? If so, when do you expect a decision to be made? Would you 
commit to working with me to ensure that this issue is resolved 
promptly so that marine services commitments of U.S. operators can be 
met?
    Answer. The Coast Guard made a final determination on July 22, 2013 
regarding an individual company's request for determination of OCSLA 
activity. The same company had previously requested a determination in 
2008, however, the current request had a much more expansive and 
prospective scope of work. After careful consideration, the Coast Guard 
determined the proposed activity was fully within the regulatory 
definition of Outer Continental Shelf Activity and therefore, unless an 
exemption is granted, must comply with OCSLA regulations.
    This determination does not preclude repairing or maintaining the 
undersea cable communications systems in question. The Coast Guard 
remains available to discuss the resolution of this issue.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                      Admiral Robert J. Papp, Jr.
    Question. Admiral Papp, I wanted to get your thoughts on the issue 
of dredging. Ports and harbors are critical to my state, providing an 
important link to move commodities and goods to market. The Port of 
Duluth, part of the Great Lakes navigation system, handles an average 
of 40 million short tons of cargo and nearly 1,000 vessel visits each 
year. Since 1997, the ending balance of the Harbor Maintenance Trust 
Fund has exceeded yearly collections and as a result there is a 
significant backlog of dredging projects. Vessels have to light-load 
leading to millions of dollars in losses, freighters are getting stuck 
in channels, and harbors are closing or being threatened with closure. 
The Senate may soon consider legislation to require that all revenues 
and interest the Trust Fund collects in one year be spent on harbor 
maintenance and operations, primarily dredging. I support the ability 
of the Army Corps to prioritize navigation projects funded with 
appropriations from the Trust Fund based on the need to maintain the 
authorized width and depth of those projects. How do you work with the 
Corps on harbor and port issues? Particularly how do dredging and other 
projects impact operations in the Great Lakes?
    Answer. The U.S. Coast Guard partners with the U.S. Army Corps of 
Engineers (USACE) to ensure safety and efficient port operations. One 
aspect of this partnership is a Memorandum of Understanding outlining 
our cooperative responsibilities with respect to navigation improvement 
projects. Early and effective communication between the Coast Guard and 
USACE during planning, preconstruction engineering and design, and 
construction phases of navigation improvement projects enables the 
Coast Guard aids to navigation managers to temporarily or permanently 
move aids to navigation to accommodate the safe transit of vessels. If 
needed, the Coast Guard communicates where and when dredging operations 
are occurring, as well as any temporary measures in place to facilitate 
navigation for waterway users.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                      Admiral Robert J. Papp, Jr.
    Question 1. SouthCom Commander, General Kelly, recently testified 
before the Armed Services Committee about the effects sequestration 
will have on our ability to conduct effective drug trafficking 
interdiction. In his testimony he touched on how the Coast Guard must 
curtail air and surface operations. Seizing 107 metric tons of cocaine 
and 56 metric tons of marijuana is no easy task and it doesn't happen 
by chance. Interagency cooperation and coordination, and the ability to 
be present, is paramount. Presence is an effective deterrent and I fear 
that with our inability to get our fiscal house in order, our declining 
presence removes one of the most effective tools. Can you talk about 
the real dangers we will face as a nation if sequestration is not 
reversed, as well as the set-backs in intelligence and interagency 
cooperation that will be degraded?
    Answer. It is difficult to make a prediction based on one quarter 
of data. Several factors beyond interdiction rates (e.g., increased 
border security, trends in cocaine demand) complicate the picture.
    In general, the current Interdiction Continuum, involving 
cooperation across the interagency and with partner nations, is a cycle 
of seizures and subsequent prosecutions that produce new intelligence 
and advanced investigations into major trafficking organizations. This 
leads to more actionable intelligence on future events, producing 
follow-on seizures. If drug seizures significantly decline for any 
reason, then prosecutions and investigations can stall, resulting in 
fewer cases with intelligence that can be exploited for future tactical 
success.
    We have not yet detected any significant change in Transnational 
Criminal Organization (TCO) smuggling patterns; however, past 
experience suggests that TCOs will adapt their routes and modus 
operandi based on their perception of law enforcement operations and 
the path of least resistance.

    Question 2. The Coast Guard's presence is also hinged on its air 
and surface fleets. In your testimony you spoke of the great strides in 
recapitalizing the aging fleet, in particular the H-60 conversion 
project. Can you give us an update and any slowdowns that have occurred 
as a result of sequestration?
    Answer. As a result of sequestration the Coast Guard has modified 
acquisition spend plans to avoid immediate negative schedule impact but 
has deferred the purchase of some spare parts which may negatively 
impact future asset performance or operational availability.

    Question 3. We know that storms are growing in severity. We also 
know that given our population dense coast lines--especially on the 
east coast--the damage caused by these storms is growing in cost. It is 
during these storms that the Coast Guard is at the tip of the spear. 
Admiral Papp, can you outline the growing operations costs that are 
being shouldered in the Coast Guards budget as a result of these storms 
or are those funds offset by disaster relief funds?
    Answer. Coast Guard Operational Commander's utilize all available 
resources to safeguard life and property during and after natural 
disasters. The multimission capability of assets and people enable 
Coast Guard to surge resources within budget for smaller events and for 
short periods during major. Some recent responses include the Haiti 
Earthquake, flooding in the central United States, and Hurricane Sandy. 
While initial response costs are funded from within the Coast Guard 
base budget, costs for major events are typically replenished with 
disaster relief funds or supplemental appropriations.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Brian Schatz to 
                      Admiral Robert J. Papp, Jr.
    Question. Through its eleven statutory missions, the U.S. Coast 
Guard provides invaluable service to the Nation, and in particular to 
the State of Hawaii. Hawaii's maritime domain is the lifeblood of the 
State, supporting every major sector of the economy. As a result, we 
rely on the Coast Guard not only to support marine safety and search 
and rescue, but also fisheries enforcement and broader marine 
environmental protection that are essential to protecting the State's 
economy. Of course, the current budget environment will put added 
pressure on the Coast Guard to prioritize those eleven statutory 
missions, and could put at risk important missions like fisheries 
enforcement and marine environmental protection. Could you please 
explain to the Committee how the Coast Guard will continue to support 
its eleven statutory missions in the face of budget uncertainty and 
increasing fiscal pressure, particularly missions related to fisheries 
enforcement and marine environmental protection?
    Answer. Coast Guard operations are scalable due to the multimission 
capability of our assets and the risk-based approach applied to 
deploying those assets. The FY 2014 Budget sustains the most critical 
frontline operations for our core missions that include maintaining 
search and rescue coverage, protecting critical infrastructure and key 
resources, supporting safe navigation, safeguarding natural resources, 
protecting the environment, detecting and interdicting drugs and 
individuals attempting to enter the United States illegally, and 
supporting homeland security objectives.
    Coast Guard Area, District, and Sector Operational Commanders 
retain the authority to direct resources to address their greatest risk 
mission areas, including fisheries enforcement and marine environmental 
protection.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                       to Kathryn Sullivan, Ph.D.
MSA Reauthorization
    This Committee will soon begin to delve into the reauthorization of 
the Magnuson-Stevens Fishery Conservation and Management Act. With the 
last reauthorization of the Act in 2006, Congress authorized amounts to 
be appropriated for seven fiscal years, ending with $396,875,000 
authorized to be appropriated for Fiscal Year 2013.

    Question 1. Roughly how much (in dollars) of your Fiscal Year 2014 
budget request is intended to be used to carry out the provisions of 
the Magnuson-Stevens Act?
    Answer. In the FY 2014 President's Budget, NOAA requested $509.4 
million to implement and enforce provisions of the Magnuson-Stevens 
Fishery Conservation and Management Act. This figure is displayed on 
page 171 of the Department of Commerce Budget in Brief.

    Question 2. What would you recommend Congress authorize to be 
appropriated in order to carry out the provisions of the Act in each of 
Fiscal Years 2014 through 2020?
    Answer. In the FY 2014 President's Budget, NOAA requested $509.4 
million to implement and enforce provisions of the Magnuson-Stevens 
Fishery Conservation and Management Act. In the long-term planning for 
future years, NMFS is focused on continuing progress toward 
implementing successful strategies for sustainable fisheries and 
fishing communities. NMFS approaches these mandates with goals of 
focusing limited resources to maximize national benefit, working 
closely with our partners, making strategic choices and identifying 
critical factors to measure success. NMFS has successfully carried out 
the mandates of the 2006 Magnuson-Stevens Act Reauthorization, but 
there still remain significant gaps in realizing our long-term goals 
economically and ecologically. Building on NMFS' current progress still 
requires enhancement of our scientific understanding of stock status, 
fisheries data and ecosystem health. This increase in data can help 
support a more robust understanding of environmental, social and 
economic drivers to inform regulatory choices and enhance access to 
healthy stocks. Combining these needs with increased efforts to 
simplify regulations for fishermen, efficiency and compliance should 
also help fishermen and coastal communities realize the benefits of 
rebuilt stocks and sustainable fisheries, such as making it easier and 
more efficient for them to access healthy stocks. NOAA revisits the 
funding needs each year in achieving these goals to maximize the 
potential return in the most efficient way possible.
Electronic Monitoring
    As we face mounting budget constraints in all areas of the Federal 
Government, one means of dealing with them is through improved 
efficiencies. Historically, as our economy and society have matured, a 
key to our continued economic vitality has been technological 
innovation. Outward shifts in our technology curve--resulting, for 
example, from such innovations as the personal computer, the Internet, 
and smart phones--allow us to remain economically competitive because 
of the improved efficiencies they bring with them. In the area of 
fishery management, a clear outward shift in our technology curve that 
can help the National Marine Fisheries Service realize significant 
savings in its fishery observer work is electronic monitoring. Congress 
sought to facilitate the incorporation of electronic monitoring into 
Federal fishery management as a part of the last reauthorization of the 
Magnuson-Stevens Act in 2006. There have been at least two dozen 
electronic monitoring pilot programs around the country to-date, but we 
hear from fishermen that NMFS has been slow to embrace it, or is even 
resisting its adoption, on a broader scale. Meanwhile, other countries 
such as Canada already have successfully incorporated electronic 
monitoring as a complement to observers in fisheries such as the 
British Columbia ground fish fishery.

    Question 3. Do you agree that electronic monitoring can help NMFS 
and fishermen realize improved efficiencies and significant savings in 
observer coverage?
    Answer. Electronic technologies, including electronic reporting 
(ER) and electronic monitoring (EM), have been implemented in a number 
of U.S. fisheries to improve timeliness and accuracy of data reporting 
and create more efficient data collection programs. NOAA supports the 
integration of EM into the Observer Program and is working with the 
Regional Fishery Management Councils (Councils) and the fishing 
industry towards this goal. NMFS continues to pursue opportunities to 
implement electronic technology solutions where they make sense and are 
cost-effective. One important element to which NOAA is paying close 
attention is ensuring that EM is in fact a cheaper alternative to human 
observers because in some cases it is not. Costs associated with EM 
implementation are uncertain and vary depending on the overall 
monitoring system design, the complexity of equipment installation and 
maintenance, requirements for reviewing video records, and 
infrastructure required to collect, process, manage and analyze 
resulting data. While EM-based solutions are perceived to be more cost-
effective than conventional approaches to collect data on full catch, 
this perception has not yet been validated by NOAA. The agency remains 
fully committed to supporting observer programs nationwide while 
developing and implementing EM, and NMFS is currently considering how 
to complement the biological data human observers currently collect.
    NMFS has initiated an aggressive approach to move forward with the 
use of ER and EM, advancing from pilot programs to implementation where 
the technology can meet the monitoring needs of the fishery. NMFS will 
work with the Councils to develop regional implementation plans for ER/
EM by the end of 2014. In many cases, implementation of these 
technologies will require regulatory changes and possibly other changes 
to operations (e.g., catch handling) that NMFS will work in partnership 
with the Councils and industry to address. These efforts are intended 
to improve the efficiency of data collection programs while still 
capturing the key data needed for management and stock assessments.

    Question 4. What impediments, if any, are preventing incorporation 
of electronic monitoring into fishery management plans on a broader 
basis?
    Answer. Electronic monitoring (EM) has the potential to be used for 
multiple purposes within fisheries management. Currently, in U.S. 
fisheries, EM has been implemented in three fisheries to monitor 
compliance, ensuring that weights are properly recorded, and catch is 
not sorted or certain species discarded before they have been counted. 
NMFS agrees that electronic monitoring has the potential to be a 
helpful tool and continues to work with the Councils and industry to 
address these identified challenges.
    At the present time, electronic monitoring does not provide the 
fishery data equivalent to that collected by observers. Thus, it may be 
necessary to change the way in which a fishery is managed if electronic 
monitoring is to be implemented. There are also some remaining 
technical issues, including the difficulty of collecting biological 
information, difficulty in species identification, system reliability, 
and susceptibility to tampering, all of which have the potential to 
negatively impact stock assessments and management flexibility. Cost 
also remains an issue. NMFS will be working to better quantify the 
costs associated with various EM models and evaluating the cost-benefit 
analysis for both industry and NMFS.
Improving Hurricane Forecasting and Prediction
    Hurricane Sandy provides a sobering reminder of the importance of 
improving our ability to forecast severe weather events, in order to 
reduce risks to human life and property. I believe that that we should 
harness the use of innovative technologies to improve hurricane 
intensity monitoring and forecasting. Improved hurricane intensity data 
transmitted in real time could vastly improve NOAA's ability to 
understand, monitor, model, and predict extreme weather events in the 
future.

    Question 5. Would improved hurricane intensity forecasting and 
monitoring capabilities allow us to make better judgments on 
evacuations and also more wisely deploy resources for post-storm 
response? Could this lead to cost efficiencies?
    Answer. Yes, improved hurricane intensity forecasts would result in 
longer lead times, better warning precision, and higher confidence in 
forecasts. This would allow for significant evacuation cost 
efficiencies and reductions as well as reduced economic impacts, such 
as advanced preparation activities.
    The Nation's vulnerability to tropical storms and hurricanes is 
rapidly increasing due to higher population density and economic 
activity along the coast. The 2010 study, ``State of Knowledge of 
Economic Value of Current and Improved Hurricane Forecasts,'' by Daniel 
Sutter of University of Texas and Bradley Ewing of Texas Tech 
University, funded by NWS' Hurricane Forecast Improvement Project 
(HFIP), provides examples of how improved hurricane intensity forecast 
would result in reduced evacuation costs. For example, in 1995 when 
Hurricane Opal was forecast to strengthen (intensify) to category 3 
prior to striking Pensacola, Florida, evacuations occurred 12 hours 
before landfall. Analysis indicates that a longer lead time evacuation 
of 24 hours would have reduced costs by 80 percent or $15 million for 
50,000 coastal households.
    While the aforementioned warning precision will lead to cost 
savings, the impact of a reduced evacuation area varies depending on 
county preparation costs, population densities, and infrastructure. For 
example, coastal population densities vary widely, from over 3,200 
persons per square mile in Pinellas County, Florida to only 0.25 in 
Kenedy County, Texas. The decision-making criteria used for hurricane 
response by emergency managers and community decision makers needs to 
be examined on a community by community basis.

    Question 6. Are there inter-agency agreements NOAA could consider 
to capitalize on new innovative technologies that could improve our 
capacity to predict and monitor storm pathway and intensity?
    Answer. Through HFIP, NOAA has entered into agreements with the 
United States Navy, National Science Foundation, and the National 
Center for Atmospheric Research (NCAR) to cooperate on hurricane track 
and intensity forecast error reduction. Additionally, universities and 
the National Aeronautics and Space Administration (NASA) partner in 
these efforts. The NASA collaboration focuses on using the innovative 
Global Hawk aircraft to monitor hurricanes. These collaborations 
focused on solving major technical challenges and have proven 
instrumental in advancing NWS' hurricane prediction capability.
    These multi-agency collaborations, facilitated by HFIP, have 
resulted in the following operational upgrades:

  <bullet> In 2012, HFIP contributed in part to NWS' global data 
        assimilation system, which ingests global environmental data 
        for use in computer-based numerical weather prediction (NWP) 
        models.

  <bullet> HFIP provides annual upgrades to the Hurricane Weather 
        Research and Forecasting Model (H-WRF) resulting in track and 
        intensity forecast skill improvements over the previous 
        operational model performance. In a research demonstration, the 
        most recent H-WRF upgrade was shown to have a 20-25 percent 
        improvement in track.

    Question 7. To what extent is NOAA working to conduct sea-surface 
observations inside of hurricanes?
    Answer. NOAA takes sea surface observations inside a hurricane from 
satellites, dropsondes, and aircrafts. These data platforms collect 
information including wave height, wind speed, turbidity, air pressure, 
surface current strength and direction, and sea surface height, which 
complement NOAA's atmospheric observations to help NOAA understand what 
is happening, and what will happen, during a hurricane.
    From polar-orbiting operational satellites, NOAA takes Sea Surface 
Temperature (SST) and sea surface height measurements that are used to 
calculate Ocean Heat Content (OHC). By combining SST and sea surface 
height measurements and ingesting them in Numerical Weather Prediction 
(NWP) models, NOAA is able to determine the probability of hurricanes 
gathering energy as it passes over warm water.
    NOAA obtains oceanic observations directly from the hurricane 
environment by utilizing aircraft that deploy dropsondes and ocean 
probes directly within the hurricane providing vertical profiles of 
temperature (including SST), salinity and current within the upper 
ocean. These upper ocean measurements are the most effective way to 
observe the changes in SST and OHC directly in the storm and to 
calibrate and validate the satellite derived OHC estimates. These 
aircraft also carry sophisticated remote sensing instruments that can 
provide direct estimates of surface wind speed within a hurricane that 
are relayed to forecasters and can be used to calibrate satellite 
sensors. Additionally, NOAA ships and buoys measure SSTs outside of the 
hurricane that are used to calculate OHC and ingested in NWP models.
    The National Hurricane Center does not have an operational 
requirement for additional oceanic measurements in hurricanes at this 
time. However, NOAA believes improvements in ocean modeling and the use 
of ocean data is critical for improving hurricane forecasting. The 
research community is continuing to investigate the value of additional 
ocean observations for hurricane forecasts.

    Question 8. NOAA is prioritizing funding for modeling efforts 
towards Global Earth Models being developed in the Environmental 
Research Laboratory in Boulder, CO. Is it accurate to say this largely 
differs from the intent of the supplemental funding provided for 
hurricane research?
    Answer. Although the increase in funding for models requested in FY 
2014 and the supplemental funding will enhance our predictive 
capability in the future, the FY 2014 request focuses on filling gaps 
in our current climate models, while the supplemental funding will 
focus on short-term severe weather events.
    For FY 2014, NOAA requests a $7 million increase, as part of OAR's 
Climate Competitive Research Program, Project and Activity (PPA), to 
continue development and use of Earth System Models to address climate 
issues that occur over years to decades. This funding will support 
research to reduce uncertainties in sea-level rise projections, employ 
more realistic model treatment of terrestrial biosphere, create a new 
modeling framework for Arctic climate change, support evaluation of 
decadal climate prediction models, and assess the predictability of 
high-impact climate extremes such as heat waves and flooding.
    The FY 2013 supplemental funding is a one-time appropriation for 
NOAA ``to improve weather forecasting and hurricane intensity 
forecasting capabilities . . .,'' and, ``for laboratories and 
cooperative institutes research activities associated with sustained 
observations weather research programs, and ocean and coastal research 
. . .'' The appropriation provides, in part, funding for research in 
atmospheric and ocean observations in NOAA's laboratories and 
cooperative institutes, which will quickly and greatly improve NOAA's 
forecasting of dangerous storms, such as Hurricane Sandy. A number of 
current activities in OAR's laboratories and cooperative institutes 
that can advance weather prediction capabilities will be accelerated 
and made available many years earlier than otherwise possible. These 
actions will significantly increase the lead time and accuracy of 
predictions of hurricanes, tornado outbreaks, and severe winter storms. 
This will allow more time for the public to better prepare for these 
devastating storms, which in turn saves lives and more effectively 
protects property.
    Included within this supplemental appropriation NOAA will fund 
improvements to, and research on, model forecasting to achieve the next 
generation global atmospheric and oceanic modeling system. This 
research will advance and evaluate a new generation of assimilation and 
forecast models under the auspices of the inter-agency Earth System 
Prediction Capability, which will offer improved prediction of severe 
weather, such as hurricanes, tornado outbreaks, and winter storms. In 
addition, NOAA will be evaluating the ability of the models to make 
skillful extended weather predictions for the period from about two 
weeks to several months out from a severe storm event.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                        Kathryn Sullivan, Ph.D.
Keeping Satellites On Track: GOES-R
    Requested increases in acquisition funding for FY 2014 would 
primarily support Geostationary Operational Environmental Satellite R-
Series (GOES-R) launch readiness for the first quarter of FY 2016. 
Approximately $954.8 million is requested for the GOES-R system. 
However, GOES-R satellite funds from the FY 2013 Continuing Resolution 
were for $618.9 million, as opposed to the $802.0 million requested. 
This funding deficit has increased uncertainty in the program's ability 
to meet its next launch date.

    Question 1. Dr. Sullivan, at a hearing last week, you indicated 
that NOAA's next-generation polar-orbiting satellite program, JPSS, 
once plagued by cost overruns, is finally running within a revised 
budget, and its launch date has stabilized. This is great news. Today, 
however, I am concerned about the acquisition program for another 
satellite, GOES-R. It's my understanding that funding deficits for 
GOES-R have injected significant uncertainty into the program and it 
now faces significant risk of suffering slippage to its launch date. 
How significant is the risk?
    Answer. The GOES-R program was impacted by the enacted FY 2013 
appropriations bill via sequestration and rescission. NOAA's FY 2013 
Spend Plan proposed a $54 million reduction below the President's 
Budget request of $802 million to accommodate these cuts. As a result 
of the reduction, the program has severely reduced FY 2013 budget 
reserves to zero percent, delayed FY 2013 work to FY 2014, and delayed 
planned work for FY 2014 into FY 2015. While the GOES-R team continues 
to work towards a first quarter of FY 2016 launch readiness date, the 
program currently estimates delays of a minimum of three months for 
both the GOES-R and GOES-S launches.
    If the GOES-R Series Program does not receive the full $954.8 
million as requested in the President's FY 2014 Budget request, this 
would likely necessitate another re-planning of the space segment, 
ground segment, and launch activities. This would likely result in 
additional delays and cost growth, depending on the amount 
appropriated. Any additional delays could likely result in a gap in 
availability of an on-orbit GOES backup satellite in FY 2016.
    In order to minimize the schedule delays for GOES-R and -S, and to 
minimize life cycle cost growth, full funding of the FY 2014 request of 
$954.8 million is necessary.

    Question 2. Is there a change of a data gap similar to what we may 
face with our polar-orbing satellites?
    Answer. There are currently two operational GOES satellites, GOES-
East and GOES-West, and one satellite in on-orbit storage (GOES-14). 
The current plan is to launch GOES-R and after post-launch checkout and 
calibration/validation, place it into the on-orbit storage position 
where the satellite can be moved into operations within days if the 
primary operational satellite malfunctions. By having a fully 
functional on-orbit spare (currently GOES-14), NOAA can quickly address 
anomalies with existing operational satellites should they occur.
    Our initial assessment for the schedule impact of the sequestration 
and rescission reductions is a minimum 3 month delay to the GOES-R and 
-S launch readiness dates. This would move the GOES-R launch readiness 
date from the first quarter of FY 2016 to the second quarter of FY 
2016, while the GOES-S launch readiness date would move from the second 
quarter of FY 2017 to the third quarter of FY 2017.
    The importance of having the on-orbit spare satellite in storage 
was demonstrated in October of 2012, the second time in less than a 
year, when the GOES-13 spacecraft (GOES-East) had to be taken out of 
service due to technical issues with motor vibration that caused a 
lubricant buildup and impacted the sounder instrument. NOAA immediately 
configured GOES-15 (GOES-West) to provide additional coverage of the 
eastern United States and part of the Atlantic Ocean and within a few 
hours, NOAA activated its on-orbit spare satellite, GOES-14, to cover 
East Coast observation. NOAA then began moving GOES-14 towards the 
position where GOES-13 was situated. Once the issue was resolved by the 
team of engineers from NOAA, Boeing and ITT, NOAA returned the GOES-14 
to its earlier status as the on-orbit spare. GOES-13 has covered the 
U.S. East Coast since April 14, 2010. Without the on-orbit spare, NOAA 
would have had limited coverage to monitor hurricanes and other severe 
weather conditions.

    Question 3. What options do we have to bolster confidence in the 
GOES-R schedule and program?
    Answer. The most important option to bolster confidence in the 
GOES-R Series Program is to provide the program with budget stability, 
including adhering to the planned outyear profile laid out in the FY 
2014 Budget request. This will allow the program to stay within its 
cost, schedule, and performance baselines. It is critical that the 
GOES-R Series Program maintain its development schedule to ensure that 
the GOES-R satellite is ready for launch by FY 2016 so that NOAA can 
maintain its operational configuration of having two operational GOES 
spacecraft (GOES-East and GOES-West) and an on-orbit spare. This 
includes fully funding the FY 2014 budget request, and ensuring that 
the future budget requests as outlined in the President's Budget are 
appropriated.
    Despite the funding constraints from the FY 2013 rescission, the 
program has maintained close scrutiny of the development of the GOES-R 
Series Program to minimize any additional impacts to the program's 
mission success.
Independent Cost Estimates for Polar Satellites (JPSS)
    I commend NOAA for convening an Independent Review Team to review 
your satellite programs. One of the IRT's key recommendations was for 
there to be an independent cost estimate for JPSS. To quote their 
report:

        ``A common question is why JPSS cost so much . . . Considerable 
        attention was given to this question during the review, with a 
        total lack of success in achieving an understanding as to the 
        answer.''

    Question 4. Has NOAA gotten an independent cost estimate yet for 
JPSS yet? If not, why not?
    Answer. Yes. The independent cost estimate for the JPSS Program in 
support of the President's FY 2014 Budget request was completed in 
April 2013. NOAA officials stand ready to brief the Senate Commerce 
Committee Members and staff. The results were briefed to Appropriations 
Committee staff on May 16, 2013, during the Quarterly Appropriations 
meeting.
Ongoing Challenges as National Weather Service
    Last year it became public knowledge that mismanagement at various 
levels within the agency and department resulted in an illegal 
reprogramming of appropriated funding to shore up gaps in National 
Weather Service basic service operations, transferring funding from 
accounts intended to pay for forecasting equipment to cover accounts 
needed for day-to-day weather operations. Following this revelation, 
Congress provided the NWS with reprogramming authority for $36 million 
of its budget to stave off looming furloughs and layoffs that would 
have impacted 5,000 weather service employees. NOAA and the Department 
of Commerce have since initiated a number of management and accounting 
controls at the National Weather Service yet, difficulties continue. In 
the wake of the Sequester, NOAA announced on April 15 it would be 
forced furlough employees across the agency, including at the NWS, in 
order to address budget shortfalls, and has indicated that it will 
likely soon need to request an additional reprogramming of the NWS' 
operations budget for FY 2013 to shore up budget shortfalls in employee 
salaries.

    Question 5. It is my understanding that NOAA will need another 
reprogramming of appropriations to cover the costs of basic operations 
for the National Weather Service. Why does this issue keep cropping up? 
How do we solve this problem?
    Answer. The FY 2012 Reprogramming for NWS was a one-time 
reprogramming of funding that occurred after the NOAA FY 2012 and FY 
2013 Budget Requests were submitted. The FY 2013 spend plan was first 
based on a continuing resolution and then subject to a sequester. 
Sequestration required NOAA to make significant cuts to the budget for 
the remainder of this fiscal year. There were tough decisions and 
choices, but all of those decisions were aimed at mitigating effects on 
critical missions and services, and employees. NOAA has implemented a 
hiring freeze, limited travel and training, and cut grant and contract 
funding. The Approved FY 2013 spend plan avoids all furloughs in NOAA. 
This was possible because of the flexibility to reprogram funds within 
NWS and across NOAA.
    As directed by Congress in the FY 2013 Omnibus, NWS is determining 
what it takes to operate the NWS, including staffing levels and the 
optimal mix of positions. The FY 2014 President's Budget requests 
funding to address NWS staffing needs to maintain the current level of 
services and ongoing operations. In addition, The NWS Assistant 
Administrator, Dr. Louis W. Uccellini, has initiated a new process to 
ensure the effective execution of funds in 2014 with the objective of 
improving performance and accountability.

    Question 6. How would an additional reprogramming affect other 
funding priorities and projects at the National Weather Service, in 
addition to those in other line offices?
    Answer. NOAA's goal for the FY 2013 reprogramming request is to 
ensure critical NOAA functions are appropriately funded and negative 
impacts to operations are minimized. In preparing for the impacts of 
the reductions necessitated by the final Appropriation amounts, NOAA 
offices reviewed and analyzed current operations and implemented 
substantial reductions to operations across NOAA. The reductions 
included, but were not limited to, major reductions to contracts for 
products and services in all areas of NOAA operations, significant 
reductions to grants and cooperative institutes, reductions to 
Information Technology security, travel and conferences, training, as 
well as reductions to financial system operations and education 
programs. NOAA also took reductions for analytical work and assessments 
that support the Seafood Inspection Program, reductions to research and 
observing programs, reductions to visitor center hours, reductions to 
spill response training and facilitation activities, reductions to 
Hurricane Forecast Improvement Program models and data assimilation 
program development, reductions to the high performance computing and 
Advanced Weather Interactive Processing System (AWIPS II) initiatives, 
reductions to the operational support for deployed satellites, 
reductions to the number of days at sea and flight hours, deferred 
maintenance of operational and scientific equipment, and for protected 
species stock assessments. These program reductions are significant; 
however, NOAA preserved its core mission capability by maintaining 
funding for programs at a level that allows individual programs to meet 
core requirements.

    Question 7. Before an agency-wide four day furlough was proposed, 
the Weather Service was facing a potential 10 day furlough to shore up 
its budget. To what degree are Weather Service woes taking down the 
agency's other line offices and missions?
    Answer. FY 2013 funding levels affected all line offices and NOAA 
took an enterprise approach to ensure critical functions were 
appropriately funded with minimum impacts to NOAA's mission. NOAA 
considered every option possible to manage and balance resources for 
each Line Office. NOAA will continue to prioritize our most critical 
missions and essential operations.
Magnuson-Stevens National Standard 1 Revisions
    On May 3, 2012, NOAA announced an advance notice of proposed 
rulemaking and requested comments on potential adjustments to existing 
administrative guidelines for National Standard 1 under section 301(a) 
of the Magnuson-Stevens Act. National Standard 1 requires Federal 
fishery management plans to prevent overfishing while achieving, on a 
continuing basis, optimum yield for the United States fishing industry. 
The notice solicited comments on 11 different major aspects of the 
National Standard 1 Guidelines, and it comes just at a time when 
Congress is due to take up reauthorization of Magnuson-Stevens and 
other important domestic fisheries laws.

    Question 8. Is this the right time to be thinking about a 
potentially broad revision to the National Standard 1 Guidelines, given 
that Congress is likely to make at least some changes to the underlying 
statute on which they are based?
    Answer. NMFS feels that it is appropriate to consider revisions to 
the National Standard 1 guidelines, and that the effort would be 
complementary to considering changes to the Magnuson-Stevens Act. From 
2007 to 2012, the 46 Federal Fishery Management Plans have been amended 
to implement annual catch limits and accountability measures to end and 
prevent overfishing. This has been a transformative process for Federal 
fisheries, and during the course of implementation a number of issues 
have been identified that may warrant revision of the National Standard 
1 guidelines. NMFS published an Advanced Notice of Proposed Rulemaking 
in the Federal Register on May 3, 2012, to request public comment on 
potential adjustments to the National Standard 1 guidelines. The 
comments (all of which are publicly available at regulations.gov) 
reflect the diversity of U.S. fisheries and the need for flexibility in 
any guidelines developed. NMFS is currently reviewing the comments and 
considering various approaches to address some of the issues raised. It 
is anticipated that some issues could be addressed through revisions to 
the National Standard 1 guidelines, whereas others could be addressed 
through technical guidance, policy directives, or Magnuson-Stevens Act 
reauthorization. Any revisions to the National Standard 1 guidelines 
will be made through a long-term rulemaking process. NMFS plans to 
engage the regional Fishery Management Councils, members of Congress, 
commercial and recreational fishing groups, NGOs, and the public before 
publishing a proposed rule.

    Question 9. The comment period for the advance notice of proposed 
rulemaking on National Standard 1 Guidelines closed on October 12, 
2012. Will the action NOAA ultimately takes be able to incorporate some 
of the subsequent thinking that has occurred or will occur in the near 
future--such as at the Managing Our Nation's Fisheries conference in 
early May, or growing out of congressional hearings on issues related 
to MSA?
    Answer. NMFS is currently reviewing the comments received on the 
Advanced Notice of Proposed Rulemaking, and engaging with the public in 
various venues, including the Managing Our Nation's Fisheries 3 
conference held May 7-9, 2013. NOAA is reviewing this information, as 
well as information stemming from Congressional hearings related to the 
Magnuson-Stevens Act, and considering various approaches to address 
some of the issues raised. Any action that NMFS takes regarding 
National Standard 1 will incorporate our past experiences and our plans 
to engage the regional Fishery Management Councils, members of 
Congress, commercial and recreational fishing groups, NGOs, and the 
public before publishing a proposed rule.
NOAA Fleet Sea Days
    Question 10. I'm pleased the administration has listened to my 
recommendations to focus on basic services like fishery surveys and sea 
days for the NOAA fleet--the data they collect are the underpinnings of 
so much of what you do. NOAA plans to increase sea days by 1,600 days, 
for a total of 3,500 days. Can you tell me how this increase in sea 
days will impact agency data-collection efforts? What improvements can 
we expect to see?
    Answer. NOAA has requested an increase of $21 million to support 
additional days at sea (DAS) for fishery, hydrographic and marine 
ecosystems surveys. The final allocation of ship time for FY 2014 will 
be determined by NOAA's Fleet Council using the Prioritization, 
Allocation and Scheduling (PAS) process and will be dependent on final 
appropriations. Each NOAA Line Office (LO) is represented during this 
process and RADM Devany, Director of NOAA's Office of Marine and 
Aviation Operations, serves as Chair of the Fleet Council. NOAA LOs 
each provide a prioritized list of projects for consideration from 
which a NOAA cross-LO prioritized list of projects is developed with 
input from NOAA Leadership. The process ensures NOAA's highest priority 
programs are supported and projects are assigned to assets that provide 
the best value to the Government. Additional ship time will result in 
the expansion of DAS available for currently supported projects and the 
ability to provide DAS for projects that were previously not supported 
by the NOAA Fleet.
    Increased sea time capacity will improve the understanding of 
marine resources and earth systems by expanding the amount of data 
collected and the number of observations made, which will increase 
confidence in NOAA decision making tools. Additional DAS in the NOAA 
Fleet also enhance the agency's ability to meet legislative at sea data 
collection requirements mandated by the Magnuson-Stevens Act, the 
Marine Mammal Protection Act, and the National Marine Sanctuaries Act, 
among others.
    An example of the effect of increased sea time capacity in the NOAA 
Fleet is evident with fisheries observations. NOAA vessels have unique 
technical capabilities that support multidisciplinary research and 
allow for better quality data collection when compared to non-NOAA 
vessels. These capabilities include multi-beam and split-beam sonar 
which allow for better classification of fish by size and sophisticated 
noise reduction technologies that result in fewer fish fleeing the area 
of observation. Better quality and larger quantities of information on 
the size and number of fish through increased DAS on NOAA vessels will 
reduce uncertainty in stock abundance estimates and result in more 
accurate catch quotas, ensuring the most optimal utilization of the 
resource by fisherman now and into the future.
    Other results from increased DAS are the ability to conduct 
additional linear nautical miles of hydrographic surveys and increased 
sea time for in-situ oceanographic and climate observations.

    Question 11. How does Alaska fare in sea days for fisheries 
surveys? I note that Alaska catches more than half of the domestically 
consumed seafood, yet we have only one ship assigned to cover Alaska 
fisheries surveys, while other areas like the Gulf of Mexico have three 
ships. Do we have adequate fishery survey power in Alaska?
    Answer. Presently, one NOAA fishery survey vessel, Oscar Dyson, 
operates full time in Alaska. The Alaska Fisheries Science Center 
(AFSC) also charters commercial fishing vessels to meet its annual 
survey needs. A comprehensive accounting in 2009 showed that Alaska had 
over 800 survey days at sea. For context, the Southeast had the next 
highest days at sea with 657. In 2012, Alaska again had over 800 days 
at sea and the Southeast had over 1,000. Ultimately the need for survey 
power fluctuates. Also, while only one NOAA ship is assigned to Alaska 
waters for fishery surveys, AFSC's charter days more than double those 
of the Southeast Fisheries Science Center (SEFSC), while the SEFSC 
often utilizes more than double the NOAA ship days as the AFSC.
    NOAA is currently completing the NOAA Ship Composition Plan 2012-
2027 in which at sea observation requirements, including those for 
Alaska, are assessed and validated. This Plan will assist NOAA in 
making investment decisions to ensure continued survey coverage in 
Alaska.
NOAA Education Programs Transfer and Consolidation
    As part of a larger initiative across government to restructure 
Federal education programs, the President's budget for NOAA proposes a 
substantial reorganization of NOAA's Office of Education and associated 
programs, as well as the termination of the Knauss Sea Grant Fellowship 
Program and other scholarship programs. Funding from these programs 
would be transferred to the Department of Education, the National 
Science Foundation, and the Smithsonian Institute. While the cuts have 
been messaged as a consolidation or transfer, the administration has 
not outlined with any detail what the new STEM program proposal would 
entail.

    Question 12. What data, indicators, or performance metrics drove 
the formulation of this proposed reorganization of education programs?
    Answer. While individual members of CoSTEM did not provide direct 
input in the initial phases of the EOP-led 2014 Budget formulation 
process and were not privy to what degree data, indicators, or 
performance metrics informed the proposal, efforts were made by EOP to 
factor in program evaluations and existing evidence as part of the 
analysis. In formulating the STEM-education reorganization proposals 
contained in the President's 2014 Budget, CoSTEM's deliberations and 
documents were important inputs to the EOP-led process. The 
Administration also actively sought input from CoSTEM agencies on 
program consolidations, eliminations, and new initiatives through the 
2014 Budget process. Moving forward, evaluation, evidence-building, and 
data use will be integrated into reorganization initiatives.

    Question 13. Last year's budget proposal contained similar cuts to 
NOAA education programs, though they were packaged as straights cuts 
rather than part of a larger restructuring of Federal education 
initiatives. Should we be taking this proposal at face value, or does 
it mean death by another means for these programs?
    Answer. STEM education is a high priority for the President. While 
the 2014 Budget proposes to terminate several NOAA education programs, 
it redirects these resources outside of their current agencies and in 
fact, provides an increase of 6 percent over 2012 for STEM education in 
total. Although these programs would be terminated, the goal of the 
reorganization initiatives is to preserve core functions and goals of 
eliminated programs. The new framework consolidates core functions into 
three lead agencies--the Department of Education (ED) will lead K-12 
Education; the National Science Foundation (NSF) will lead 
undergraduate education and graduate fellowships; and the Smithsonian 
Institution will become a one-stop-shop for materials and resources, 
and lead informal education activities. NOAA and other relevant 
agencies will continue to have input on reorganization initiatives in 
each area. The FY14 President's Budget request also maintains funding 
within NOAA to sustain the Educational Partnership Program (EPP) and 
the Hollings Scholarship program.

    Question 14. Under the America COMPETES Act of 2007, the 
Administrator of NOAA is required to ``develop, support, promote, and 
coordinate formal and informal educational activities at all levels to 
enhance public awareness and understanding of ocean, coastal, Great 
Lakes, and atmospheric science and stewardship by the general public . 
. .'' Dr. Sullivan, how will this proposed reorganization of NOAA 
education programs support those requirements?
    Answer. Under the proposed reorganization, NOAA will continue to 
administer the Educational Partnership Program (EPP) and the Hollings 
Scholarship program. These programs directly support the implementation 
of NOAA's Education Strategic Plan and also contribute towards NOAA's 
America COMPETES Act mandated responsibilities.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                        Kathryn Sullivan, Ph.D.
Consolidation of the Northwest and Southwest Regional Offices
    Question 1. Please provide a detailed assessment of the cost 
savings achieved by the planned consolidation of the Northwest and 
Southwest Regional Offices, including: an explanation of how Full Time 
Equivalents (FTEs) will be eliminated, relocated, or have their 
workloads redistributed, and any programmatic activities, such as 
science or stock assessments, that will be scaled back or eliminated.
    Answer. Currently, we do not have a detailed assessment of the cost 
savings that will be achieved through the consolidation of the 
Northwest and Southwest Regional offices. The numbers provided in the 
FY 2014 budget request were estimates based on a reduction in 
leadership positions and a smaller reduction in staff positions. The 
reduction will be achieved mainly through attrition. For example, NMFS 
has already made initial decisions and transferred the former Southwest 
Regional Administrator into the vacant Director of International 
Fisheries position. In addition, the Northwest Region has three branch 
chief positions that are or will become vacant this year due to 
retirements. Those positions will not be filled and staff who report to 
those positions will be reassigned to balance supervisor-to-staff 
ratios. In all cases, workload will be redistributed as much as 
possible to remaining staff.
    The consolidation is to the Regional offices, not the Science 
centers, therefore it will not impact science or stock assessments. 
However, it may impact programmatic management activities conducted by 
the Regional offices and potentially compound impacts already occurring 
through the recent FY 2012 and FY 2013 reductions of 17.5 percent to 
funding for ESA Pacific Salmon activities. The biggest risk will be to 
pre-consultation interaction with constituents, leading to a reduction 
in the early pre-application efforts at identifying and resolving 
issues which might arise in the permitting process. This could 
potentially lead to increased complexities and timing delays in 
consultation and permitting processes. NMFS is considering this issue 
and how to mitigate potential impacts as it develops the staffing plan.

    Question 2. How will NOAA ensure that stakeholders in each of the 
West Coast states maintain access to top-level decision-makers if some 
of these officials are eliminated or relocated?
    Answer. The new West Coast Region will have senior leadership 
distributed across the states of California, Oregon, Idaho, and 
Washington. Stakeholders will have access to the top-level decision 
makers in their state. Additionally, the Regional Administrator will 
maintain offices and presence in both Seattle and Sacramento and will 
have a presence in all office locations.

    Question 3. What is NOAA's current rate of timeliness in completing 
ESA consultations? How would ESA consultation speed be affected by the 
consolidation? What amount of funding and how many of the FTEs proposed 
for elimination would need to be retained to maintain the current speed 
of ESA consultations?
    Answer. As stated previously, NMFS capability to process Endangered 
Species Act (ESA) consultations has been reduced due to the reductions 
in appropriated funds over the past two years, particularly the 
reductions in the Pacific Salmon line, which has decreased 17.5 percent 
from $65.9 million in 2011 to $54.4 million in 2013. These reductions 
equate to personnel and have already resulted in a decrease in the on-
time consultation rate from an initial performance milestone goal of 55 
percent on time to 50 percent on time. Funding at close to the FY 2011 
enacted level would allow the agency to maintain consultation timing at 
the previous 55 percent target level.
    No positions for staff biologists who conduct Section 7 
consultations are being eliminated due to the consolidation. The new 
West Coast Region will strive to find efficiencies to minimize ESA 
consultation impacts in the process of regulatory permitting that 
result from recent reductions in the enacted budget.

    Question 4. Would the proposed merger affect the number, frequency 
or duration of stock assessments for coastal pelagic species off the 
coast of California? If so, specifically which fisheries would be 
affected? What amount of funding and how many of the FTEs proposed for 
elimination would need to be retained to maintain the current level of 
stock assessments and administrative/management capacities relating to 
coastal pelagic species?
    Answer. Stock assessments on coastal pelagic species would not be 
affected, because they are conducted by scientific staff at NMFS' 
Southwest Fisheries Science Center (SWFSC) in La Jolla, CA. The SWFSC 
is not a part of the consolidation and thus no change in the number or 
frequency of these assessments is anticipated. The administrative/
management capacities and capabilities relating to coastal pelagic 
species are handled out of the Southwest Regional Office in Long Beach. 
Reductions in workforce levels are not expected, so there should be no 
change in the range and scope of current management duties and 
responsibilities.

    Question 5. The Southwest Region handles many complex international 
fisheries issues involving highly migratory species, including tuna, 
sharks, and marine mammals. Would any staff currently handling those 
issues be eliminated under the proposed merger, and if so, who would 
assume those responsibilities? What amount of funding and how many of 
the FTEs proposed for elimination would need to be retained to maintain 
the current level of engagement on international fisheries issues?
    Answer. NMFS staff dealing with highly migratory species and 
protected resources are located in the Sustainable Fisheries and 
Protected Resources Divisions in Long Beach, CA, respectively. None of 
these responsibilities are expected to change because reductions in 
staff are not anticipated. While administrative reporting lines may 
change for senior management, very little change in the current level 
of engagement and participation on international fisheries issues for 
the North Pacific Ocean are expected.

    Question 6. Would any California staff to the Pacific Fisheries 
Management Council be eliminated under the consolidation? If so, what 
issues and geographic areas do those staff handle, and who would assume 
their responsibilities?
    Answer. California staff supporting Pacific Fishery Management 
Council management and advisory functions operates out of the Southwest 
Regional offices in Long Beach, CA. The levels of staff participation 
as well as specific personnel assigned to these duties in Long Beach 
are not expected to change. We are still determining the level of 
senior management engagement that will be possible on these issues.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                        Kathryn Sullivan, Ph.D.
Superstorm Sandy Fisheries Disaster Funding
    Superstorm Sandy caused significant damage to New Jersey's fishing 
industry, including extensive damage to marinas, docks, boat slips, and 
other coastal infrastructure. This prompted the Commerce Department to 
declare a Federal fisheries disaster. According to NOAA's initial 
assessment, New Jersey's fishing industry sustained total uninsured 
losses of $78 million to $121 million. The Sandy supplemental disaster 
appropriations legislation included $5 million to begin addressing 
these needs in New Jersey and New York. However, NOAA has yet to 
release any of these funds to the states.

    Question 1. When will NOAA release this funding to help New 
Jersey's fishing communities recover?
    Answer. NOAA recognizes the urgent need for funding to assist 
fishing communities in their recovery from Superstorm Sandy. Currently, 
the Governors of both New York and New Jersey are working with their 
agencies to develop spending plans that reflect their highest priority 
fisheries-related needs. These spending plans will be submitted to NOAA 
in the form of grant applications, which will then be reviewed by NOAA. 
The agency's timeline is to make disaster funding awards to the states 
within 90 days of receiving spending plans that meet disaster program 
and grant requirements. We will continue to work closely with the 
States of New York and New Jersey on this issue. We have been in close 
contact with both states since the appropriation was announced.

    Question 2. What additional recovery activities in New Jersey could 
NOAA support if Congress appropriated additional fisheries disaster 
recovery funds?
    Answer. After the storm, a team from NOAA surveyed the damage with 
a special focus on how commercial and recreational fishing 
infrastructure, vessels, and services were affected. The report serves 
as a basis for the states to form proposals for how to use the 
appropriated funds. Should Congress appropriate additional fishery 
disaster funds, we would support the award and use of the funds 
pursuant to the authority under which they are granted (Section 308(d) 
of the Interjurisdictional Fisheries Act and Section 315 of the 
Magnuson-Stevens Fishery Conservation and Management Act) or direction 
specified in the appropriation.
Enhancing Storm Intensity Prediction
    The weather predictions for Superstorm Sandy succeeded in 
predicting the path of the storm, but significantly underestimated the 
intensity of the storm when it made landfall. Improving the accuracy of 
hurricane intensity predictions would better prepare communities and 
first responders to avoid the worst impacts of severe hurricanes.

    Question 3. How could the Integrated Ocean Observing System (IOOS) 
be used to improve hurricane and other weather forecasting, including 
better predictions of hurricane intensity?
    Answer. NOAA's Hurricane Forecast Improvement Program (HFIP) is 
actively reviewing and evaluating its use of observations to improve 
hurricane forecasts, with particular focus on improving forecasts of 
hurricane intensity. As part of this evaluation, HFIP will examine data 
sets available from Integrated Ocean Observing System (IOOS) Regions 
for potential future use. Of particular interest for intensity 
forecasts are data sets that describe below-surface conditions and 
surface conditions in sparsely sampled areas. As these evaluations 
proceed, NOAA will incorporate IOOS data into operational forecast 
models as appropriate.
Ocean Acidification Impacts
    According to NOAA, ocean acidity has increased 30 percent in the 
last 100 years as carbon emissions from burning fossil fuels have 
increased and settled in the oceans. If oceans become too acidic, the 
shells of scallops, clams, crabs, plankton, corals, and other marine 
life begin to dissolve. This presents a serious threat to New Jersey's 
shellfish industry, where sea scallops and clams are some of the 
state's most valuable fisheries--valued at $121 million, according to 
NOAA.

    Question 4. If carbon emissions continue at their current rate, 
what will be the likely economic and environmental impact on shellfish 
fisheries in the Mid-Atlantic over the next decade?
    Answer. Climate change is affecting the entire oceanic ecosystem. 
Ocean acidification is one component of climate change. Others include 
altered water temperatures, salinity and sea level rise. Although there 
are numerous projections and predictions about what ocean acidification 
means for sea life, studies are just beginning to examine the problem, 
understand the drivers, and quantify effects.
    The oceanic uptake of carbon dioxide is expected to increase in the 
future. Approximately half of global carbon dioxide emissions from 
human activities are absorbed by the world's oceans. This absorption is 
expected to reduce surface ocean pH by 0.3-0.5 units over the next 
century, making it more acidic. This would be the largest pH change in 
the last 20 to 200 million years.
    Generally, increased acidity may affect the ability of marine life 
(some phytoplankton, zooplankton, shellfish, mollusks, corals, even 
fish) to grow the calcium-based hard protective coverings and skeletons 
they need. Problems with plankton at the base of the food web would 
have follow-on effects throughout the ecosystem, with implications for 
seabirds, marine mammals and fish. Given the social and economic 
importance of living marine resources on the Northeast U.S. continental 
shelf, the potential large-scale and long-term impacts of ocean 
acidification must be evaluated.
    NOAA has prioritized research to gain a better understanding of how 
changes in climate and seawater chemistry are affecting marine life. 
The NMFS Northeast Fisheries Science Center has a study plan that 
targets regional species. It is intended to assess various species 
sensitivity to ocean acidification and to develop ways to forecast the 
effects of altered carbon dioxide concentrations in the marine 
environment.
    For example, surf clams and sea scallops are commercially important 
fishery species with protracted free-swimming larval stages during 
which initial shells are built out of aragonite, the more soluble form 
of calcium carbonate. Thus, larvae of these species might be 
particularly vulnerable to ocean acidification, which could therefore 
affect survival of young animals to adult stages. The Northeast 
Fisheries Science Center's Milford Laboratory is collaborating with 
researchers at Woods Hole Oceanographic Institution to better 
understand how calcification processes in early life stages of these 
mollusks are affected by past, present, and possible future levels of 
acidity in seawater.
    One hypothesis is that the calcium carbonate used to build shell is 
derived from within cells rather than from the bicarbonate ions from 
outside cells. Laboratory-based work at the Northeast Fisheries Science 
Center has shown some support for this hypothesis with phytoplankton, 
at least in culture. While not definitive, this is a reminder that 
other aspects of climate change should also be thoroughly investigated.
    For example, the warming trends that are symptomatic of climate 
change, thought to be influenced strongly by greenhouse gasses released 
into the atmosphere by fossil fuel combustion, may also have important 
consequences for marine life. In both coastal and estuarine waters, 
unusually warm conditions over the last decade are without a doubt 
causing shifts in phenology--the seasonal confluence of animals at 
various life stages, their food sources, parasites, and pathogens.
    Some phenomena clearly caused by the current warming trend have 
already been documented, including multiple annual spawning events in 
bivalves that previously spawned only once a year and the northward 
spread of parasitic diseases in oysters. The warming trend on the U.S. 
East Coast may turn out to have more influence than changes in 
carbonate chemistry on sea scallop and surfclam populations, and thus 
landings, in the mid-Atlantic.
The Physical Oceanographic Real-Time System
    NOAA maintains the Physical Oceanographic Real-Time System (PORTS), 
which provides real-time forecasts and observations of water levels, 
currents, salinity, and other meteorological data. It is used at 17 
sites nationwide--including the Port of New York and New Jersey--to 
pilot ships, promote navigational safety, improve the operational 
efficiency of ports, and protect local marine environments.
    The cost of supporting the operation and maintenance of all PORTS 
sites nationwide is $4 million annually. However, NOAA has never 
included this program in its budget request, despite it being 
reauthorized in 2002. As a result, the full cost has been borne by 
local sponsors, many of whom are no longer able to maintain this 
funding.

    Question 5. What would be the impact on navigational safety and 
economic activity at our Nation's ports if the PORTS program is not 
funded?
    Answer. In general, if a PORTS system were to shut down as a 
result of an interruption in partner funding, the useable capacity of 
the affected port would decrease as mariners were forced to increase 
their margins of safety or divert larger ships to other ports. In 
addition, the risk of ship groundings would increase. Recent studies 
have shown substantial benefits of individual PORTS far exceeding 
their operating costs. A 2005 study of the Tampa Bay PORTS \1\ 
documented up to a 50 percent reduction in accidents and quantifiable 
annual benefits of $7 million. A 2007 study of the Houston Galveston 
PORTS \2\ documented more than a 50 percent reduction in accidents and 
quantifiable annual benefits of $15.6 million. A 2009 study on the NY/
NJ PORTS \3\ estimated annual benefits of $10 million and 50 percent 
reduction in accidents. A 2010 study of the Columbia River PORTS \4\ 
showed over $7 million in benefits. These studies illustrate the scale 
of economic and safety benefits that would be lost as a result of an 
interruption in PORTS services.
---------------------------------------------------------------------------
    \1\ Kite-Powell. Estimating Economic Benefits from NOAA PORTS 
Information: A Case Study of Tampa Bay, 2005.
    \2\ Kite-Powell. Estimating Economic Benefits from NOAA PORTS 
Information: A Case Study of Houston/Galveston, 2007.
    \3\ Kite-Powell. Estimating Economic Benefits from NOAA PORTS 
Information: A Case Study of the Port of New York/New Jersey, 2009.
    \4\ Kite-Powell. Estimating Economic Benefits from NOAA PORTS 
Information: A Case Study of the Columbia River, 2010.
---------------------------------------------------------------------------
Sandy Hook Lab
    NOAA's National Marine Fisheries Service (NMFS) manages the James 
J. Howard Laboratory in Sandy Hook, NJ. Its unique research setting 
allows the lab to study the effects of human populations on fisheries 
and the ocean environment. However, the laboratory sustained heavy 
damage during Superstorm Sandy, which is now being repaired.

    Question 6. Following repairs to the Sandy Hook lab to fix damaged 
caused by Superstorm Sandy, what laboratory improvements would help the 
lab sustain and enhance its research mission over the next decade?
    Answer. An important objective of NMFS Northeast Fisheries Science 
Center's mission is to better integrate ecosystem and climate change 
considerations in the fisheries and protected resources assessment. 
With 11 seawater research labs and a research setting near urban NY/NJ, 
the James J. Howard Marine Sciences Laboratory in Sandy Hook, NJ has 
unique research capabilities and contributes significantly to 
supporting the Northeast Fisheries Science Center mission.
    In the coming years, some activities within the Howard Lab research 
portfolio will remain high priorities and will focus on integration of 
ecosystem and climate considerations in stock assessments. Other 
research activities may be re-prioritized and directed to better 
support the Center's mission. An important objective for the Howard Lab 
is to provide the capability to directly support the needs of the Mid-
Atlantic Fishery Management Council for stock assessments and 
regulatory support while developing the capacity for better 
understanding the impacts of changing environmental factors on fish 
stocks, fisheries and coastal communities.
    The Howard Lab will conduct a broad range of research and 
analytical activities that support the Center's strategic plan and are 
consistent with the Center's priorities including ecosystem research to 
inform stock assessments; research on climate impacts on regional 
fisheries; and research on the effects of pelagic and benthic habitat 
change on fisheries. The delivery of high quality seawater and the 
ability to control experimental conditions such as lighting, 
temperature, salinity and pH are critical for the success of Lab 
research particularly on effects of ocean acidification, climate 
change, and environmental condition on growth and survival of managed 
finfish and shellfish.
    Aging infrastructure at the Lab continues to limit our scientific 
capabilities. The State of New Jersey owns the facility that houses the 
Lab, and NOAA leases those premises from the State. In addition to 
NOAA's tenant improvements to be made at the Lab necessitated by damage 
caused by Superstorm Sandy, key facility repairs and instrumentation 
upgrades are necessary. These include:

  <bullet> Process Chillers replacement--critical for seawater quality

  <bullet> Hot Water Heaters replacement--critical for seawater quality

  <bullet> Replace Emergency Generator Repair--critical for integrity 
        of experiments and survival of fish

  <bullet> Temperature control rooms HVAC improvement--critical for 
        ocean acidification research

  <bullet> Fume hoods and air handling upgrade--personnel safety 
        concerns/original equipment outdated.

  <bullet> Phone System replacement--current system is antiquated and 
        unreliable

  <bullet> Replace Walk in Freezer installation--current freezer 
        insufficient

  <bullet> Organic Chemistry instrumentation upgrades--critical for 
        contaminant analyses

  <bullet> Lab Foundation--repair cracks

    Completion of these improvements would allow the Laboratory to 
better to support Northeast Fisheries Science Center research 
priorities, especially in the Mid-Atlantic region. However, while NOAA 
may fund improvements to its phone systems, it is not authorized to 
fund repairs to the facilities owned by the state.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                        Kathryn Sullivan, Ph.D.
Aquaculture
    Question 1. NOAA announced an Aquaculture Policy and a Shellfish 
Initiative last year, but did not devote any funds to either. What is 
NOAA's plan to implement these?
    Answer. NOAA's Aquaculture Policy provides a national approach to 
guide the agency's aquaculture-related activities over multiple budget 
years. Since June 2011, when the policy was released, NOAA has been 
aligning its aquaculture activities with the policy and pursuing public 
and private partnerships to leverage available resources to address the 
priorities identified in the policy.
    Implementation of the policy is being coordinated by the NOAA 
Fisheries Office of Aquaculture, which was established in 2011 to 
better integrate aquaculture among NOAA Fisheries ocean stewardship 
roles, coordinate NOAA-wide aquaculture activities including those at 
the National Sea Grant College Program and the National Ocean Service, 
work with other Federal agencies through the Interagency Working Group 
on Aquaculture (the Federal agency coordinating committee formerly 
called the Joint Subcommittee on Aquaculture), and identify and pursue 
partnerships in the public and private sector.
    NOAA has focused on three major initiatives since the policy was 
issued in 2011:

  <bullet> A National Shellfish Initiative to increase shellfish 
        farming and restoration of shellfish habitats and populations

  <bullet> Implementation of the Gulf of Mexico Fishery Management Plan 
        for Aquaculture to make permits available for aquaculture in 
        Federal waters

  <bullet> A Technology Transfer Initiative to foster partnerships that 
        showcase innovative practices, jump start private sector 
        investments, and create employment opportunities in coastal 
        communities.

    The President's FY 2014 budget request includes an increase of $1.1 
million for aquaculture research at NOAA Fisheries to help implement 
the 2011 NOAA and Department of Commerce Aquaculture Policies. Half of 
this increase will support the National Shellfish Initiative, which 
focuses on restoring and expanding shellfish resources in order to 
promote clean-water industries and create jobs. The other half of the 
increase will be used to develop tools for siting and management of 
finfish aquaculture operations and developing new aquaculture feeds 
using ingredients such as soy and fish processing trimmings to reduce 
reliance on fish meal and fish oil. These tools will be important to 
guide sustainable development of domestic aquaculture in both coastal 
and Federal waters.
    NOAA intends to continue to use the policy to guide research, 
regulatory, and management activities throughout the agency and inform 
future agency budget requests and budget allocation decisions. NOAA 
will also continue to form new partnerships and strengthen existing 
partnerships in order to leverage resources in pursuit of policy 
priorities.

    Question 2. Moreover, as a result of the growing half-shell market 
in Connecticut and the region, fishermen and others are starting new 
oyster farms up and down the east coast. The Connecticut industry alone 
employs approximately 300 people. Unfortunately, the National Marine 
Fisheries Service spent .07 percent last year on aquaculture research. 
That represents around $5.5 million out of a budget of almost $5 
billion. What else can and should NOAA be doing to support this 
critical industry? We need more fundamental science from places such as 
NOAA's Milford lab. This is a jobs issue as much as it is a food 
security issues--shellfish aquaculture can help with both.
    Answer. NOAA agrees that the development of shellfish aquaculture 
and other types of aquaculture in the United States can contribute more 
to the Nation's economy and food security. We also recognize the 
important ecosystem services provided by shellfish in terms of nutrient 
removal, water quality, habitat restoration, and shoreline protection, 
and we understand the industry's concern over the potential impact of 
ocean acidification on shellfish. Work conducted at NMFS' Milford, CT 
Laboratory is an important component of NOAA's overall effort to foster 
sustainable aquaculture in the U.S.
    In addition to supporting research at the Milford Lab and 
elsewhere, NOAA is assisting the development of shellfish aquaculture 
in the United States through our regulatory and outreach activities. We 
work internally and with our federal, state, local, and tribal partners 
to improve permitting processes for marine aquaculture and to provide 
models, decision tools, and the best available science for efficient 
and effective regulatory decisions. We also provide information to 
increase public understanding about shellfish aquaculture and the 
potential to provide both economic and ecological benefits to the 
Nation. We are proud that, due in part to NOAA's efforts over the past 
several years, shellfish aquaculture is increasing along the East 
Coast. We intend to continue these efforts.
    The NOAA Aquaculture Policy (2011), which was developed with 
significant stakeholder input, provides a list of priorities in the 
areas of science and research; regulation; innovation, partnerships and 
outreach; and international cooperation. The National Ocean Policy 
Implementation Plan (April 2013) has identified a set of actions to be 
addressed by NOAA and other Federal agencies through 2016 relating to 
the National Shellfish Initiative, jobs and innovation, science, 
permitting efficiencies, and the effects of ocean acidification. We are 
coordinating with our Federal partners on these actions.
    In FY 2014, NOAA has requested an additional $1.1 million for 
aquaculture research, half of which would fund research in support of 
the National Shellfish Initiative. While specific funding allocations 
have not yet been worked out, we expect some portion of this funding to 
be directed to the Milford Lab to expand their research capability.

    Question 3. Can you address NOAA's efforts to support the growing 
shellfish aquaculture industry? And more specifically, can you discuss 
NOAA's budget as it relates to shellfish aquaculture research?
    Answer. NOAA has engaged with the shellfish industry for decades to 
help them on research on policy matters to increase sustainable 
production. For example, NOAA Fisheries' Milford, CT laboratory has 
provided important support to the East Coast shellfish growers since it 
began operations in 1931. In 2011, NOAA launched its National Shellfish 
Initiative to provide focus and additional support for its efforts to 
support shellfish aquaculture. Through this initiative, NOAA leverages 
existing staff, regulatory authorities, and grant programs; coordinates 
with other Federal agencies; and reaches out to industry, restoration 
groups, academia, states, tribes, and other stakeholders. This effort 
takes into account recommendations provided by industry and 
professional scientific shellfish associations based on recent surveys 
of their membership; research priorities and restoration strategies 
identified by industry associations, restoration groups, states, 
tribes, and others; and priorities for NOAA grant competitions.
    Efforts are underway with partners in several states to expand 
opportunities for shellfish farming and restoration. For example, NOAA 
worked with the U.S. Army Corps of Engineers, the State of Maryland and 
other partners to successfully implement an oyster lease program in 
Chesapeake Bay that has resulted in dozens of approved permits for new 
shellfish operations, many of which are owned by current or former 
fishermen. Also, a shellfish initiative launched in Washington State is 
a comprehensive federal, state, and industry partnership that promote 
new economic opportunities, restoration, improved water quality, and 
science on the impacts of ocean acidification on local oysters.
    In FY 2013, NOAA's dedicated funding for aquaculture includes $5.3 
million at NMFS for in-house research and management activities for all 
forms of aquaculture, including shellfish. This includes $823 thousand 
for research at the Milford Lab, focused primarily on shellfish 
aquaculture research. In addition, NOAA's Office of Oceanic and 
Atmospheric Research funding includes $4.3 million for competitive 
grants for aquaculture research and state extension programs, much of 
which supports the shellfish aquaculture industry.
    Ocean acidification is increasingly recognized as a growing threat 
to the shellfish aquaculture industry, especially in the Pacific 
Northwest where periodic oceanic acidification events are a significant 
cause of larval production failures in some commercial hatcheries. The 
NOAA Office of Oceanic and Atmospheric Research Pacific Marine 
Environmental Laboratory, working with other partners, invested $170 
thousand in 2013 to support real-time advanced monitoring technologies 
to help hatchery managers monitor oceanic acidification events and 
develop adaptive strategies to minimize impacts. NOAA is working to 
develop a forecast capability to provide advanced warning of conditions 
harmful to shellfish. This is a key objective of establishing an Ocean 
Acidification Monitoring Network as called for under the Federal Ocean 
Acidification Research and Monitoring Act. In FY 2013, the NOAA Ocean 
Acidification Program will invest over $2 million towards these 
activities including working with NMFS to study oceanic acidification 
impacts on a range of species including Pacific Oyster. The U.S. 
Integrated Ocean Observing System (IOOS) will provide $604 thousand to 
test monitoring prototypes for broad-scale distribution develop and 
apply state of the art technologies for monitoring important to 
shellfish hatcheries and growers, and train onsite technical and data 
management personnel.
    In FY 2014, NOAA has requested an additional $1.1 million for 
aquaculture research, half of which would fund research in support of 
the National Shellfish Initiative. While specific funding allocations 
have not yet been worked out, we expect some portion of this funding to 
be directed to the Milford Lab to expand their research capability. At 
the Office of Oceanic and Atmospheric Research, the Ocean Acidification 
Program is seeking to invest an additional $2 million in FY 2014 to 
advance research improving our understanding of enhanced coastal 
acidification and the impacts to coastal marine resources; and to 
develop tools and adaptive strategies for affected industries and 
stakeholders.
Community-based Restoration Program
    NOAA's Community-based Restoration Program (CRP) has been highly 
successful at improving the health of coastal habitats across the 
nation, benefiting both the environment and the economy through 
partnerships.
    By working collaboratively with more than 1,500 organizations--
including several in Connecticut--CRP has funded more than 2,300 small- 
to mid-scale on-the-ground projects to restore over 97,000 acres of 
habitat. This work has involved more than 290,000 volunteers in 
projects, contributing more than 1 million volunteer hours.

    Question 4. Given CRP's record of success is largely attributable 
to its partnership model and community focus, why is NOAA seeking to 
change the funding decision making process from a bottoms-up 
(community-driven) to top-down (federally driven) approach to select 
habitat restoration projects for local estuaries and bays?
    Answer. NOAA has not changed the funding decision making process 
for our Community-based Restoration Program. The Program is still a 
competitive funding solicitation that calls for proposals from local 
communities, tribes, NGOs, regional governments and state governments. 
As in previous years, we recognize that every coastal community has 
locally important habitat restoration needs and local stakeholders have 
a critical role in the development, implementation, and maintenance of 
coastal and marine habitat restoration throughout the U.S.
    This year, NOAA did modify our funding opportunity announcement--
but did not de-emphasize the important role of local partnerships. 
Rather, the funding opportunity emphasized that potential applicants 
should propose locally and regionally driven restoration efforts that 
advance NOAA goals for recovering threatened and endangered species and 
contributing to sustainable fisheries. These are goals that NOAA shares 
with stakeholders and coastal communities.
    Partnerships established through this funding announcement will not 
only advance NOAA's efforts to foster species recovery and increase 
fish production, but will also directly benefit communities and address 
the local needs that they are requesting support for in their 
proposals. This approach emphasizes NOAA's science-based approach to 
habitat conservation while still maintaining the strong local 
involvement necessary for any restoration investment. NOAA highly 
values the expertise that our partners bring to helping us achieve our 
habitat conservation goals, and we feel that this has consistently been 
reflected in our funding model.

    Question 5. And given limited resources and past success engaging 
community volunteers, why is NOAA directing limited resources to larger 
scale habitat restoration projects through the community-based 
restoration program that would no longer be able to engage community 
volunteers?
    Answer. As described above, this year NOAA encouraged applicants to 
submit proposals that advance shared priorities for regional habitat 
conservation that foster species recovery and increase fish production. 
Community/stakeholder engagement is still a critical component of the 
evaluation criteria (as outlined in the Federal Funding Opportunity 
Announcement) and the success and sustainability of the restoration 
projects that we support. In many instances, these projects are still 
of a scale that can and will engage community volunteers.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                        Kathryn Sullivan, Ph.D.
Fisheries Science Investments
    I applaud the President's Fiscal Year 2014 budget request for 
prioritizing fisheries science and making targeted investments in 
fisheries research and management. As you know, these research efforts 
are essential to promoting marine conservation and protection, and 
generating the sound science and tools that enable NOAA to improve the 
health and productivity of marine life. Investing in these efforts will 
help bring a better balance to NOAA's portfolio and reinforce the 
administration's mission to support the sustainable use of America's 
oceans.

    Question 1. Could you please explain to the Committee why NOAA's 
investment in fisheries science is important to the administration's 
mission, and how the additional funding request for FY 2014 will help 
improve NOAA's ability to a better steward of America's maritime 
domain?
    Answer. A healthy marine environment provides significant economic 
benefits to our Nation. NOAA is the primary Federal agency responsible 
for enabling and promoting the sustainable, safe, and efficient use of 
coastal resources and coastal places. NMFS is an acknowledged 
international leader in fishery science and it is vital that we 
continue to invest in our science enterprise.
    Progress in making fisheries management more effective is based on 
the principle that management is based on sound science. Stock 
assessments provide the scientific basis for sustainable fisheries 
management. While we face challenges to securing accurate, precise, and 
timely data for stock assessments, on balance, our science-based 
management has consistently proven to provide better resource 
management than without this advice. This has, in turn, led to improved 
productivity and sustainability of fisheries and fishery-dependent 
businesses. For example, an economic study in Alaska showed that 
maintaining annual frequency of fishery-independent surveys, compared 
to reducing to biennial surveys, allowed for rapid detection of 
increases in stock abundance and tens of millions of dollars in added 
value of the catch.
    Sustainability of our Nation's fisheries is based on continual 
monitoring of fish catch and fish stock abundance, which provides the 
data needed for stock assessments. Because this data-intensive endeavor 
is costly, NMFS and our partners have always focused on getting the 
most, highest-priority, and highest-quality data by fully implementing 
the funds Congress has provided for this vital work. This funding and 
the work it supports enable us to sustain and enhance our fisheries. 
NMFS continues to make substantial progress toward improving the 
quality of the science available to effectively manage commercial and 
recreational fisheries, benefiting coastal communities and the U.S. 
economy both today and for the future. We greatly appreciate the 
increased funding that Congress has provided to make U.S. fishery 
management and its preeminence worldwide, possible.
    Proposed funding increases in Fisheries Research and Management 
include: $4.9 million to strengthen data collection capabilities for 
fisheries stock assessments through advanced sampling technologies; 
$2.6 million to expand our ability to sustain fishery-independent 
survey and fishery monitoring projects; $2.5 million to restore 
Interjurisdictional Fisheries Grants to promote research and management 
of fisheries that cross state boundaries; and $1 million for reducing 
bycatch. Additional investments include $4.1 million for Fisheries 
Habitat Restoration to implement larger-scale habitat restoration in 
targeted areas that help recover protected species and rebuild 
fisheries; and $4.1 million to increase capacity in fisheries 
enforcement, observers and observer training. We also propose to use at 
least $1 million of the proposed FY 2014 increase in the Expand Annual 
Stock Assessments line to initiate a Territorial Science Initiative. 
NOAA's desire under this initiative is to improve the quality of 
science necessary to implement the Magnuson-Stevens Reauthorization Act 
in the Western Pacific and Caribbean territories.
    The quality of scientific advice provided to management has been a 
major reason the United States has become a model of responsible 
fisheries management. Direction provided by the Magnuson-Stevens 
Fishery Conservation and Management Act has been crucial to NOAA's 
scientific program. The additional funding requested for FY 2014 will 
help maintain the progress we have made, and will provide targeted 
increases in key areas that will improve our ability to provide 
scientific advice to fisheries managers that is more accurate, precise, 
and timely, and available for more stocks.
Proposed MPA Program Consolidation
    I understand that the Administration is consolidating the National 
Marine Protected Areas Center with the Office of National Marine 
Sanctuaries to streamline those activities and create a single more 
efficient and effective program, allowing NOAA to save money. However, 
I am concerned that NOAA's request for a decrease of nearly $3 million 
dollars in FY 2014 for its Sanctuaries and Marine Protected Areas 
Program will compromise its ability to meet its obligations to state 
partners who work with NOAA to manage these sanctuaries. In Hawaii, for 
example, NOAA and the State of Hawaii cooperate together under a 
Memorandum of Understanding to safeguard Hawaii's Humpback Whale 
population.

    Question 2. In developing your budget, did NOAA consider the 
potential impact that the proposed cuts to its Sanctuaries and Marine 
Protected Areas program might have on its ability to fulfill its 
obligations to its state partners?
    Answer. At the requested funding level, NOAA will support the 
highest priority management actions in the National Marine Sanctuary 
System, which includes continued robust partnerships with States and 
engagement of coastal stakeholders. NOAA also proposes to reduce 
contract labor support and extramural grant support through the 
National Fish and Wildlife Foundation for MPA collaboration activities.

    Question 3. Can you describe the efforts NOAA will take to help 
ensure it meets its obligations to state and local partners?
    Answer. At this funding level NOAA will continue to support its 
highest priority goals, maintain its unique capabilities, and continue 
engaging coastal communities and stakeholders. As stated in the FY 2014 
request, NOAA intends to develop or expand partnerships with local 
communities and businesses and expand public outreach activities in 
relation to designated areas.
Proposed Sea Grant Fellowship Elimination
    NOAA is proposing to eliminate its National Sea Grant Fellowship as 
part of the administration's reorganization of its STEM education 
programs. This fellowship has played an important role in bridging the 
divide between science and public policy by giving marine science 
students an opportunity to engage in policy development in the 
Executive and Legislative branches.

    Question 4. Can you describe for the Committee the decision to 
eliminate the National Sea Grant Fellowship and how the proposed 
reorganization of NOAA's STEM education programs will help continue to 
bridge the gap between science and public policy?
    Answer. The President has placed a very high priority on improving 
outcomes in STEM education. However, the current fragmented approach to 
investing in STEM education has made it difficult to ensure that 
Federal efforts are coherent, strategic, and leveraged for greatest 
impact. The Administration is proposing to reorganize investments to 
more effectively streamline delivery of STEM.
    The National Sea Grant College Program's Dean John A. Knauss Marine 
Policy Fellowship (Sea Grant Knauss Fellowship) has provided graduate 
students who have training in ocean, coastal and Great Lakes science, 
policy, or law with an opportunity to develop skills in the national 
policy arena. The Sea Grant Knauss Fellowship advances the marine-
related educational and career goals of participating students and 
enhances the partnerships between universities and government. As such, 
the Sea Grant Knauss Fellowship was deemed a STEM program under the 
Administration's proposal and included in the consolidation plan.
    The new framework consolidates core functions into three lead 
agencies--the Department of Education (ED), the National Science 
Foundation (NSF), and the Smithsonian Institution. The Sea Grant Knauss 
Fellowship would be consolidated into NSF since it is listed within the 
category of undergraduate/graduate education. The lead agencies have 
already conducted or are in the process of convening meetings with 
other science agencies to identify modes of cooperation through which 
valuable assets and activities from programs that would be eliminated 
under the reorganization could be brought to bear more broadly and 
effectively across the government going forward, as well as to discuss 
agency-mission-specific needs that might be met by STEM education and 
engagement efforts supported by the leads. While it is premature to 
define exactly how these interactions will work in the long run, as 
agencies are currently working to determine how best to structure these 
collaborations, all lead agencies are committed to engaging the 
collaborating agencies to leverage their expertise, unique resources, 
institutional knowledge, and existing relationships as described in the 
STEM Strategic Plan released in May.
National Ocean Policy Implementation Plan
    I was glad to see the National Ocean Policy Implementation Plan 
released. The National Ocean Policy is incredibly important to Hawaii, 
as the ocean is central to our economy and our identity. The policy and 
the new implementation plan coordinate efforts across agencies, 
governments, and regions leading to efficiencies, and put states like 
mine in the driver's seat of the management and conservation of the 
ocean off our shores. NOAA's ocean portfolio means you are the leader 
on much of the implementation of the policy. Your testimony has 
indicated that your budget this year takes a more balanced approach, 
ensuring investments in your ocean programs.

    Question 5. Can you expand on this balance and how it benefits 
ocean programs that are essential to the implementation of the ocean 
policy?
    Answer. There are several dimensions to our balanced approach which 
include ocean and coastal as well as atmospheric and satellite 
programs, immediate needs vs. long term investments, and intramural and 
extramural support. With the FY 2014 President's Request, NOAA is 
seeking to provide the proper balance between these dimensions while 
supporting our critical core missions and partnerships. In recent 
years, NOAA has approached critical launch dates for satellites, and 
our satellite budget has grown accordingly, which has meant that the 
relative funding of our atmospheric and oceanic programs has been 
skewed in recent years. Through strategic investments in ocean and 
coastal programs, we seek to regain balance throughout NOAA's budget, 
as we continue to support our core mission. These investments support 
the broad NOAA goal of vibrant coastal communities and economies by 
supporting sustainable fisheries, protected resources, habitat 
conservation and restoration, coastal science, and research and 
development.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                      Admiral Robert J. Papp, Jr.
    Question 1. Can the Coast Guard provide an estimated annual cost to 
the service of operating and maintaining the C-27J aircraft? How would 
the costs of operating the C-27J compare to the costs of operating 
Coast Guard's existing fixed-wing assets, and would per-aircraft 
maintenance costs vary with the total number of C-27J aircraft 
acquired?
    Answer. Below are the annual costs for current assets and an 
estimate for the C-27J. Currently, HC-130s are programmed for 800 hours 
annually per operational aircraft, and the HC-144 is programmed for 
1,200 hours annually. The C-27J is calculated for 1,000 programmed 
hours annually.

------------------------------------------------------------------------
                           HC-130H                                Cost
------------------------------------------------------------------------
Personnel (crew):                                                $2.663M
------------------------------------------------------------------------
O&M @ 800 hrs:                                                   $5.694M
========================================================================
Total:                                                           $8.357M
------------------------------------------------------------------------


------------------------------------------------------------------------
                           HC-130J                                Cost
------------------------------------------------------------------------
Personnel (crew):                                                $2.849M
------------------------------------------------------------------------
O&M @ 800 hrs:                                                   $4.678M
========================================================================
Total:                                                           $7.527M
------------------------------------------------------------------------


------------------------------------------------------------------------
                           HC-144A                                Cost
------------------------------------------------------------------------
Personnel (crew):                                                $2.940M
------------------------------------------------------------------------
O&M @ 1200 hrs:                                                  $4.049M
========================================================================
Total:                                                           $6.989M
------------------------------------------------------------------------


------------------------------------------------------------------------
                            C-27J                                 Cost
------------------------------------------------------------------------
Personnel (crew):                                                $2.790M
------------------------------------------------------------------------
O&M @ 1000 hrs:                                                  $4.405M
========================================================================
Total:                                                           $7.195M
------------------------------------------------------------------------

    The per hour maintenance costs for each aircraft would decrease 
with more C-27Js, as overhead and support costs would be distributed 
across a larger fleet.
    Note: Table only represents O&M costs. Acquisition of C-27 would 
require missionization of aircraft, sparing, product line standup, 
along with training and shore infrastructure improvements.

    Question 2. Has the Coast Guard discussed the possibility of 
sharing C-27J maintenance costs in partnership with the U.S. Forest 
Service, were both agencies to acquire some of the aircraft?
    Answer. Yes, the Coast Guard had a preliminary meeting with the 
Forest Service and discussed the possibility of shared C-27J 
maintenance and support costs, however, no specific agreement was 
reached.

    Question 3. What is the status of the potential transfer of a 
number of C-27J aircraft from the Department of Defense to the Coast 
Guard?
    Answer. U.S. Coast Guard and U.S. Air Force staffs have been 
discussing the possibility of transferring excess C-27J aircraft from 
the Air Force to the Coast Guard. A formal letter of intent was sent 
from the Coast Guard to the Air Force in March of 2013 explaining that 
the Coast Guard stands ready to immediately accept all excess C-27J 
aircraft, spares and support equipment.
    The current Program of Record (POR) for the Coast Guard's HC-130 
and HC-144 aircraft is 22 and 36 airframes, respectively. The transfer 
of C-27J aircraft to the Coast Guard may reduce the total number of HC-
144 and C-130J aircraft required under the current program of record 
per the table below:

----------------------------------------------------------------------------------------------------------------
                C-27J  Transferred                         C-130J  Required               C-144A  Required
----------------------------------------------------------------------------------------------------------------
21                                                                            19                             18
----------------------------------------------------------------------------------------------------------------
20                                                                            19                             19
----------------------------------------------------------------------------------------------------------------
19                                                                            19                             20
----------------------------------------------------------------------------------------------------------------
18                                                                            19                             21
----------------------------------------------------------------------------------------------------------------
17                                                                            19                             23
----------------------------------------------------------------------------------------------------------------
16                                                                            19                             23
----------------------------------------------------------------------------------------------------------------
15                                                                            19                             24
----------------------------------------------------------------------------------------------------------------
14                                                                            19                             25
----------------------------------------------------------------------------------------------------------------

    The Coast Guard will accept a minimum of 14 C-27J aircraft. Actual 
operational assessment of the C-27J may allow for further adjustments 
to the above numbers.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                      Admiral Robert J. Papp, Jr.
    Question 1. As you know, Coast Guard or other law enforcement 
presence on Navy ships is crucial in supporting the counter illicit 
trafficking mission of Joint Interagency Task Force (JIAFT) South. With 
the reduction of Navy ships and the dramatic drop in availabilities for 
other Navy ships in the Western Hemisphere, how has the burden shifted 
to the Coast Guard? What has been and will be the impact on Coast Guard 
operations in the Caribbean and Eastern Pacific? How have traffickers 
altered their patterns?
    Answer. With the projected decommissioning of the U.S. Navy's (USN) 
Guided Missile Frigates (FFG), as well as reduced deployments due to 
sequestration, the U.S. Coast Guard (USCG) and SOUTHCOM are exploring 
the use of alternative platforms for LEDET deployments to the JIATF-S 
to embark that include entering into agreements with other Partner 
Nations deploying in support of counter drug operations.
    In terms of USCG operations, the reduction in the FFG ships will 
have little effect on the deployments of USCG surface and air assets. 
JIATF-S will continue to position USCG and other assets under their 
tactical control based on actionable intelligence to most effectively 
combat Transnational Criminal Organizations (TCOs) conducting illicit 
activities.
    We have not detected any significant change in TCO smuggling 
patterns. As in the past, we will continue to adapt operations based on 
actionable intelligence.

    Question 2. With the proposed reduction in the Coast Guard's 
acquisition funding, and slowing of the Fast Response Cutter delivery 
schedule, how will the delayed delivery of those ships impact maritime 
security and Coast Guard missions closer to our coasts, in the 
Exclusive Economic Zone? What will the impact be on securing the vast 
maritime border of the United States?
    Answer. Coast Guard operational commanders allocate resources to 
address the highest threats and operational priorities. The Coast Guard 
also continues to leverage interagency and international partnerships 
to secure the maritime border. The Fiscal Year 2014 budget submission 
will provide the Coast Guard with funding for two additional Fast 
Response Cutters (FRC). These new assets, coupled with robust 
interagency and international coordination will enable the United 
States and partner nations to best mitigate threats throughout the 
maritime domain.
    FRCs replace the aging fleet of 110-foot patrol boats, and provide 
increased capability to conduct search and rescue operations, enforce 
border security, interdict drugs, uphold immigration laws, prevent 
terrorism, and ensure resiliency to disasters.

    Question 3. What is the Coast Guard's position with regard to 
reimbursement for providing assistance to mariners in distress on the 
sea? Do you believe the Coast Guard should be reimbursed, and what are 
the implications of reimbursement for SAR within the maritime 
community?
    Answer. In accordance with 46 U.S.C. 2110(a)(5), the Coast Guard is 
prohibited from collecting fees for the conduct of SAR operations:

        The Secretary may not collect a fee or charge under this 
        subsection for any search or rescue service.\1\
---------------------------------------------------------------------------
    \1\ As defined in 46 U.S.C. 2101(34), ``Secretary'' means the 
Secretary of the Department in which the Coast Guard is operating.

    Additionally, the Coast Guard does not recommend seeking cost 
reimbursement associated with SAR \2\ operations from the recipients of 
those services for two reasons:
---------------------------------------------------------------------------
    \2\ Medical evacuations (MEDEVAC) are considered SAR; the Coast 
Guard will not seek reimbursement for the conduct of MEDEVACs.

  1.  Financial considerations may keep persons in distress from 
        reporting their condition and seeking assistance in the early 
        stages of the distress. The earlier the Coast Guard is notified 
        of a distress at sea, the greater the opportunity to conduct a 
        rescue and save someone's life. If financial considerations 
        became a factor in a person's decision to notify the Coast 
        Guard of a maritime distress, then the Coast Guard may get 
        fewer calls, or calls in the later stages of the distress, 
        causing greater risk to those in distress, as well as to the 
        Coast Guard search and rescue (SAR) units conducting the 
---------------------------------------------------------------------------
        rescue.

  2.  If the Coast Guard charged survivor(s) for their rescue, there is 
        the possibility of having financial considerations affect 
        search planning and execution decisions, as well as open the 
        Coast Guard to future liability. In addition, it would be 
        extremely difficult to develop an objective test for deciding 
        when persons in distress are financially capable of bearing the 
        cost of their rescue.

    Question 4. Are you aware of any countries that charge for maritime 
assistance? Would this set a dangerous precedent where other countries 
would start charging for such services and potentially create rescue 
operations for profit?
    Answer. No. The Coast Guard is unaware of any nation that, as a 
matter of policy, charges survivors for search and rescue (SAR) 
services.
    The Coast Guard is considered an international leader in SAR and 
has advocated internationally that governments absorb costs associated 
with SAR and refrain from seeking reimbursement from SAR survivors. Any 
change to this position would open the opportunity for other nations to 
begin charging for SAR services as well as promote rescue operations 
for profit.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Kelly Ayotte to 
                      Admiral Robert J. Papp, Jr.
    Question. Admiral Papp, I understand that the Coast Guard is 
considering a reversal of a 2008 policy decision regarding the 
application of the Outer Continental Shelf Lands Act (OSLA) to certain 
marine activities in the Gulf of Mexico. This reversal would have a 
negative impact on the competitiveness of American companies and our 
ability to thrive in a global marketplace. Has a final decision been 
made as to the official Coast Guard policy regarding the OSLA policy? 
If not, when do you expect a final determination to be made? Would you 
commit to working with me to ensure that this issue is resolved 
promptly so that marine services commitments of operators from my state 
can be met?
    Answer. A final determination has not yet been made on this policy 
decision. The Coast Guard expects a final decision to be made on or 
before June 30 of this year. The Coast Guard will work with Congress on 
this issue.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                        Kathryn Sullivan, Ph.D.
    Question 1. How much of your budget is used to fund activities 
related to implementing the President's National Ocean Policy?
    Answer. NOAA supports many activities that are aligned with the 
National Ocean Policy; however, there is not specific funding in NOAA 
related to the implementation of the National Ocean Policy. The 
National Ocean Policy directs agencies to use resources more 
efficiently by identifying shared priorities, sharing data, working 
through potential conflicts, coordinating decision-making, and 
eliminating duplication. For example, by prioritizing shared data and 
agency collaboration to achieve efficiencies, the Policy helps to 
maximize appropriated funds to the benefit of ocean and Great Lakes 
users coastal communities, and taxpayers. The Implementation Plan 
integrates and coordinates existing activities and missions under the 
umbrella of the National Ocean Policy. The idea is to work together to 
better leverage our resources, coordinate on decision-making, and work 
together in a way that benefits Americans.

    Question 2. Your agency recently proposed listing 66 coral species 
as endangered species by estimating the health of the species over the 
next 100 years. While I understand we are in the early stages of the 
process, how much money does the budget propose to implement this new 
listing? Do you expect that number to remain the same over time--for 
example, in the budget requests over the next five to ten years? If 
not, what future outlays are you anticipating?
    Answer. After reviewing the best available scientific and 
commercial data and a public engagement process, NOAA proposed to list 
66 species of reef building corals under the Endangered Species Act 
(ESA). An extended public comment period ended on April 6 and we are 
reviewing input. We will carefully review and evaluate all of the 
information received as we determine whether corals will be listed in 
December 2013.
    Should a number of corals be listed, it would significantly 
increase the number of ESA Section 7 consultations to assess the 
effects of Federal activities on those corals. NOAA will provide 
technical assistance to action agencies (those proposing Federal 
activities) prior to any listings to ensure their activities would not 
jeopardize corals, and are conducting conferences as appropriate with a 
goal of reducing the number of re-initiations and new consultations if 
corals are listed. The FY 2014 budget proposal includes $31.8 million 
for all Section 7consultation work on all listed species under NMFS 
jurisdiction. It is not possible at this time to estimate how much of 
that funding would need to be allocated to conducting consultations on 
corals as allocation depends on the final listing decision.
    In addition, all eligible states and territories will be able to 
apply for Species Recovery Grant funding to support conservation of all 
of these coral species. The final FY 2013 Spend Plan amount for that 
program is funded at $4.0 million, but the FY 2014 budget request 
includes $17.8 million for the Species Recovery Grant program. To be 
eligible, states and territories must enter into an agreement with NMFS 
pursuant to Section 6 of the ESA. Currently, 23 states and 
territories--including the U.S. Virgin Islands, Puerto Rico, and 
Commonwealth of Northern Mariana Islands--hold Section 6 agreements and 
are thus eligible. Only American Samoa, Guam, Connecticut, New 
Hampshire, Rhode Island and Pennsylvania have yet to enter into 
agreements; however, the process of developing an agreement is underway 
for American Samoa and Guam. It is important to note that species 
recovery grants are awarded through a national competition that 
supports recovery of all ESA listed species under NMFS jurisdiction, 
with the exception of Pacific salmonids. There are currently 64 listed 
species eligible for funding under this program.
    When the listing decision concerning corals is initially made the 
consultation and recovery workload will not be immediate, but there 
will be an immediate need for ESA Section 10 permits to allow coral 
researchers to continue work. NMFS is already developing streamlined 
permitting. Research permits will be ``batched'' together under 
umbrella permits to make the process as efficient as possible and to 
address permitting workload within resources provided. Finally, the 
NOAA Coral Reef Conservation Program continues to fund science and 
projects for the conservation of corals, including those that are 
proposed for listing under the ESA.
    Future outlays and budget requests specific to the corals listing 
are unknown at this time.

    Question 3. I understand that the President's budget eliminated the 
National Undersea Research Program, including funding for the Aquarius 
Reef Base. How is the agency moving forward in decommissioning this 
unique laboratory? Please keep my office updated on the progress of 
this transition.
    Answer. The FY 2014 President's budget requests a decrease of $4 
million within the Office of Oceanic and Atmospheric Research (OAR) for 
the termination of the National Undersea Research Program (NURP). 
However, the proposal to terminate NURP was a carry forward request 
from the FY 2013 President's Budget which was subsequently passed 
through the Continuing and Further Appropriations Act, 2013 (P.L. 113-
6). This decrease ends NOAA funding to the three NURP Centers and the 
operations of NOAA-owned assets such as the Aquarius Undersea Habitat, 
Pisces V submersible, and Autonomous Undersea Vehicles. NOAA is 
currently working to transition assets as appropriate. The University 
of North Carolina Wilmington (UNC-W) held the grant to conduct Aquarius 
operations and maintenance from 1990--2012. The recent grant period 
ended in December 2012 and UNC-W chose not to renew. Florida 
International University (FIU), which is part of the Cooperative 
Institute for Marine and Atmospheric Studies (CIMAS), was awarded a 
grant to maintain Aquarius during the FY13 Continuing Resolution period 
from January--March 2013. With FY13 appropriations, NOAA's Office of 
Ocean Exploration and Research will provide some additional funding (at 
least $200K) to FIU to continue maintenance through December 31, 2013. 
FIU has expressed interest in acquiring this asset and the additional 
funding will provide them with time required to make that decision as 
to whether to proceed. If FIU does not pursue acquisition, NOAA will 
proceed with selling or disposing of the asset in accordance with law.

    Question 4. The budget proposal funds 3,517 Days at Sea to carry 
out missions to support fisheries surveys, among other things. This 
proposal represents an increase of 1,386 Days at Sea above the FY 2012 
levels. Please provide more details on how the agency will ensure that 
ship time will be distributed fairly, and according to need, among 
different regions.
    Answer. The final allocation of annual ship time is determined by 
NOAA's Fleet Council using the Prioritization, Allocation and 
Scheduling (PAS) process. Each NOAA Line Office (LO) is represented and 
the Director of the Office of Marine and Aviation Operations is the 
Council Chair. The PAS process ensures NOAA's highest priority programs 
are supported and that projects are assigned to ships that provide the 
best value to the Government.
    The PAS process is informed at the onset by an evaluation of fleet 
composition, maintenance requirements, and estimated funds available 
for the upcoming fiscal year. Each NOAA LO provides a prioritized list 
of projects for consideration. Then a cross-LO prioritized list of 
projects is developed with input from NOAA Leadership for OMAO to use 
in allocating best value assets to each project. From this, the Fleet 
Working Group, facilitated by OMAO, schedules projects on the Fleet 
Allocation Plan (FAP). The draft FAP developed by OMAO and the Fleet 
Working Group is approved by the Fleet Council and becomes final. After 
the initial FAP is created at the President's Budget level, subsequent 
revisions are made to reflect the final enacted budget.
    The FAP is typically completed in the fall and the FY 2014 plan 
will likely be complete in September or October of 2013.

    Question 5. What percentage of the budget for the National Weather 
Service goes to labor costs?
    Answer. Based on FY 2012 Actuals, 61 percent of the NWS budget went 
to labor costs.

    Question 6. I understand that that National Weather Service is 
unionized. How has the size of the workforce changed since the Weather 
Service modernization was implemented in 2000?
    Answer. Overall, the size of the NWS workforce has not changed much 
from 2000 to the FY 2014 budget request. The NWS modernization in 2000 
called for 4,700 positions, whereas in FY 2012 NWS had 4,912 actual 
positions, and the FY 2014 President's Budget for NWS requests 4,779 
positions. Approximately 3,600 (or 75 percent) of the NWS workforce, 
mainly field staff, is represented by the National Weather Service 
Employees Organization.

    Question 7. Please provide an update of the agency's actions thus 
far and planned for the immediate future regarding implementation of 
the RESTORE Act.
    Answer. NOAA has been working in partnership with other Commerce 
bureaus to contribute to the development of the Gulf Coast Ecosystem 
Restoration Council's draft Comprehensive Plan. NOAA is also charged 
with developing a Gulf Coast Ecosystem Restoration Science, 
Observation, Monitoring, and Technology Program (``Gulf Coast Ecosystem 
Restoration Science Program'' for short) ``to carry out research, 
observation, and monitoring to support the long term sustainability of 
the ecosystem, fish stocks, fish habitat, and the recreational, 
commercial, and charter fishing industry in the Gulf of Mexico.'' U.S. 
Fish and Wildlife Service (FWS) representatives are also on the program 
team.
    In consultation with partners and key stakeholders, NOAA and USFWS 
have developed a framework for this new program. An engagement process 
was initiated early in program development and continues as NOAA moves 
towards implementation to ensure that NOAA utilizes the expertise of 
the scientific community in the Gulf of Mexico, and links it to the 
region's science needs. This will be a ``matrixed'' NOAA program, which 
will be administratively located within NOS but which will work across 
NOAA line offices and programs. The Oversight Board, which met for the 
first time in February, consists of senior NOAA science leadership 
across all line offices, USFWS representatives, and NOAA finance 
representatives.
    NOAA is following a series of steps to implement the Program 
including:

  <bullet> Conducting a review and assessment of science needs for the 
        region that have been determined previously;

  <bullet> Developing a Science Plan framework that describes the 
        program and lists a set of draft Goals for consideration to 
        assist engagement with partners and stakeholders;

  <bullet> Engaging partners to identify and prioritize ecosystem and 
        management science requirements and gaps, including but not 
        limited to coordination with other Trust Fund recipients;

  <bullet> Identifying strategic early investments to assist the 
        integration and synthesis of science priorities and to address 
        known priority gaps;

  <bullet> Developing competitive processes for issuing awards for 
        addressing the science needs; and,

  <bullet> Continuing refinement of Science plan in coordination with 
        partners through the life of the Program.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                        Kathryn Sullivan, Ph.D.
NOAA Satellites
    Question 1. How would NOAA's FY 2014 budget request rein in the 
excessive costs incurred by the mismanagement of NOAA's satellite 
acquisition?
    Answer. In February 2010, when the Administration announced its 
intent to restructure the National Polar-orbiting Operational 
Environmental Satellite System (NPOESS) and to begin the Joint Polar 
Satellite System (JPSS), a number of changes were put in place within 
JPSS to address the systemic deficiencies that were the primary factors 
resulting in the ineffectiveness of the NPOESS program. The lessons 
learned from the NPOESS and other space programs' experiences were used 
to establish JPSS with streamlined management and acquisition 
excellence to achieve its mission. The FY 2014 budget request builds 
upon these factors . . . NOAA uses four major pillars for managing 
these programs:

  <bullet> Single NOAA manager with clear lines of authority and 
        responsibility for decision-making related to program 
        requirements, funding, and program direction. Where multiple 
        partners are involved, each party is responsible for discrete 
        deliverables and the effective and timely coordination of those 
        deliverables based on an approved integrated schedule 
        acceptable to all parties.

  <bullet> Partners with a proven government aerospace acquisition 
        agency (NASA), with access to leading space system technical 
        and program management experts and acquisition authorities 
        providing capacity and capability to ensure mission success.

  <bullet> Use of realistic cost estimates at appropriate confidence 
        levels to ensure that sufficient resources are identified, 
        substantiated and budgeted to address development challenges 
        before they overwhelm the viability of the program.

  <bullet> Frequent programmatic and technical reviews to ensure issues 
        are addressed and risks are effectively identified, assessed 
        and managed and in a timely manner; additionally, Program 
        Management Council meetings to verify and validate program 
        activities are within scope, cost and on schedule based on the 
        approved baseline and to provide help resolving issues and 
        risks outside the control of the program, are held monthly.

    During the development of the FY 2014 Budget Request, NOAA 
performed an additional review of its programs to identify areas where 
significant program changes could be implemented that would reduce 
overall costs, while improving the robustness of its acquisition 
programs. Much of the cost savings were found within the JPSS Program, 
specifically by reducing:

  <bullet> Select program management costs

  <bullet> Some of the science and algorithm requirements for lower 
        priority data products

  <bullet> Operations and Sustainment costs, especially in the outyears

  <bullet> Instrument development cost, where applicable

    In July 2012, an Independent Review Team concluded that NOAA should 
refocus the JPSS program on its weather mission. The FY 2014 Budget 
request refocuses the JPSS program on NOAA's core weather mission to 
strengthen the likelihood of mission success and to ensure the National 
Weather Service receives polar weather satellite observations in a 
timely manner. The FY 2013 Budget had proposed a life cycle cost 
estimate of $12.9 billion through 2028. With the FY 2014 Budget 
request, NOAA proposes a new lifecycle cost (LCC) of $11.3 billion or 
less through 2025, a $1.6 billion reduction from the FY 2013 Budget, 
largely because several climate measurement responsibilities were 
transitioned to NASA. Additionally, to decrease the risk of future gaps 
in polar weather data the Budget proposes to accelerate the development 
of JPSS-2 to prepare for a Q1 FY 2021 launch. NOAA will continue to 
work to find opportunities for cost savings.

    Question 2. Will NOAA strive to ensure acquisition of a weather 
satellite does not negatively impact other core missions--including 
important work carried out in the Gulf in collaboration with 
Mississippi's research universities?
    Answer. NOAA forecasts, warnings, and community-based preparedness 
programs are vital in enhancing the economy and saving lives. As NOAA 
approaches critical launch dates for the Geostationary Operational 
Environmental Satellite R Series (GOES-R) and the Joint Polar Satellite 
System (JPSS), the budget requests for these programs increased to 
accommodate the necessary instrument and spacecraft development, 
integration and testing, and launch services, among many other 
activities, that will secure their planned launch dates. It's important 
to note that there are aspects of these satellites that contribute to 
Gulf Coast work. For example, the Suomi-National Polar-orbiting 
Partnership (Suomi-NPP) satellite, the predecessor of JPSS, carries the 
Visible/Infrared Imager Radiometer Suite, which can detect Ocean Color. 
This is useful to the Gulf in identifying specific areas experiencing 
Harmful Algal Blooms that impact both local communities and the Gulf 
ecosystem.
    The FY 2014 budget request continues to prioritize NOAA assets and 
functions in addition to satellites. All of NOAA's missions, including 
understanding and predict changes in climate, weather, oceans, and 
coasts, sharing that knowledge and information with others, and 
conserving and managing coastal and marine ecosystems and resources, 
require targeted investments across NOAA's various offices and grants 
programs. Specifically, NOAA has targeted investments in the NMFS 
Community Based Restoration Program and Species Recovery Grants, NOS 
Marine Sensors Research and Development, Competitive Research and 
increased mapping and charting activities, and OAR Climate and Ocean 
Research, continuing important work in the Gulf and other coastal 
areas.
RESTORE Act
    Question 3. How will NOAA work with Gulf States, represented by the 
Gulf Coast Ecosystem Restoration Council, to ensure RESTORE Act 
projects align with state priorities and are not held back by 
bureaucratic hurdles?
    Answer. NOAA is working with the Gulf Coast States and other 
entities to help ensure a coordinated and collaborative approach to 
restoration that will help to avoid duplication and maximize the 
benefits to the Gulf States and the entire region. The Gulf Coast 
Ecosystem Restoration Council (Council) has already been working 
diligently to ensure that it is ready to move efficiently and 
effectively once funds are received. The Council recently released its 
Draft Initial Comprehensive Plan and Draft Programmatic Environmental 
Assessment for public comment. Additionally, NOAA has been working 
within the Council and with the States to look at its regulatory 
responsibilities as a consulting and commenting agency under statutes 
such as the Magnuson-Stevens Act and Endangered Species Act. NOAA 
believes that by looking at these issues upfront we can make regulatory 
processes associated with restoration projects more efficient and to 
help avoid unnecessary delays down the road.
    The Gulf Coast Ecosystem Restoration Science Program, administered 
by NOAA, is also already coordinating with the States and stakeholders 
in the Gulf to maximize the benefits to the Gulf of projects funded 
under this Program, once funds are determined. NOAA and FWS have had 
over 100 meetings with stakeholders and partners throughout the process 
of developing the Gulf Coast Ecosystem Restoration Science Program. 
This includes consultation with Gulf States Marine Fisheries 
Commission, Gulf of Mexico Fishery Management Council, and other 
regional, state, academic, and non-profit entities. These meetings 
shaped the Program's current framework, and continued engagement over 
the coming months will inform the Program's goals and priorities.

    Question 4. Can NOAA adapt existing programs to build on RESTORE 
Act projects that could then achieve greater environmental and economic 
recovery in the Gulf? Is this reflected in NOAA's FY 2014 budget 
request?
    Answer. The important programs which NOAA administers across the 
country also benefit the Gulf Coast directly. Since the oil spill, NOAA 
has been active in the Gulf, monitoring and evaluating the health of 
the environment and local species as part of the NOAA mission. In the 
FY 2014 President's Budget request there are many programs that will 
focus existing programs on the Gulf of Mexico region. For example, NOS 
plans to fill critical NWLON gaps in the upcoming years and will 
prioritize the Gulf and East Coast which are most vulnerable to extreme 
storm events. In the FY 2014 President's Budget, NOS has also 
specifically identified the Gulf of Mexico as a region to which they 
will provide baseline ecological assessments, harmful algal bloom and 
hypoxic condition forecasts, and socioeconomic monitoring of 
restoration projects to estimate benefits. Many programs are similarly 
prioritizing work in the Gulf of Mexico.
    In addition to all this work, some NOAA programs are specifically 
focusing on coordinating normal operations with RESTORE Act activities. 
For example, the NOAA Restoration Center Staff will coordinate NOAA's 
NRDA restoration planning and implementation with RESTORE Act 
activities to ensure a coordinated approach to restoration and recovery 
of the Gulf Coast Region. Being within NOAA allows the Gulf Coast 
Ecosystem Restoration Science Program to integrate well with existing 
NOAA activities, including programmatic and NRDA activities. Through 
coordination with the Gulf States, partners, and stakeholders NOAA 
seeks to maximize the benefit of all RESTORE Act projects.
National Data Buoy Center (at Stennis)
    Question 5. Regarding NOAA's FY 2013 plan to deal with 
sequestration, will cuts to the National Weather Service significantly 
impact the mission of the National Data Buoy Center at Stennis Space 
Center?
    Answer. Yes, significant mission impacts are being realized at the 
National Data Buoy Center at the Stennis Space Center located in South 
Mississippi due to sequestration. Reduced funding levels under 
sequestration for the National Data Buoy Center (NDBC) have forced a 
significant reduction of contract workforce and deferment of 
maintenance activities for the remainder of FY 2013.
    Due to current FY 2013 budget constraints, the NOAA National Data 
Buoy Center must defer annual maintenance of its coastal and offshore 
weather buoys that gather weather and ocean observations. This affects 
101 buoys stationed miles off the U.S. coastline.
    Additionally, NOAA must defer annual maintenance of its Coastal-
Marine Automated Network (C-MAN) weather observation network located on 
stationary coastal locations such as lighthouses and piers. This 
affects 47 C-MAN stations nationwide.
    While buoys are important observational assets, NOAA had to 
prioritize within the Local Warnings and Forecast base to sustain 
operational requirements such as the NWS workforce, dissemination 
infrastructure, and upper air observations. The reduction to buoy 
maintenance was proposed in order to lessen the impact of sequestration 
on the provision of warnings and forecasts that protect life and 
property. While there are no easy or painless options available, this 
plan represents NOAA's best effort to ensure that critical public 
services are protected and employee and mission impacts are minimized.

    Question 6. What percentage of NDBC's budget will be cut to deal 
with for sequestration?
    Answer. The approved spend plan for FY 2013 reduces NDBC's budget 
by approximately 40 percent from the FY 2012 level. (This does not 
include tsunami funding). In FY 2012, NDBC was funded at a level of 
$25.5M, while the level for FY 2013 is $14.7M.

    Question 7. How does this cut compare to other programs within the 
National Weather Service?
    Answer. All NOAA programs were reduced due to the sequestration. In 
this budget environment, NOAA has to make decisions that least impact 
our operational goals. The reduction to buoy maintenance was proposed 
in order to lessen the impact of sequestration on the provision of 
warnings and forecasts that protect life and property. While there are 
no easy or painless options available, this plan represents NOAA's best 
effort to ensure that critical public services are protected and 
employee and mission impacts are minimized. The percentage decrease 
between the FY 2012 and FY 2013 Spend Plan is 4.3 percent.
National Institute for Undersea Science and Technology
    Question 8. How does NOAA view the importance of university 
research and partnership in the Gulf of Mexico and how is that 
reflected in the President's FY 2014 budget?
    Answer. It is a high priority for NOAA to continue to leverage 
external university partnerships to optimize NOAA's research portfolio 
through integration of the academic community's cutting edge technical 
abilities. One of the most effective mechanisms for this support and 
leverage is NOAA's network of 18 Cooperative Institutes.
    One of these, the Northern Gulf Institute (NGI) is a particularly 
effective partnership among Mississippi State University, the 
University of Southern Mississippi, Florida State University, Louisiana 
State University, the Alabama Dauphin Island Sea Laboratory, and NOAA. 
NGI conducts research that builds an integrated, comprehensive 
understanding of natural and human impacts on northern Gulf of Mexico 
ecosystems and associated economies to improve its management. In the 
FY 2014 President's Budget Request, NOAA requests an increase of 
approximately $11 million for Cooperative Institutes within the Office 
of Oceanic and Atmospheric Research (OAR). These increases are proposed 
across OAR's three budget sub-activities: Climate Research; Weather and 
Air Chemistry Research; and Oceans, Coastal and Great Lakes Research.
    Although NURP funding for the National Institute for Undersea 
Science and Technology (NIUST), was terminated as part of the 
Continuing and Further Appropriations Act, 2013 (P.L. 113-6), NIUST 
partner universities are encouraged to apply for other funding 
opportunities through NOAA and the Office of Ocean Exploration and 
Research (OER). In FY 2013, the language in the Consolidated and 
Further Continuing Appropriations Act, 2013 (Public Law No. 113-06) 
directs NOAA to, ``. . . competitively award the funding provided above 
the request to preserve the work for the top centers it determines most 
valuable and consolidate this effort with the Ocean Exploration 
program, as appropriate.'' OER is providing FY 2013 funding to its Gulf 
of Mexico partners, including NIUST, using a competitive process 
designed to integrate the former NURP Center expertise to enhance Ocean 
Exploration external partnerships in the region.

    Question 9. Will NOAA strive to maintain and support external 
partnerships and research programs in the Gulf to leverage resources 
and local expertise?
    Answer. NOAA strives to maintain, support, and balance its internal 
and external partnerships and research programs including those in the 
Gulf, and does so through a number of mechanisms. Although NURP funding 
for the NIUST was terminated as part of the Continuing and Further 
Appropriations Act, 2013 (P.L. 113-6), NIUST partner universities are 
encouraged to apply for other funding opportunities through NOAA and 
OER. OER is providing FY 2013 funding to its Gulf of Mexico partners, 
including NIUST, using a competitive process designed to integrate the 
former NURP Center expertise to enhance ocean exploration external 
partnerships in the region.
    NOAA's external partnerships in the Gulf of Mexico region also 
include NGI, one of NOAA's 18 Cooperative Institutes. NGI conducts 
research that builds an integrated, comprehensive understanding of 
natural and human impacts on northern Gulf of Mexico ecosystems and 
associated economies to improve its management. In the FY 2014 
President's Budget Request, NOAA requests an increase of approximately 
$11 million for Cooperative Institutes within OAR. Additionally, the 
RESTORE Act (33 U.S.C. 1321) provides funding for research to restore 
ecosystems damaged by the Deepwater Horizon oil spill. This Act 
provides funding for Gulf Coast ecosystem restoration science, 
observation, monitoring, and technology programs, along with funding to 
establish centers of excellence to conduct targeted research in the 
Gulf Coast region.
    The FY 2014 President's budget request for OER is designed to 
increase grants and competitive funding to support external 
partnerships for ocean exploration in priority regions, including the 
Gulf of Mexico. Partnership efforts will focus on: assessments and 
characterizations of unknown and poorly known ocean areas and 
phenomena; locating and assessing historically important submerged 
cultural resources such as shipwrecks; the development of advanced 
undersea technologies focused on accelerating the pace and efficiency 
of ocean exploration; and conducting focused exploration on targets 
identified in the potential U.S. Extended Continental Shelf.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Kelly Ayotte to 
                        Kathryn Sullivan, Ph.D.
    Question. Dr. Sullivan, as you know, I have opposed NOAA's policy 
decision to prohibit interim measures in 2013 for Gulf of Maine cod and 
Gulf of Maine haddock. Without interim measures our small boat fleet in 
New Hampshire is in danger of extinction. Fishing is an historic and 
honorable trade that has been in many New Hampshire families for 
generations, and sustains the livelihood of fishing communities across 
New England. Current law directs NOAA to sustain both fish stocks and 
fishing communities. In the absence of interim measures, what action is 
NOAA prepared to take in 2013 to sustain our fishing industry in New 
Hampshire? How can New Hampshire fishermen be assured that they will 
not be forced out of business in the coming fishing year?
    Answer. NMFS understands Northeast fishing communities face serious 
challenges due to the condition of groundfish stocks, and we are 
committed to doing everything we can to help them through these 
difficult times. For example, at the Council's request we removed a 
prohibition that now enables groundfish sectors to request through 
their annual sector operations plans access for their vessels to 
portions of year-round groundfish closed areas. With this prohibition 
now removed, we will be able to consider sector access requests on a 
case by case basis through a separate rule that is currently under 
development. NOAA is working to ensure that there is a mechanism in 
place for fishing operations to obtain and pay for required monitoring 
for the 2013 fishing year, as well as in the future, as monitoring 
costs eventually transition to the industry. However, our support for 
monitoring will not apply to special exemptions from fishery 
regulations that require 100 percent at-sea monitoring coverage. For 
example, Northeast groundfish sectors can request an exemption from the 
current minimum mesh size to target redfish, but would be required to 
pay for the 100 percent observer coverage needed to monitor bycatch in 
this fishery.
    When we implemented interim measures to reduce, but not end, 
overfishing in 2012 for GOM cod, we notified the Council that it must 
end overfishing for this stock by May 1, 2013. At the request of the 
Council, we recently reviewed this determination. Based on this review, 
and upon advice of NOAA General Counsel, we have found no basis for 
changing last year's determination that we eliminate overfishing this 
year. To be consistent with the plain meaning of relevant provisions in 
the Magnuson-Stevens Fishery Conservation and Management Act (Magnuson-
Stevens Act), and in light of the clear mandate to end overfishing, a 
second year of interim measures that do not eliminate overfishing for 
GOM cod cannot be justified unless a change in circumstances has 
created a new emergency situation. At this time, there are no new 
circumstances that would give rise to a new set of interim measures. In 
addition, setting aside legal restrictions, allowing overfishing on 
this stock for another year would contribute to its declining status 
and inability to support a healthy and profitable fishing industry.
    On September 13, 2012, Dr. Rebecca Blank, Acting Secretary of 
Commerce, determined a commercial fishery failure due to a fishery 
resource disaster for the 2013 fishing year. The Department of Commerce 
and NOAA will continue to work with Congress through existing 
mechanisms to develop additional measures to ease this transition.
    To provide immediate assistance to small fishing communities like 
New Hampshire, we are providing greater access to more abundant fish 
stocks. In the fishing rules that went into effect on May 1, 2013, we 
laid the groundwork, providing potential access to some areas that have 
been closed to fishing, so fishermen can sustainably harvest healthy 
stocks like Georges Bank haddock and redfish in a way that still 
provides protections for other vulnerable groundfish stocks, habitat, 
and protected species.
    We also increased quotas on white hake and winter flounder. The 
quota on winter flounder, alone, could generate an estimated $5.4 
million in added revenue for fishermen this year. We lowered some 
groundfish sizes so fishermen can land and sell fish they were 
previously throwing overboard dead. We allowed some carryover of fish 
quota from last year that had not been caught. We are covering the 
costs of observers on fishing trips, an expense that was to be covered 
by the industry.
    We made it easier in some areas to fish for monkfish, for which 
there are ready markets. Other measures make it easier for groundfish 
fishermen to fish for abundant stocks of spiny dogfish, skates and 
pollock, species that the U.S. public is just beginning to learn about.
    Together with the New England Fishery Management Council, fishermen 
and others who want to help the groundfish fishery, NOAA is exploring 
every responsible way to help the fishing communities get through this 
difficult time, transition to healthier stocks and add value and 
improve marketing of these fisheries. We're reaching out to our 
partners in Congress and other Federal agencies for assistance, 
including the Small Business Administration, the USDA and others. The 
Economic Development Administration (EDA), also within the Department 
of Commerce, recently worked with cities in the region to create 
community development plans. The EDA plans can be a blueprint to assist 
State and local leaders to identify transition assistance for 
investments to sustain coastal communities. We will continue to work 
with the Council, Congress, the fishing industry, Federal and state 
agencies and other stakeholders to sustain the fishery, and the 
communities that depend on it, while continuing to rebuild groundfish 
resources. It will take a collective effort to find ways to keep both 
the fishery and the businesses that support it viable while these 
stocks recover.

                                  <all>

</pre></body></html>
